OPINIONS AND ORDERS
IN THE RHEINSTEIN CASE

OPINIONS AND ORDERS IN THE RHEINSTEIN CASE
Opinion and Order of Court of Appeals of Maryland
(January 24, 2020)
Findings of Fact and Conclusions of Law by Trial Judge
(August 19, 2019)
Second Memorandum Opinion and Order by Trial Judge Defaulting Rheinstein
(July 12, 2019)

A-2
A-85
A-134

Order of the Circuit Court, Anne Arundel County Partially Granting Motion for Reconsideration
(July 9, 2019)
A-142
Memorandum Opinion and Order by Trial Judge Defaulting Rheinstein
(June 27, 2019)

A-143

Hearing Order of the Circuit Court of Anne Arundel County
(June 6, 2019)

A-148

Order of Court of Appeals of Maryland Denying Motion for Reconsideration
(February 28, 2020)

A-149

MOTION PAPERS TRANSCRIPTS AND
OTHER DOCUMENTS IN THE RHEINSTEIN CASE
Excerpt from AGC Proposed Findings of Fact and Conclusions of Law
(July 8, 2019)

A-151

Excerpt from AGC Answers to Respondent's Corrected First Set of Interrogatories
(August 31, 2017)

A-154

Answer to Petition for Disciplinary or Remedial Action
(July 20, 2017)

A-158

Petition for Disciplinary or Remedial Action
(February 17, 2016)

A-258

Transcript Excerpt Showing Ruling by Trial Judge Refusing to Take Judicial Notice of
Documents Offered by Rheinstein (July 1, 2019)

A-277

Excerpt from Deposition of AGC Designee
(August 7, 2017)

A-297

OTHER DOCUMENTS
Overview of Modem Maryland Attorney Disciplinary Cases Involving Discovery
Sanctions Against Respondent Attorneys

A-303

Circuit Court for Anne Arundel County
Case No.: C-02-CV-16-000597
Argued: November 5, 2019
IN THE COURT OF APPEALS
OF MARYLAND
Misc. Docket AG No. 77
September Term, 2015
ATTORNEY GRIEVANCE COMMISSION
OF MARYLAND
v.
JASON EDWARD RHEINSTEIN
Barbera, C.J.,
McDonald,
Watts,
Hotten,
Booth
Battaglia, Lynne, A.
(Senior Judge, Specially Assigned),
Greene Jr., Clayton
(Senior Judge, Specially Assigned),
JJ.

Opinion by Battaglia, J.

Filed: January 24, 2020

A-2

Jason Edward Rheinstein ("Rheinstein"), Respondent, was admitted to the Bar of
this Court on December 15, 2005. On February 17, 2016, the Attorney Grievance
Commission ("Petitioner" or "Bar Counsel"), acting pursuant to Maryland Rule 16751(a),1 filed a Petition for Disciplinary or Remedial Action ("Petition") against Rheinstein
related to his representation of Charles and Felicia Moore. The Petition alleged that
Rheinstein violated the following Maryland Rules of Professional Conduct ("Rule"): 1.1

Effective July 1, 2016, the Maryland Lawyers' Rules of Professional Conduct were
renamed the Maryland Attorneys' Rules of Professional Conduct and moved to Title 19,
Chapter 300 of the Maryland Rules. Because all relevant conduct occurred prior to the
revision, we shall refer to the Lawyers' Rules.
1

Rule 16-751(a), now Rule 19-721(a) provided, in relevant part:
(a) Commencement of disciplinary or remedial action. (1) Upon approval
or direction of the Commission. Upon approval or direction of the
Commission, Bar Counsel shall file a Petition for Disciplinary or Remedial
Action in the Court of Appeals.

A-3

(Competence),2 3.1 (Meritorious Claims and Contentions),3 3.2 (Expediting Litigation),4
3.4 (Fairness to Opposing Party and Counsel),5 4.4 (Respect for Rights of Third Persons)6

Rule 1.1 provided: "A lawyer shall provide competent representation to a client.
Competent representation requires the legal knowledge, skill, thoroughness and
preparation reasonably necessary for the representation."
2

The revised Rule 1.1 is now numbered as Maryland Rule 19-301.1.
3

Rule 3.1 provided:

A lawyer shall not bring or defend a proceeding, or assert or controvert an
issue therein, unless there is a basis for doing so that is not frivolous, which
includes, for example, a good faith argument for an extension, modification
or reversal of existing law. A lawyer may nevertheless so defend the
proceeding as to require that every element of the moving party's case be
established.
The revised Rule 3.1 is now numbered as Maryland Rule 19-303.1.
4 Rule 3.2 provided: "A lawyer shall make reasonable efforts to expedite litigation
consistent with the interests of the client."

The revised Rule 3.2 is now numbered as Maryland Rule 19-303.2.
Rule 3.4, in pertinent part, provided: "A lawyer shall not: (c) knowingly disobey
an obligation under the rules of a tribunal except for an open refusal based on an assertion
that no valid obligation exists[.]"
5

The revised Rule 3.4 is now numbered as Maryland Rule 19-303.4.
6

Rule 4.4 provided:

In representing a client, a lawyer shall not use means that have no
substantial purpose other than to embarrass, delay, or burden a third person,
or use methods of obtaining evidence that the lawyer knows violate the legal
rights of such a person.
In communicating with third persons, a lawyer representing a client in a
matter shall not seek information relating to the matter that the lawyer knows
(continued . . .)
2
A-4

and 8.4 (Misconduct).? The allegations of the Petition stem from his representation in the
Circuit Court for Baltimore City of the Moores in challenging confessed judgments entered
against them based upon their default on a construction loan in the amount of $200,000.00
from Imagine Capital, Inc.
In an Order dated February 23, 2016, we referred the matter to Judge Paul F. Harris
of the Circuit Court for Anne Arundel County for a hearing, pursuant to Maryland Rule
16-757.8 Judge Glenn L. Klavans of the Circuit Court for Anne Arundel County heard the

(continued . . .)
or reasonably should know is protected from disclosure by statute or by an
established evidentiary privilege, unless the protection has been waived. The
lawyer who receives information that is protected from disclosure shall (1)
terminate the communication immediately and (2) give notice of the
disclosure to any tribunal in which the matter is pending and to the person
entitled to enforce the protection against disclosure.
The revised Rule 4.4 is now numbered as Maryland Rule 19-304.4.
7

Rule 8.4, in pertinent part, provided:

It is professional misconduct for a lawyer to:
violate or attempt to violate the Maryland Lawyers' Rules of Professional
Conduct, knowingly assist or induce another to do so, or do so through the
acts of another;
commit a criminal act that reflects adversely on the lawyer's honesty,
trustworthiness or fitness as a lawyer in other respects
engage in conduct involving dishonesty, fraud, deceit or
misrepresentation;
engage in conduct that is prejudicial to the administration of justice[.]
The revised Rule 8.4 is now numbered as Maryland Rule 19-308.4.
8

Rule 16-757, currently renumbered as Rule 19-727, stated:
(continued . . .)

3
A-5

matter following Judge Harris's retirement; he determined that Rheinstein had committed
discovery violations which warranted sanctions culminating in Respondent admitting the
allegations in the Petition as well as being prohibited from presenting evidence, to include
the presentation of experts.' We begin with an extensive review of the procedural history.

(continued . . .)
Generally. The hearing of all disciplinary or remedial action is governed
by the rules of evidence and procedure applicable to a court trial in a civil
action tried in a circuit court. Unless extended by the Court of Appeals, the
hearing shall be completed within 120 days after service on the respondent
of the order designating a judge. Before the conclusion of the hearing, the
judge may permit any complainant testify, subject to cross-examination,
regarding the effect of the alleged misconduct. A respondent attorney may
offer, or the judge may inquire regarding, evidence otherwise admissible of
any remedial action undertaken relevant to the allegations. Bar Counsel may
respond to any evidence of remedial action.
Burdens of proof. The petitioner has the burden of proving the
averments of the petition by clear and convincing evidence. A respondent
who asserts an affirmative defense or a matter of mitigation or extenuation
has the burden of proving the defense or matter by a preponderance of the
evidence.
Findings and conclusions. The judge shall prepare and file or dictate
into the record a statement of the judge's findings of fact, including findings
as to any evidence regarding remedial action, and conclusions of law. If
dictated into the record, the statement shall by promptly transcribed. Unless
the time is extended by the Court of Appeals, the written or transcribed
statement shall be filed with the clerk responsible for the record no later than
45 days after the conclusion of the hearing. The clerk shall mail a copy of
the statement to each party.
Transcript. The petitioner shall cause a transcript of the hearing to be
prepared and included in the record.
Transmittal of record. Unless a different time is ordered by the Court
of Appeals, the clerk shall transmit the record to the Court of Appeals within
15 days after the statement of findings and conclusions is filed.
9

Rheinstein proffered what his experts would have testified about, as we discuss

infra.

4
A-6

PROCEDURAL HISTORY
Rheinstein was served with the Petition for Disciplinary or Remedial Action, our
Order, and the Writ of Summons on April 22, 2016. On the same day, Bar Counsel served
counsel for Respondent with Petitioner's First Set of Interrogatories and Petitioner's First
Request for Production of Documents.
On May 12, 2016, Rheinstein filed, in the circuit court, "Respondent's Motion to
Dismiss Petition for Disciplinary or Remedial Action for Failure to State a Claim and Lack
of Ripeness; or in the Alternative, Motion for More Definite Statement; and Request for
Hearing." On May 23, 2016, without responding to Bar Counsel's discovery requests and
before his motion to dismiss was ruled upon, Respondent also filed a Notice of Removal
in the United States District Court for the District of Maryland, contending that the federal
court possessed jurisdiction because of federal questions and the federal officer removal
statute.' Ten months later, on March 17, 2017, after Bar Counsel moved to have the case

1° Respondent contended that the federal court possessed jurisdiction over the
disciplinary action against him based upon 28 U.S.C. § 1441, which, in part, provides:
(a) Generally. — Except as otherwise expressly provided by Act of Congress,
any civil action brought in a State court of which the district courts of the
United States have original jurisdiction, may be removed by the defendant or
the defendants, to the district court of the United States for the district and
division embracing the place where such action is pending.
***
(c) Joinder of Federal Law Claims and State Law Claims. —
(1) If a civil action includes —
(A) a claim arising under the Constitution, laws, or treaties of the United
States (within the meaning of section 1331 of this title), and
(continued . . .)
5
A-7

remanded back to the state court, the federal district court did so, noting that it did not have
jurisdiction over the matter, and, if it were to have possessed jurisdiction, it "would
nevertheless have abstained and remanded the case to proceed in the state court." Attorney

(continued . . .)
(B) a claim not within the original or supplemental jurisdiction of the district
court or a claim that has been made nonremovable by statute, the entire action
may be removed if the action would be removable without the inclusion of
the claim described in subparagraph (B).
(2) Upon removal of an action described in paragraph (1), the district court
shall sever from the action all claims described in paragraph (1)(B) and shall
remand the severed claims to the State court from which the action was
removed. Only defendants against whom a claim described in paragraph
(1)(A) has been asserted are required to join or in consent to the removal
under paragraph (1).
Respondent also posited that the federal court possessed federal officer jurisdiction
over the suit, which is governed by 28 U.S.C. § 1442, and provides in part:
(a) A civil action or criminal prosecution that is commenced in a State court
and that is against or directed to any of the following may be removed by
them to the district court of the United States for the district and division
embracing the place wherein it is pending.
The United States or any agency thereof or any officer (or any person
acting under that officer) of the United States or of any agency thereof, in an
official or individual capacity, for or relating to any act under color of such
office or on account of any right, title or authority claimed under any Act of
Congress for the apprehension or punishment of criminals or the collection
of the revenue.
A property holder whose title is derived from any such officer, where
such action or prosecution affects the validity of any law of the United States.
Any officer of the courts of the United States, for or relating to any act
under color of office or in the performance of his duties.
Any officer of either House of Congress, for or relating to any act in the
discharge of his official duty under an order of such House.

6
A-8

Grievance Comm 'n of Maryland v. Rheinstein, No. MJG-16-1591, 2017 WL 1035831, at
*3 (D. Md. Mar. 17, 2017).
On June 8, 2017, upon remand, Judge Harris heard arguments on the 2016 motion
to dismiss and subsequently denied it. During this hearing, Judge Harris stated on the
record that the deadline for discovery was August 8, 2017, which was noted on the
Scheduling Conference Hearing Sheet, albeit not on the Scheduling Order:
THE COURT: All right. We're going to conduct a scheduling conference.
Have we — how do we stand time wise?
[BAR COUNSEL]: Your Honor, I was doing the calculations and I know I
had talked to your clerk about this too, service — the original service in this
case was April 22, 2016, so pursuant to the Court's original order we had 120
days from that date to complete the hearing on this matter. The matter was
removed to the federal court on May 23, 2016, so we've used up the first 30
days. It was remanded on March 17th, 2017. So I think between March 17th,
if my math is correct and today, that's . . . an additional 85 days.
But my suggestion would be, Your Honor, with the Court's
permission, that we start the clock anew. Discovery has been propounded by
the Petitioner, but as Your Honor knows the answer hasn't been filed yet,
discovery responses haven't begun again. . . .
THE COURT: Answers to your discovery have not been made?
[BAR COUNSEL]: That's correct, Your Honor.
THE COURT: Okay. When are they due?
[BAR COUNSEL]: They were — oh, they were due — they've been long
overdue, but I haven't filed a motion to comply.
THE COURT: Well but I - - if discovery has already started I need to put
limit on the discovery deadline. . . . Why haven't your responses been given
yet?
[COUNSEL FOR RESPONDENT]: It has been in the federal court since
then.
'

7
A-9

THE COURT: Well it's not anymore is it?
[COUNSEL FOR RESPONDENT]: Well, Your Honor, two of the claims
that they made involve federal lawsuits.
THE COURT: Uh-huh.
[COUNSEL FOR RESPONDENT]: And the issue was whether they should
be resolved by the court in which they are filed under federal law and not in
a Maryland court deciding what a federal court should do. And that has just
ended with its removal from the federal court back to Maryland. And so that
delayed everything.
THE COURT: All right. Well why don't we do this. Let me - - bear with
me. . . . Are we going to need an extension?
[BAR COUNSEL]: Your, Honor, that's what I was going to say is we're
very likely going to need an extension any way, and so my preference would
be, and I know that I've spoken to [counsel for Respondent] about this briefly
earlier in the week, is that we sort of start over as if things had - - as if the
petition had just been filed, maybe look at a trial date in December and then
get an extension for the trial date and then backtrack the dates for discovery
deadline and the like.
(alterations added). Judge Harris chose to conclude discovery within 60 days, by August
8, 2017:
THE COURT: Today is June 8th, I see no reason why discovery should not
be completed within 60 days. Everybody in agreement with that?
[BAR COUNSEL]: I am, Your Honor.
THE COURT: Okay. Counsel? []
[COUNSEL FOR RESPONDENT]: It's going to be tight. I know my own
schedule and I know what I've got trial wise and everybody else. I think 60
days is pushing it to get everything done that needs to be done.
THE COURT: Well let me tell you, sir, with all due respect we do medical
malpractice cases and get them done in 60 days. So it's going to be 60 days.

8
A- 1 0

[COUNSEL FOR RESPONDENT]: I understand. I was asked though, and
I'm telling you - THE COURT: Well I appreciate it, I appreciate your input.
***

THE COURT: Okay. So we're going to set the discovery deadline for
August 8th.
[COUNSEL FOR RESPONDENT]: May I ask a question, Your Honor?
THE COURT: Go ahead, Counsel.
[COUNSEL FOR RESPONDENT]: Is it August date to be filed or August
date to be answered and completed?
THE COURT: Everything done.
[COUNSEL FOR RESPONDENT]: Done. Both ways.
THE COURT: So read our DCM policy, because if there's an issue with a
motion to compel discovery all of that needs to be recognized short of the 60.
days so it can be resolved within 60 days. Okay?
[COUNSEL FOR RESPONDENT]: That's correct. Is the time the same as
in the rule 30 days to answer or should we adjust that?
THE COURT: Well that — look at our DCM plan. I mean to answer your
question there's two ways to approach it. If we went by the rule you would
already be in default for not answering her discovery at this point. . . . That's
what the rule says. But because we haven't had the opportunity of the
scheduling order yet our DCM plan would kick in and the dates that I'm
setting you can get your discovery done well before that.
[COUNSEL FOR RESPONDENT]: I understand, Your Honor, but please
understand perhaps I'm in error, but this matter has been under the
jurisdiction of the federal court with the [state] court no longer having
jurisdiction until recently.
THE COURT: The Attorney Grievance matter was in federal court; is that
what you're saying?

9
A-11

[COUNSEL FOR RESPONDENT]: Yes. Yes, Your Honor. [] Okay. And
our contention was that you couldn't claim a federal case was frivolous when
it was pending to be heard by the federal court and you had to await the ruling
in the federal court. And the federal court took that under consideration. It
took a while with [them] then said, no, send it back just for discipline.
(alterations added).
At the hearing, Judge Harris also inquired as to whether the parties would be calling
any expert witnesses:
THE COURT: Any need for experts?
[BAR COUNSEL]: Not on my side, Your Honor.
[COUNSEL FOR RESPONDENT]: I don't know as [of] yet, Your Honor,
I'm not sure until we get discovery what they're claiming is frivolous.
The hearing on the matter was set for six days to begin on September 5, 2017. On June 30,
2017, the attorneys representing Rheinstein moved to withdraw whereupon Respondent
entered "the appearance of Jason E. Rheinstein, Esq., pro se, as counsel for the
Respondent[.]"
On July 19, 2017, Bar Counsel filed a Motion for Sanctions and Order of Default,
based upon Respondent's failure to answer the Petition within fifteen days of April 22,
2016, the date of its service; his failure to respond to Bar Counsel's interrogatories and
requests for production of documents or otherwise to explain his failure to respond or seek
a protective order, thus, asking the court to:
Order that the averments in the Petition for Disciplinary or Remedial
Action be deemed admitted;
Order the Respondent be precluded from calling any witnesses at trial;
Order the Respondent be precluded from presenting any documents at
trial;
10
A- 1 2

Order that the Respondent be precluded from presenting any evidence or
testimony which contradicts the averments in the Petition for Disciplinary or
Remedial Action;
Order that the Respondent be precluded from testifying to any matter
other than any alleged mitigation;
Enter an Order of Default against the Respondent in this proceeding;
Direct the Clerk to issue notice pursuant to Rule 2-613(c); and
Grant such other and further relief as the court deems appropriate.
On the following day, Respondent filed a 99-page Answer to the Petition, in which
he denied the averments in the Petition by asserting that the actions in the Moore litigation
were justified and supplied the following affirmative defenses, albeit without any mention
of mitigation:
First Affirmative Defense: Inadequate Notice/Lack of Procedural Due
Process
Second Affirmative Defense: Legal Insufficiency/Failure to State a Claim
Third Affirmative Defense: Unclean Hands
Fourth Affirmative Defense: Laches
Fifth Affirmative Defense: Release, Settlement, Accord and Satisfaction
Sixth Affirmative Defense: Implied Consent
Seventh Affirmative Defense: Express Consent
Eight Affirmative Defense: Waiver
Ninth Affirmative Defense: Equal Protection
Tenth Affirmative Defense: Equitable Estoppel
Eleventh Affirmative Defense: Subject Matter Jurisdiction
Twelfth Affirmative Defense: Res Judicata
Thirteenth Affirmative Defense: Collateral Estoppel
11
A- 1 3

Fourteenth Affirmative Defense: Duress
(emboldening and underlining removed). Respondent also asserted that he "reserve[d] the
right to assert any other defense provided by rule or statute, whether listed herein or not,
including, but not limited to, defenses listed in Maryland Rule 2-322 and Maryland Rule
2-323."
Rheinstein, again, requested that the Petition be dismissed. Within days, he
propounded his "First Request for Production of Documents" and "First Set of
Interrogatories" on Bar Counsel. On August 2, 2017, Respondent also filed an Opposition
to Motion for Sanctions and Order of Default, in which he argued that Petitioner's
discovery, propounded on April 22, 2016, was "invalid" after he removed the case to the
federal court and that Bar Counsel was required to propound new matters in discovery after
the case was remanded, such that the failure to do so precluded any discovery violations
and attendant sanctions.
On August 3, 2017, Judge Harris, with the parties in chambers, stated that the written
scheduling order was ambiguous as it specified only that expert designations were due
August 8, 2017, but did not expressly state that all discovery closed August 8, 2017, as he
had stated during the hearing on June 8, 2017. Judge Harris, nevertheless, directed that the
parties "get discovery done."
On August 9, 2017, the day after which discovery was to be completed, pursuant to
the June 8th hearing, Rheinstein filed a Motion for Extension of Time to Complete Expert
Designations, stating that he intended to enlist an expert to opine that the pleadings he filed
in the Moore case were not frivolous, as alleged in the Petition. In that motion, Rheinstein
12
A- 1 4

expressed his need for additional time for discovery, as he proffered his need to review the
transcripts from a recent deposition of an Attorney Grievance Commission member which
he had not received; his motion, however, was denied on September 1, 2017. By order
dated August 14, 2017, Judge Harris, however, had denied Bar Counsel's Motion for an
Order of Default against Respondent, because of the Answer filed on July 20, 2017,
although the Judge also stated that Petitioner's Motion for Sanctions would be addressed
at trial. On August 21, 2017, Bar Counsel provided Respondent her Answers to
Interrogatories and Responses to Request for Production of Documents. On August 23,
2017, Respondent filed a Motion for Clarification of Scheduling Order Deadline, which
Judge Harris denied.
Respondent, nevertheless, just days before trial was set to begin, on September 2,
2017, filed a second Notice of Removal in the United States District Court for the District
of Maryland, arguing that the second removal differed from the first based upon Bar
Counsel's responses to his interrogatories and requests for production," which allegedly
necessitated removal and thus, obviated the need for the state court hearing; in language
alleging an "illicit strategy" on behalf of Bar Counsel, Rheinstein contended that:

As authority for the second removal, Respondent cited 28 U.S.C. § 1446(b)(3),
which provides:
11

Except as provided in subsection (c), if the case stated by the initial pleading
is not removable, a notice of removal may be filed within thirty days after
receipt by the defendant, through service or otherwise, of a copy of an
amended pleading, motion, order or other paper from which it may first be
ascertained that the case is one which is or has become removable.
13
A-15

This Court should not decline to exercise its jurisdiction over any claims in
this matter because (1) jurisdiction is mandatory in cases properly removed
under 28 U.S.C. § 1442; (2) [Bar Counsel]'s discovery responses (contrary
to what it previously asserted) conclusively establish that it is attempting to
try the merits of Qui Tam I, currently still pending before this Court, in the
State Court Proceeding; (3) documents produced by [Bar Counsel] suggest
this action was primarily brought to undermine [Respondent]'s ability to
pursue the case still-pending before this Court; and very significantly, (4)
[Bar Counsel] has brought exceedingly vague and broad allegations in this
case as part of an illicit strategy on the part of one of its employees, Lydia E.
Lawless, to exploit the state court procedural rules in a manner that has the
practical effect of rendering the notice requirements of due process nugatory
and ineffectual.
On September 5, 2017, the day on which the hearing was scheduled to begin, Bar
Counsel filed in the federal court an Emergency Motion for Remand for Lack of Federal
Jurisdiction, which that court granted on September 20, 2017. Respondent, however,
thereafter, noted an appeal in the United States Court of Appeals for the Fourth Circuit;
this Court, in response to a consent motion of the parties, stayed the instant proceedings
"pending final disposition by the United States Court of Appeals for the Fourth Circuit."
On February 5, 2019, the United States Court of Appeals for the Fourth Circuit, in
an unpublished per curiam opinion,12 affirmed the district court decision to remand the case
to the state court; and on May 17, 2019, this Court granted Bar Counsel's Motion to Lift
Stay and For Appropriate Relief. The matter was then assigned to Judge Glenn L. Klavans
of the Circuit Court for Anne Arundel County, upon the retirement of Judge Harris. We
ordered that a hearing on the matter be held as soon as possible, within sixty days of our

Attorney Grievance Comm'n v. Jason Edward Rheinstein, 750 F. App'x 225 (4th
Cir. 2019), cent. denied, 140 S. Ct. 226 (2019).
12

14
A- 1 6

May 17th order, noting that "discovery in the Circuit Court was concluded in August
2017."
On June 10, 2019, new counsel entered an appearance as counsel for Respondent.
On June 5, 2019, counsel for Respondent emailed Bar Counsel stating that Respondent
would require "4 to 5 days for the defense case," to which Bar Counsel emailed a response,
stating that, "I'm not sure how you will use 4-5 days as Mr. Rheinstein never responded to
discovery identifying any witnesses or individuals with personal knowledge or designated
an expert. . . . Please immediately notify me of your intended witnesses."
On June 6, 2019, counsel for Rheinstein replied, advising that, lait present, we've
identified a number of people with personal knowledge that might be called at trial," listing
mainly individuals involved with the underlying litigation, including Lydia Lawless, Bar
Counsel, and concluding that, "[t]he above list is preliminary and does not include our
client of course, expert witnesses, and other potential witnesses."
Judge Klavans, on June 6, 2019, scheduled a hearing on the matter to take place
over the course of six days beginning on July 1, 2019.
On June 12, 2019, Bar Counsel filed a Motion for Sanctions and/or Motion in
Limine, reiterating the reasons set forth in the 2017 Motion for Sanctions and Order of
Default, asking that the circuit court:
Grant Petitioner's Motion for Sanctions and/or Motion in Limine;
Order that the averments in the Petition for Disciplinary or Remedial
Action be deemed admitted;
Strike Respondent's Answer to the Petition for Disciplinary or Remedial
Action;
Order the Respondent be precluded from calling any witnesses at trial;
15
A- 1 7

Order the Respondent be precluded from presenting any documents at
trial;
Order that the Respondent be precluded from presenting any evidence or
testimony which contradicts the averments in the Petition for Disciplinary or
Remedial Action; and
[G]. Grant such other and further relief as the court deems appropriate.
(alteration added).
On the following day, Rheinstein served Bar Counsel with "Respondent's Answers
to Petitioner's Renewed First Set of Interrogatories" and "Respondent's Response to
petitioner's Renewed First Request for Production of Documents, Electronically-Stored
Information and Property.' In one of his responses, Respondent provided an extensive
list of individuals he intended to call as non-expert witnesses at the hearing:
Individuals with discoverable information include the parties and attorneys
involved in the case identified in Table 2 of EXHIBIT 1, which is
incorporated by reference. Such individuals also include the persons who
served as investigators on behalf of the Petitioner and subject to the Touhy
regulations,[141 the various federal officials who were assigned to investigate
the real estate transactions in the underlying cases.
***
Each of the individuals identified has information relating to the case(s) or
related matter(s) (such as real estate transactions, etc.) for which he or she
was a party, an attorney, or an investigator. Pursuant to Maryland Rule 2421(c), the identities of additional persons may be derived from the
documents identified in the Table of Contents of each of the indexed volumes
listed in EXHIBIT 2, attached hereto. Each of the volumes listed in Exhibit
2 was previously provided to the Petitioner in the present litigation. Please
The responses were to Bar Counsel's discovery requests originally propounded
on April 22, 2016. Bar Counsel did not serve any other additional discovery requests.
13

Touhy regulations refer to "[h]ousekeeping regulations that create agency
procedures for responding to subpoenas[.]" COMSTAT Corp. v. Nat'l Sci. Found., 190
F.3d 269, 272 n.3 (4th Cir. 1999) (citing United States ex rel. Touhy v. Ragen, 340 U.S.
462, 71 S. Ct. 416, 95 L.Ed. 417 (1951)). "In Touhy the Court ruled that agency employees
may not be held in contempt for refusing to answer a subpoena, if prohibited from
responding by a superior." Id. (citing Touhy, 340 U.S. at 468, 71 S. Ct. 416).
14

16
A- 1 8

also see Respondent's 99-page Answer to the PDRA filed in the Circuit
Court for Anne Arundel County on July 20, 2017, Respondent's Corrected
Opening Brief of Appellant filed in the United States Court of Appeals for
the Fourth Circuit on May 11, 2018, Respondent's Corrected Reply Brief of
Appellant filed in the United States Court of Appeals for the Fourth Circuit
on January 14, 2019, and Respondent's filings in the United States District
Court for the District of Maryland in the removal cases[.]
With respect to expert witnesses, Respondent responded that:
The Respondent expects to call Douglas Bergman, Esquire as an expert
witness at trial. . . . Mr. Bergman . . . has been practicing law since 1974 and
is expected to testify about the matters at issue in this case. It is anticipated
that Mr. Bergman, based upon his review of certain materials, his education,
review of the applicable ethical rules, and experience as a lawyer will testify
generally about the matters as set forth in the AGC's Petition for Disciplinary
or Remedial Action ("PDRA") and rebut the assertions made by the
Petitioner against the Respondent in the PDRA. It is anticipated that Mr.
Bergman will testify and offer opinions about the reasons why the filings and
other materials referenced in the PDRA as being frivolous were not frivolous.
It is anticipated that Mr. Bergman will testify and offer opinions about the
communications mentioned in the PDRA that are characterized as
"Respondent's Continued Threats and Abusive Behavior." All of Mr.
Bergman's opinions will be offered to a reasonable degree of legal certainty.
Respondent is also endeavoring to locate a mental health expert to opine on
Respondent's attention deficit disorder ("ADHD") disability and why it was
the root cause of certain matters at issue in the. PDRA, including the
communications characterized as "Respondent's Continued Threats and
Abusive Behavior." The Respondent reserves the right to supplement this
and all other discovery responses.
In response to Bar Counsel's inquiry as to whether Respondent intended to contend that
"an injury, disability or illness of physical, mental or emotional nature caused or
contributed to the circumstances described in and upon" which the PDRA is based, to state
the facts upon which he would rely to establish that connection and list any individuals
who have investigated "the cause or circumstances of the matter(s)" described in the
PDRA, Rheinstein responded that he
17
A- 1 9

intends to offer evidence that he suffers from a disability, attention deficit
hyperactivity disorder ("ADHD"), which, among others, negatively impacts
impulse control and that his ADHD is the root cause of some of the matters
at issue in the PDRA, including the communications labeled "Respondent's
Continued Threats and Abusive Behavior."
***

The Respondent's counsel have investigated the matter on his behalf. The
Respondent also retained an expert witness as detailed above, and plans to
designate a mental health expert as well as detailed above.
Lastly, with respect to Bar Counsel's inquiry as to which, if any, factors in mitigation
Respondent planned to proffer at the hearing, Respondent objected, stating that this
interrogatory "specifically seeks information protected by the work-product doctrine," and
listed the mitigation factors adopted by this Court, stating that he "also reserves the right
to supplement this answer and introduce evidence regarding additional mitigating factors
as the list [] is not exhaustive."
In Respondent's Response to Petitioner's Renewed First Request for Production of
Documents, Electronically-Stored Information and Property, Rheinstein contended that he
was under no obligation to disclose further documents, arguing that, for many of the
requests, a privilege existed which barred disclosure, or referred Bar Counsel to documents
"provided in electronic form by Respondent Jason Rheinstein to Petitioner Attorney
Grievance Commission" in 2017 and 2018.
On June 24, 2019, Respondent filed an Opposition to Petitioner's Motion for
Sanctions and/or Motion in Limine, arguing that any request for discovery sanctions should
be denied because, "[t]here was no failure of discovery since the Pre-Removal Discovery
Requests did not survive the first removal of this case, and the Petitioner never renewed its
discovery requests until it filed its" most recent motion for sanctions. Rheinstein also
18
A-20

argued that sanctions should be denied because Bar Counsel "failed to make any good faith
efforts to resolve any perceived discovery dispute."
Respondent further contended that sanctions were not warranted because Bar
Counsel had not been prejudiced by the discovery violation as, in Rheinstein's opinion, it
"now has all the information it was seeking since the Respondent promptly answered the
requests after Petitioner renewed them through its" Motion for Sanctions and/or Motion in
Limine. Counsel for Rheinstein, thereupon, also filed a Motion for a 60-Day Continuance
of the hearing in this Court, seeking additional time to conduct discovery based upon the
fact that counsel "were retained to defend the case 14 days ago" and that key witnesses
were not available to testify at the hearing as scheduled and that Respondent "wish[ed]" to
present expert testimony, including medical expert testimony in mitigation." This Court
denied the motion.
On the same day, Bar Counsel filed a Supplement to Petitioner's Motion for
Sanctions and/or Motion in Limine, arguing further reasons as to why Rheinstein should
be precluded from proffering evidence, stating, in part:
In response to the Interrogatories the Respondent stated for the first
time during the three years this case has been pending, his intention to offer
his purported ADHD diagnosis as a defense/mitigation. As noted above, the
Respondent has failed to designate any expert to testify in support of the
proposed defense and/or mitigation and the Petitioner has been precluded
from doing any discovery into the Respondent's diagnosis, medical history,
symptoms, or causal connection. Similarly, the Petitioner has been precluded
from obtaining an independent medical evaluation of the Respondent during
discovery. Additionally, the Respondent has failed to produce any
documents associated, in any way, with his purported diagnosis.
In response to the request for information regarding the particular
factors in mitigation that he intends to prove at trial, the Respondent, rather
19
A-21

than providing a response, merely recites the factors recognized by the Court
of Appeals.
The Petitioner will be prejudiced if the Respondent is permitted to
present evidence in mitigation or any medical evidence related to a defense
or mitigation as the Petitioner has been precluded from doing any discovery
related to any facts he intends to prove at trial. The failure to provide
discovery related to his defenses and/or mitigation is prejudicial as it impedes
the Petitioner's ability to challenge or cross-examine the evidence or
witness(es) or obtain an independent evaluation.
On June 27, 2019, Judge Klavans granted Bar Counsel's Motion for Sanctions and
request for default, resulting in the admission of the averments in the Petition, striking
Rheinstein's Answer to the Petition, precluding Respondent from calling any witnesses at
any hearing, precluding Respondent from presenting any documents at any hearing and
precluding Respondent from presenting any evidence or testimony which would contradict
the averments contained in the Petition,15 reasoning that:

When Judge Klavans granted Petitioner's Motion for Sanctions and/or In Limine,
filed on June 12, 2019, his order did not conflict with Judge Harris's denial of Petitioner's
Motion for Sanctions and Order of Default, filed on July 19, 2017, because Judge Harris
denied the motion on the basis that Respondent had filed an Answer to the Petition, but
also preserved the issue of sanctions to be heard on September 5, 2017, at the hearing on
the merits. That hearing never took place because Rheinstein filed his second removal
action. Once the disciplinary matter had been remanded to the court in 2019, Rheinstein
for the first time indicated that he intended to proffer evidence in mitigation. Bar Counsel
in response argued in its Supplement to Petitioner's Motion for Sanctions and/or Motion
In Limine that Rheinstein should not be able to proffer mitigation based upon his earlier
failure to disclose any factors in mitigation. After considering Petitioner's Motion for
Sanctions and Order of Default, Petitioner's Motion for Sanctions and/or Motion in
Limine, Supplement to Petitioner's Motion for Sanctions and/or Motion in Limine,
Respondent's Opposition to Petitioner's Motion for Sanctions and/or In Limine, filed June
24, 2019, and upon review of the record, Judge Klavans granted Petitioner's Motion for
Sanctions and/or Motion In Limine. The order deemed admitted all factual averments set
forth in the Petition, struck Rheinstein's Answer and entered a judgment of default, which
found that the Rules of Professional Conduct had been violated as alleged in the Petition.
As a result, Judge Klavans' order did not contravene Judge Harris' order.
15

20
A-22

[T]he Respondent failed, after proper service, to respond to, or
supplement, in a timely manner Petitioner's First Set of Interrogatories, and
Petitioner's First Request for Production of Documents, Electronically
Stored Information and Property.
The actions of the Respondent, as evidenced by his failure to respond
to or supplement discovery requests, without excuse, was purposeful and
willful. Respondent, through previous counsel and then pro se, engaged in a
course of conduct designed to be dilatory, including but not limited to his
failure to provide discovery, and two removals of this action to the federal
courts that were summarily remanded to this Court (the second of which was
affirmed by the 4th Circuit U.S. Court of Appeals).
The stay in this matter was lifted by the Court of Appeals on May 17,
2019. Yet, Respondent continued to fail to respond to the pending discovery
requests. The Court finds that Respondent's counsel's email to Bar Counsel
attempting to informally provide possible witness names, including an expert
witness, for the first time on June 6, 2019, a mere 26 days prior to the
scheduled hearing, more than three years after discovery was propounded,
and clearly after the discovery deadline in August, 2017, was the very first
glimmer of compliance with the discovery rules. It was too little and much
too late.
Finally, Respondent's willful and deliberate course of conduct to
subvert the discovery process is also clearly demonstrated from the styling
of Respondent's eleventh-hour responses to the discovery requests:
"Respondent's Answers to petitioner's Renewed First Set of Interrogatories"
(emphasis added), and "Respondent's Response to Petitioner's Renewed
First Request for Production of Documents, Electronically-Stored
Information and Property" (emphasis added), were served upon Petitioner on
June 13, 2019. Petitioner's discovery requests were not renewed. To the
contrary, they had been propounded on April 22, 2016.
The Court further finds that Respondent made no good faith effort to
resolve this discovery dispute. To the contrary, Respondent's position that
Petitioner's discovery requests had been somehow nullified by virtue of his
removal of the matter to Federal court is unsupported in law. The
Respondent sought no protective order therefore. As such, it clearly
indicative of dilatory and willful conduct.
Respondent's failures of discovery severely prejudices the Petitioner
by preventing Petitioner to learn the identity of Respondent's witnesses,
including expert witnesses, reviewing Respondent's documentary evidence,
both as to facts and mitigation, conducting discovery thereon and properly
preparing for the hearing scheduled in this matter, especially in light of the
time limitations imposed by law on the timely conduct of attorney
disciplinary hearings, as reflected in the Scheduling Order entered in this
matter.
21
A-23

***

It is therefore:
Ordered, Petitioner's Motion for Sanctions and/or Motion In Limine
is GRANTED. All factual averments set forth in the Petition for
Disciplinary or Remedial Action are deemed admitted; the Respondent's
Answer to the Petition for Disciplinary or Remedial Action is hereby
STRICKEN and JUDGMENT BY DEFAULT is entered against the
Respondent and in favor of the Petitioner, finding that the Rules of
Professional Conduct have been violated as alleged in the Petition for
Disciplinary or Remedial Action; and it is further
ORDERED, that Petitioner is directed to file Proposed Findings of
Fact and Conclusions of Law. This Court will conduct a hearing for the
purpose of argument only from the parties on such Proposed Findings of Fact
and Conclusions of Law, commencing July 1, 2019[.]
Rheinstein, then, filed a motion to reconsider Judge Klavans' order or, "Alternatively,
Motion to Alter or Amend Judgment or, Alternatively, Motion to Vacate Default
Judgment," arguing, that the default judgment against him was not appropriate based, in
part, upon the fact that he "suffers from ADHD, which caused him to struggle with
deadlines and require additional time to complete routine tasks."
On July 8, 2019, Bar Counsel, as directed by Judge Klavans, filed Proposed
Findings of Fact and Conclusions of Law. On July 10, 2019, Judge Klavans held a hearing
on Respondent's Motion for Reconsideration and denied it, affirming the July 3rd order of
default. At that same hearing, Judge Klavans also heard arguments on Petitioner's
proposed Findings of Fact and Conclusions of Law. On August 8, 2019, Rheinstein filed
a Motion to Supplement the Record for Further Relief and requested a hearing, asking the
circuit court to reject Bar Counsel's proposed conclusions of law based upon their reliance
on emails sent by the Respondent in connection with the underlying litigation, "take
judicial notice of the publicly-accessible records of the underlying litigation" and allow
22
A-24

him to submit a response to Bar Counsel's Proposed Findings of Fact and Conclusions of
Law. Judge Klavans denied Rheinstein's requests.
On August 19, 2019, Judge Klavans issued his Findings of Facts based upon the
allegations as admitted and concluded that Rheinstein violated Rules 1.1, 3.1, 3.4, 4.4 and
8 4 16
. .

DISCOVERY SANCTIONS
In the instant matter, Judge Klavans found various discovery violations committed
by Rheinstein and imposed sanctions which resulted in the admission of the averments in
the Petition by Respondent, the striking of Rheinstein's Answer to the Petition and the
inability of the Respondent to present testimony, including that of experts.
In attorney grievance matters, we recognize that the hearing judge, generally, "is
entrusted with the role of administering the discovery rules and, as such, is vested with
broad discretion in imposing sanctions when a party fails to comply with the rules."
Attorney Grievance Comm'n v. Barton, 442 Md. 91, 120, 110 A.3d 668, 685 (2015)
(quoting Attorney Grievance Comm'n v. O'Leary, 433 Md. 2, 28-29, 69 A.3d 1121, 1137
(2013) (internal citation omitted)). We, thus, review the hearing judge's decision to impose
discovery sanctions for an abuse of discretion. Id.; Attorney Grievance Comm'n v. Kent,
447 Md. 555, 576, 136 A.3d 394, 407 (2016).
Once a circuit court judge is assigned to oversee the disciplinary matter, the judge
is required to "enter a scheduling order" which "shall define the extent of discovery and

16

Bar Counsel had withdrawn the Rule 3.2 allegation.
23
A-25

set dates for the completion of discovery, designation of experts, the filing of motions, and
a hearing on the petition," within "15 days after the date on which the answer is due, and
after consultation with Bar Counsel and the attorney[.]" Md. Rule 19-722(a). The rules
governing the attorney grievance process further provide that, once "a Petition for
Disciplinary or Remedial Action has been filed, discovery is governed by Title 2, Chapter
400, subject to any scheduling order entered pursuant to Rule 19-722." Md. Rule 19-726.
Pursuant to Rule 2-421(b), the party to whom interrogatories are directed "shall
serve a response within 30 days after service of the interrogatories or within 15 days after
the date on which that party's initial pleading or motion is required, whichever is later."
Rule 2-422(c) also provides the same deadlines for responses to requests for production or
inspection of documents, electronically stored information and property. Where a party
fails to comply with the response requirements for interrogatories and requests for
production, Rule 2-432(a) permits the discovering party to move for sanctions without first
filing a motion to compel discovery:
(a) Immediate sanctions for certain failures of discovery. A discovering
party may move for sanctions under Rule 2-433(a), without first obtaining an
order compelling discovery under section (b) of this Rule, if a party or any
officer, director, or managing agent of a party or a person designated under
Rule 2-412(d) to testify on behalf of a party, fails to appear before the officer
who is to take that persons' deposition, after proper notice, or if a party fails
to serve a response to interrogatories under Rule 2-421 or to a request for
production or inspection under Rule 2-422, after proper service. Any such
failure may not be excused on the ground that the discovery sought is
objectionable unless a protective order has been obtained under Rule 2-403.
Bar Counsel, having propounded interrogatories and requests for production on
April 22, 2016, and not having received responses until June 13, 2019, well after the
24
A-26

timeline provided for by the rules, moved for the imposition of sanctions on two separate
occasions. When a party moves for sanctions pursuant to Rule 2-433(a), "the court, if it
finds a failure of discovery," may enter sanctions "as are just" against the noncomplying
party, including:
An order that the matters sought to be discovered, or any other designated
facts shall be taken to be established for the purpose of the action in
accordance with the claim of the party obtaining the order;
An order refusing to allow the failing party to support or oppose
designated claims or defenses, or prohibiting that party from introducing
designated matters in evidence; or
An order striking out pleadings or parts thereof, or staying further
proceeding until the discovery is provided, or dismissing the action or any
part thereof, or entering a judgment by default that includes a determination
as to liability and all relief sought by the moving party against the failing
party if the court is satisfied that it has personal jurisdiction over the party.
If, in order to enable the court to enter default judgment, it is necessary to
take an account or to determine the amount of damages or to establish the
truth of any averment by evidence or to make an investigation of any matter,
the court may rely on affidavits, conduct hearings or order references as
appropriate, and, if requested, shall preserve to the plaintiff the right of trial
by jury.
In the present action, Judge Klavans' decision to deem the Petition's averments as
admitted and preclude witnesses from testifying, including experts, on behalf of the
Respondent, was consistent with our jurisprudence. In Attorney Grievance Commission v.
Kent, 447 Md. 555, 136 A.3d 394 (2016), Kent committed a number of discovery violations
in his disciplinary matter, including being late to file an Answer to the Petition for
Disciplinary or Remedial Action and to failing to respond to Bar Counsel's interrogatories
and requests for production. At the scheduling conference in Kent, Bar Counsel and
counsel for Kent agreed upon a deadline by which to have discovery complete, which
included Kent's responses to Bar Counsel's interrogatories and requests for production of
25
A-27

documents. Based upon Kent's failure to meet that deadline, Bar Counsel filed a Motion
for Sanctions for Failure of Discovery and a Motion to Shorten Time for Respondent to
Respond, positing that "Respondent's failure to provide written discovery greatly
prejudice[d] the ability of Petitioner's counsel to prepare to take Respondent's deposition"
and, "[g]iven the short period of time allowed to conduct discovery prior to trial in
disciplinary matters, compliance with discovery requirements and deadlines is imperative."
Id. at 560, 136 A.3d at 397 (alterations in original).
The hearing judge granted Bar Counsel's Motion to Shorten Time to Respond and
ordered that Kent provide a response by a date certain. When no response was received by
that date, the hearing judge imposed sanctions against Kent, which included admitting the
averments in the Petition for Disciplinary or Remedial Action, striking Kent's Response to
the Petition for Disciplinary or Remedial Action, precluding Kent from calling any
witnesses or presenting any documents at the hearing on his alleged misconduct and
prohibiting him from presenting any mitigation among other matters.
Kent then filed a Response to Petitioner's Motion for Sanctions and a Motion to
Reconsider, positing that he had failed to respond to Bar Counsel's requests in a timely
manner, because his attorney had been out of the office and he had been out of the state, of
which the hearing judge denied. At the subsequent hearing on Kent's alleged misconduct,
Kent argued about the discovery sanctions again, asserting that his counsel had been
negligent. The judge denied the motion for reconsideration, again, finding that he failed to
provide a "compelling reason to further delay these proceedings that are . . . on a very tight

26
A-28

timeline pursuant to the rules," and Kent proceeded pro se. Id. at 561, 136 A.3d at 398
(omission in original).
Following the hearing, Kent again filed a Motion for Reconsideration and for
Appropriate Relief, alleging that his previous attorney was incompetent and that he had
participated in his deposition and "provided Answers to Interrogatories and produced many
of the requested records," after the hearing judge's imposition of sanctions. Id. at 562, 136
A.3d at 398.
In language prescient to the instant matter, the hearing judge denied Kent's Motion
for Reconsideration:
Respondent's discovery violations are severe, substantial and ongoing. To
date, Respondent has yet to fully respond to the discovery served upon him
on July 10 and July 17, 2015. Respondent proffers that he is "in the process
of having reconciliations performed for his IOLTA and Trust bank accounts
by an accounting/bookkeeping professional. Respondent anticipates that
these reports will be completed, and made available to Bar Counsel within
the next twenty (20) days." [] However, Respondent has had formal notice
of these proceedings for nearly five months—since May 20, 2015—and
actual notice of bar Counsel's inquiry for many months more. Any
reconciliation of Respondent's banking accounts in preparation for these
proceedings should [have] been initiated, at a minimum, before the scheduled
hearing date in this matter.
Respondent initially claimed that his discovery failures were due to his
counsel's failure to send him the discovery requests in a timely fashion;
however, three months after those requests were served, discovery is still not
complete. This court found Respondent's explanation for his discovery
violations incredible at trial and the scant proof offered by Respondent to
bolster this claim supports the court's conclusions. [] This court and
Petitioner have both been severely prejudiced by Respondent's discovery
failures which continue to the date of this opinion and are anticipated to
continue, by Respondent's own estimate, through the filing date of this
court's findings of fact and conclusions of law. Therefore, the prejudice
suffered by Petitioner, this court and Maryland's Court of Appeals due to
27
A-29

Respondent's continued delay will not be cured by a simply continuance or
postponement of this matter.
Id. at 562-63; 136 A.3d at 398-99 (footnote omitted) (alterations added).
Before us, Kent argued that the hearing judge abused her discretion in imposing
discovery sanctions based upon his attorney's failure to timely provide him with the
discovery requests propounded by Bar Counsel. He also contended that such "draconian"
sanctions should be "reserved for persistent and deliberate violations that actually cause
some prejudice, either to a party or to the court," which, he contended, his did not. Id. at
575-76,136 A.3d at 406 (internal citations omitted).
Of importance to the instant case, we held that the hearing judge appropriately
exercised her discretion in imposing the discovery sanctions against Kent. Not only did
we emphasize that Kent's discovery responses were either incomplete or untimely and that
his reason for not responding was "incredible," but also that Bar Counsel had been
prejudiced by the delay; we also noted that Kent's violations persisted throughout the
proceedings, demonstrating a lack of good faith in attempting to remedy any issues
regarding discovery before they came due or otherwise productively cooperating with the
discovery process. In so doing, we affirmed not only the sanction of the admission of all
averments in the petition in accordance with Attorney Grievance Commission v. Steinberg,
395 Md. 337,910 A.2d 429 (2006), Attorney Grievance Comm'n v. O'Leary, 433 Md. 2,
69 A.3d 1121 (2013), Attorney Grievance Commission v. Thomas, 440 Md. 523,103 A.3d
629 (2014), for example, but also, for the first time, precluded an attorney from offering
mitigation, which also is the import of having precluded experts in the instant matter.
28
A-30

Initially, we note that with respect to the deemed admissions in the instant matter,
Rheinstein's discovery violations are more egregious than Kent's. Rheinstein provided
responses to Bar Counsel's interrogatories and requests for production nearly 37 months
after they had been served upon him and nearly 22 months after discovery had become due,
as established by Judge Harris in June of 2017, and merely 26 days prior to the hearing
scheduled by Judge Klavans. Judge Klavans found Respondent's untimely response to be
"too little and much too late," noting that:
Respondent's counsel's email to Bar Counsel attempting to informally
provide possible witness names, including an expert witness, for the first time
on June 6, 2019, a mere 26 days prior to the scheduled hearing, more than
three years after discovery was propounded and clearly after the deadline in
August 2017, was the very first glimmer of compliance with the discovery
rules. It was too little and much too late.
Respondent's willful and deliberate course of conduct to subvert the
discovery process is also clearly demonstrated from the styling of
Respondent's eleventh-hour formal responses to discover requests:
"Respondent's Answers to Petitioner's Renewed First Set of Interrogatories"
(emphasis added), and "Respondent's Response to Petitioner's Renewed
First Request for Production of Documents, Electronically-Stored
Information and Property" (emphasis added), which were served upon
Petitioner on June 13, 2019, 19 days before the scheduled hearing.
Petitioner's discovery requests were not renewed. To the contrary, they had
been propounded on April 22, 2016.
(italics and emboldening in original).
Judge Klavans also found Rheinstein's reason for the violation—his contention that
removing it to federal court negated discovery obligations in state court—lacked any basis
in the law. He further noted that Respondent's 99-page Answer and 12,000-page
"document dump" served on Bar Counsel in the summer of 2017 did little to provide Bar
Counsel with "adequate notice of defenses, potential witnesses and documents," and put
29
A-31

the burden on Petitioner to answer her own interrogatories and requests for production.
Judge Klavans additionally found that Bar Counsel was "greatly prejudiced" by
Respondent's discovery failures, which, if left unchecked, would have operated to reward
Respondent for "his willful and deliberate conduct in avoiding discovery." Neither a
postponement nor continuance, as Judge Klavans found, could remedy the prejudice both
Bar Counsel and the court faced.
As a result, deeming the averments admitted was within Judge Klavans'
di scretion.17
Judge Klavans also precluded the presentation of experts because of Rheinstein's
discovery violations. A few weeks before the hearing scheduled by Judge Klavans was to
take place, at which the parties would present arguments about Bar Counsel's Proposed
Findings of Fact and Conclusions of Law, counsel for Rheinstein, in a motion opposing the

Rheinstein argues that some of the averments in the Petition were conclusory (i.e.,
"frivolous") and, thus, were unable to be admitted. Certainly, in Attorney Grievance
Commission v. Kent, we deemed admitted conclusory statements that included words such
as "knowingly" and "intentionally," 447 Md. 555, 565, 136 A.3d 395, 400 (2016), and
"incompetently" in Attorney Grievance Commission v. Thomas, 440 Md. 523, 532, 103
A.3d 629, 634 (2014). It may not be appropriate in many cases to sanction a party who has
committed a discovery violation by deeming that party to have admitted the ultimate issue
in the case and essentially defaulted the case. Nevertheless, in the context of this case,
Rheinstein fails to articulate why summary statements, that "[e]xpress[] a factual inference
without stating the underlying facts on which the inferences is based," Conclusory, Black's
Law Dictionary (11th Ed. 2019), should be treated differently than other factual averments
admitted as a result of a discovery sanction. He erroneously relies on Attorney Grievance
Commission v. Dyer, 453 Md. 585, 162 A.3d 970 (2017), a case in which no discovery
sanctions had been imposed and the hearing judge found, after conducting a full-blown
evidentiary hearing, that particular filings made by the respondent in the underlying
litigation subject of his alleged misconduct had not been frivolous as alleged by Bar
Counsel; Dyer is inapposite.
30
A-32

court's discovery sanctions, proffered, for the first time, that had he been permitted to
present evidence, he would have called Dr. Richard Ratner, a psychiatrist and expert
witness, to testify that Rheinstein's diagnosis of attention deficit hyperactivity disorder
("ADHD") contributed to the alleged misconduct such that it should be treated as a
mitigating factor.
With respect to the preclusion of expert testimony as a sanction for discovery
violations, we look to Rodriguez v. Clarke, 400 Md. 39, 926 A.2d 736 (2007), a medical
malpractice case. In Rodriguez, the Clarkes had failed to arrange for depositions of their
expert witnesses, even up to two weeks before trial. The trial judge had granted the
defendants' motion for summary judgment, because of the Clarkes' failure to produce an
expert. We approved of the preclusion of expert witnesses on behalf of the Clarkes, based
upon their failure to properly identify their expert witnesses in their preliminary expert
designation, their cross-refences to those inadequate expert designations in each of their
answers to interrogatories and their "continuous failure to cooperate with [the defendants']
repeated request for dates of depositions of their experts, especially out-of-state witnesses."
Id at 68, 926 A.2d at 753. We emphasized that the Clarkes' action "evidenced a complete
lack of good faith in providing access to the discoverable information" which "continu[ed]
as it did so close to the scheduled trial date[.]" Id. (alterations added) We found no abuse
of discretion in "the trial court's decision to preclude all of the Clarkes' expert witness
testimony as a sanction for failure to comply with discovery[.]" Id. (alteration added).

31
A-33

Just as in Rodriguez, Judge Klavans also appropriately acted within his discretion
in precluding Rheinstein from offering expert testimony, as a sanction for his discovery
violations.
It is also important to note that Rheinstein did not proffer a deposition of an expert
as to the impact of his ADHD until late June of 2019.18 Rheinstein's medical expert in
psychiatry, Dr. Richard A. Ratner, also was only offered to opine on the effect of ADHD
on Rheinstein's impulsivity, which, as we shall see does not form a basis for his Rule 8.4
violations infra.19

Rheinstein first made mention of a medical expert in his Answers to Petitioner's
Renewed First Set of Interrogatories, filed on June 12, 2019, stating that he was
"endeavoring to locate a mental health expert to opine on Respondent's attention deficit
hyperactivity disorder ("ADHD") disability and why it was the root cause of certain matters
at issue in the [Petition], including the communications characterized as "Respondent's
Continued Threats and Abusive Behavior."
In Respondent's Motion for a 60-Day Continuance of the Trial Scheduled to Begin
July 1, 2019, filed on June 24, 2019, Respondent first identified Dr. Richard A. Ratner as
an expert who "can provide probative evidence to the Court concerning the medical
condition" and "can provide a report promptly, but Respondent recognizes that discovery
regarding Dr. Ratner may be warranted upon preparation of this report."
On July 3, 2019, Respondent filed a Motion to Reconsider this Court's Order
of June 27, 2019 or Alternatively Motion to Alter or Amend Judgment, or Alternatively,
Motion to Vacate Default Judgment and Request for Hearing, which proffered that
Rheinstein "suffers from ADHD, which caused him to struggle with deadlines and require
additional time to complete routine tasks."
As an exhibit to the July 3, 2019 motion, Respondent attached a letter from Dr.
Ratner, a psychiatrist who purportedly would have been called as an expert witness at the
evidentiary hearing had one taken place, to counsel for Respondent detailing the results of
a psychiatric evaluation he performed of Respondent.
18

In Dr. Ratner's letter to counsel for Respondent, he stated that he had conducted
the evaluation "to determine whether there was a mental health condition that contributed
to the behavior in question and whether, if so, he is or is not mentally competent to continue
(continued . . .)
19

32
A-34

(continued . . .)
practicing law." Dr. Ratner had examined Respondent "for a total of four hours." During
that time, he "administered a standard checklist for ADHD symptoms, on which he scored
well into the range of ADHD sufferers." Dr. Ratner opined as to the effects Rheinstein's
diagnosis of ADHD had on his conduct as an attorney:
In terms of whether Mr. Rheinstein suffers from a mental disease or disorder,
I find myself concurring with all the specialists who have treated him since
elementary school that he indeed suffers from Attention Deficit
Hyperactivity Disorder (ADHD), of the Inattentive and Impulsive Type. His
history is replete with evidence of this condition and its treatment.
I also feel that he displays certain elements of Obsessive Compulsive
Personality, though I do not believe he meets full criteria for the Disorder. It
appears that he is extremely devoted to work and productivity, sometimes to
the exclusion of other activities, and strives for control in a way that can be
perfectionist and overly inflexible about, for example, morality and values.
I do not feel that Mr. Rheinstein is in any way impaired cognitively, including
his understanding of the law. He is in fact a very bright individual, and as is
sometimes the case with very bright individuals, they find ways to get around
or compensate for the inherent difficulties of coping with an attentional
diagnosis, sometimes throughout most of their lives.
Often a time arises, however, which might be a result of new interpersonal
or occupational challenges, when the usual coping mechanisms may fail to
contain elements of the underlying disorder, with the result that one may
experience behavioral or emotional dysfunction.
Thus I agree that in the parlance you used, Mr. Rheinstein's mental
difficulties were a root cause of the behavior that got him into trouble. The
combination of his hyper focused tendencies, his loss of perspective
regarding the inappropriate nature of his behavior, with the obsessional,
inflexible and perfectionistic pursuit of being a whistleblower came together
in his involvement with this case. Adding to this, he had, in fact, done very
little litigation and he recalled that the prospect of litigating the Moore case
caused him constant anxiety. This likely was part of the reason for his
attempts to push for settlement of the case.
However, after these several years of being involved in this grievance
(continued . . .)
33
A-35

(continued . . .)
procedure and taking counsel from you, it is also clear that Mr. Rheinstein
has gained insight into his past behavior and more clearly recognizes it for
what it was.
He has made this clear to me during our interview. He also recognizes that
for him to be practicing solo could present stresses similar to what this
litigation unleashed. For that reason, he is planning to search for a salaried
job, possibly in law-related but not necessarily typical law firms.
He also agreed with my suggestion that he should resume mental health
therapy. This would include psychotherapy and at least a consultation
regarding medication, in order to prevent such a series of events from
occurring in the future. Treatment would not be required for him to practice
law as such but will be helpful in occasional circumstances when his issues
would benefit from discussion and perspective.
In summary, I do not think that Mr. Rheinstein is in any way incompetent
psychologically or cognitively to practice law. As to whether a period of
being suspended would be of any value to him or the Bar, I do not think so
in either case. The education, so to speak, that he received in the last several
years regarding his behavior in 2011-2012, has, in my view, achieved the
objectives of gaining him insight and causing adequate reflection on his past
behavior.
He has no current intention of re-entering the world of litigation and plans to
take a position where he will be able to benefit from the external structure of
the institution where he will be practicing.
He agrees that further mental health counseling, with or without medication,
would be beneficial for him and intends to pursue this plan.
Further, at the July 10, 2019 hearing on Petitioner's Motion for Sanctions and/or
Motion In Limine and Petitioner's Proposed Findings of Fact and Conclusions of Law,
counsel for Respondent made several remarks regarding Rheinstein's ADHD and its
purported nexus to the alleged rule violations and his failure to comply with Judge Harris's
discovery schedule:
[COUNSEL FOR RESPONDENT]: [A]nd there is no doubt that his ADHD
affected him. It's why he has trouble with deadlines. It's why his pleadings
(continued . . .)
34
A-36

(continued . . .)
are so long and Ms. Lawless knew this before I even got into the case.
***
[COUNSEL FOR RESPONDENT]: So this is a technical not a substantial
violation in the grand scheme. The timing of the disclosures, July of 2017.
The reason. Two, number one, I don't agree that there's been a violation and
I'll get into that a little bit, but the second, he is obviously affected by his
ADHD.
***
[COUNSEL FOR RESPONDENT]: [A]nd he suffers from ADHD which
causes him to struggle with deadlines, requires time to complete additional
tasks, and is the root cause of much of what he does.
***

[COUNSEL FOR RESPONDENT]: But I think, again, that's - - I think it's
something where it would have benefited the Court to hear . . . from Mr.
Ratner who is the mental health expert in this case whose going to testify[]
about the ADHD suffered by Mr. Rheinstein and the reason why it's the root
cause of all of the claims that are at issue in this case. I think it would have
benefitted the Court to hear from both of those experts.
***

[COUNSEL FOR RESPONDENT]: He has a good faith basis to believe that
there is a fraud scheme because there was one and he's riled up, especially
when you consider the fact that he suffers from the ADHD.
***

[COUNSEL FOR RESPONDENT]: Now, the third mitigating factor is
personal or emotional problems. Yes, absolutely. We know that he has a
serious medical condition. There's another element, of course, Your Honor,
about whether the Respondent has a physical or mental disability or
impairment. Yes, absolutely. He suffers from ADHD. We had Dr. Ratner
examine him. We were going to have Dr. Ratner come at trial.
We're, unfortunately, not able to do that, but that doesn't change the fact that
he suffers from a very significant medical condition that is relevant to this
case, the root cause of some - - of these issues, of the claims in this case, is
this condition which impacts his impulse control. It explains why he lacks
the impulse control not to send that crazy email that I saw. That's why. It's
hugely important.
***

[COUNSEL FOR RESPONDENT]: You may not think - - you know, the
Petitioner may not think it's good litigation, but Mr. Rheinstein litigated
(continued . . .)
35
A-37

Rheinstein, however, contends, before us, as he did in the hearing, that he had no
duty to respond to Bar Counsel's interrogatories and requests for production because his
duty to disclose was "nullified" when he removed the matter to the federal court.
Respondent, relying on unreported federal district court opinions in MarcParc Valet, Inc.
v. Jasser, No. PWG-13-3743, 2014 WL 1334211 (D. Md. Apr. 1, 2014); Steen v. Garrett,
No. 2:12-cv-1662-DCN, 2013 WL 1826451 (D. S.C. Apr. 30, 2013); and Sterling Savings
Bank v. Federal Insurance Company, No. CV-12-0368-LRS, 2012 WL 3143909 (E.D.
Wash. Aug. 1, 2012), contends that "pre-removal discovery requests, which have not yet
become due, are nullified upon removal from the state court to federal court."2°

(continued . . .)
those cases and he got results. Okay. So when you take all of those things
together along with the fact that, you know, the mental health condition, the
ADHD is the root cause of these things, I mean, that is powerful mitigating
evidence, Your Honor. Very powerful.
When asked at oral argument before this Court as to whether there is a nexus
between ADHD and the underlying conduct which resulted in the rule violation allegations,
counsel for Respondent responded:
Yes. . . . [W]hat [Dr. Ratner] was going to say and he reviewed the [Petition]
and met with my client on several occasions and what he says is that these
circumstances where he does things late, where he acts impulsively, where
he files too many things, those attributes are what happens to somebody who
has this type of mental impairment. And it doesn't mean that he can't drive
a car or go do things. It means that he should be on medication. He should
be tempered. That's what we've conceded here from the beginning and that's
the argument that we wanted to present.
Respondent also cites Brewster v. Woodhaven Building & Development, Inc., 360
Md. 602, 759 A.2d 738 (2000) and Swarey v. Stephenson, 222 Md. App. 65, 112 A.3d 534
(2015), to argue that because Bar Counsel's original discovery requests from 2016 had not
(continued . . .)
20

36
A-38

Respondent contends that the majority of federal courts faced with this issue have found
that discovery requests "served in a state case need not be answered once the case is
removed to federal court, if the deadline to answer those requests did not lapse before
removal." MarParc Valet, Inc., No. PWG-13-3743, 2014 WL 1334211, at *3 (quoting
Steen, No. 2:12-cv-1662-DCN, 2013 WL 1826451, at *2).
Rheinstein, though, is incorrect in his interpretation as to the effect of removal on
discovery requests propounded in state court upon remand; Judge Paul Grimm, the author
of the quote in issue, was opining only about the lack of necessity to answer state discovery
requests in federal court once the case was removed and not remanded. Judge Grimm,
writing for the United States District Court for the District of Maryland, explained that
state civil procedure and federal civil procedure differ, such that state norms do not persist
in federal court:
I cannot ignore the fact that discovery proceeds differently in federal court
than in state court. Unlike in state court, where discovery requests can be
made simultaneously with service of the complaint and summons, see Md.
R. 2-401, 2-424(b), discovery cannot commence in this Court until the parties
have held a Rule 26(f) conference, see Fed. R. Civ. P. 26(d)(1).
MarParc Valet, Inc., No. PWG-13-3743, 2014 WL 1334211, at *3.
Respondent, however, would have this case "nullify" his discovery obligations in
the state court upon remand. The federal court cannot "nullify" state discovery requests

(continued . . .)
yet become due prior to the first removal, Bar Counsel was required to propound them
again upon the first remand in order to take effect. These cases do not support such a
proposition.
37
A-39

which retain viability upon remand. As a result, Rheinstein's defense to discovery
violations fails; we conclude that Judge Klavans did not abuse his discretion in imposing
the sanctions for discovery violations.
FINDINGS OF FACT
The Findings of Fact that Judge Klavans made were based upon the Petition's
averments which have been deemed admitted.
With regard to the background of the underlying litigation, Judge Klavans found:
Imagine Capital, Inc. ("Imagine") is a private lender which finances
residential rehabilitation projects in Maryland. Imagine's two officers are
Robert Svehlak and Neil Roseman. In September 2008, Charles and Felicia
Moore, husband and wife, entered into a construction loan agreement for
$200,000 with Imagine. The "Loan Commitment Letter" identified Mr.
Moore as the borrower and the Moores as guarantors. It stated that the total
amount is anticipated to be distributed in 8 construction draws. Mr. Moore,
a seasoned real estate investor, pledged four Baltimore City properties as
collateral for the loan. After $67,419.92 was disbursed to Mr. Moore, he
defaulted on the monthly interest payments.
In June 2009, Imagine, through its then-attorney, James Holderness,
Esquire, filed a complaint for confessed judgment. [] On June 12, 2009, the
Circuit Court entered judgment against the Moores in the amount of
$113,683.76 []. The Moores did not retain counsel or otherwise take any
action during the 30 days allotted by the Maryland Rules to vacate the
confessed judgments.
In September 2009, Imagine and Mr. Moore reached an agreement
whereby Mr. Moore conveyed one of the collateral properties to Boomerang
Properties, LLC, an entity controlled by Mr. Svehlak, at an agreed value of
$65,000 and signed a promissory note for $20,000. When Mr. Moore
defaulted on the agreement, the original note terms resumed and Imagine
sought to collect the full amount due less the $65,000 value of the conveyed
property. In November 2010, Imagine began collection efforts. On
November 17, 2010, Mr. Moore, pro se, filed a motion to open or vacate the
confessed judgment, which the court denied on February 18, 2011. On
March 24, 2011, Imagine filed a request for garnishment of property claiming
the Moores still owed $157,578.74. On April 13, 2011, Mr. Moore filed a
second motion to vacate judgment, which the court denied.
38
A-40

At that point, the Moores retained Respondent to represent them in challenging the
confessed judgments:
On October 18, 2011, more than two years after the confessed
judgments were entered, the Respondent entered his appearance on behalf of
the Moores[.] He filed a motion styled "Motion to Open, Modify, or Vacate
Confessed Judgments, or in the Alternative, Motion for Order of Satisfaction;
and Motion to Open, Modify, or Vacate Orders of Garnishment; and Motion
to Enjoin Further Debt Collection Proceedings," along with a memorandum
in support thereof alleging the judgments were obtained by the perpetration
of a fraud and, pursuant to Maryland Rule 2-535(b), should be vacated.
On October 31, 2011, Imagine, through counsel Jeffrey Tapper, Esq.,
filed an opposition. A hearing was scheduled for December 7, 2011.
Respondent then, in November, filed a complaint with the Attorney Grievance
Commission against Mr. Tapper. Shortly thereafter, Mr. Tapper withdrew from
representation of Imagine, based upon the grievance complaint. Imagine then retained new
counsel, Mr. Troy Swanson. A hearing was held on Respondent's motion on December 7
and 8, 2011, before Judge Emanuel Brown of the Circuit Court for Baltimore City. During
the hearing, according to the Findings of Fact, Respondent "interjected irrelevant and
unsubstantiated accusations against Imagine and its members regarding an elaborate fraud
scheme." He also "leered at Mr. Svehlak during the proceeding and led the court to believe
that Imagine and its officers were under investigation by the Department of Justice." At
the conclusion of the hearing, the court vacated the confessed judgments.
Imagine then, according to the Findings of Fact, retained new counsel to pursue an
appeal of the circuit court's decision; Respondent threatened to file attorney grievances
against their attorneys:
In December 2011, Imagine retained the law firm of Bowie & Jensen
and Matthew Hjortsberg, Esquire, to file an appeal and defend various
39
A-41

threatened claims made against it by the Respondent. On January 3, 2012,
Imagine filed a Notice of Appeal to the Court of Special Appeals.
On January 25, 2012, Respondent began a series of email
correspondence with Mr. Hjortsberg in which he threatened to sue Bowie &
Jensen and report Mr. Hjortsberg and his associate, Lisa D. Sparks, Esquire,
to the Attorney Grievance Commission if the appeal was not dropped.
Respondent, however, never filed a complaint against either attorney with the Attorney
Grievance Commission.
Judge Klavans, in his Findings of Fact, then provided excerpts from Respondent's
email correspondence with Mr. Hjortsberg, in which Respondent launched an "ad hominem
attack on Mr. Svehlak's character" and accused Mr. Hjortsberg and members of his firm
of facilitating the fraud he argued Imagine had committed:
We are going to proceed with the letter to the Maryland Attorney Grievance
Commission at this time to simply advise of this case and our concerns over
the ethical issues surrounding possible attempts to reinstate this debt based
upon the testimony and the facts in this case.
**

Because I believe the transcript and an audit of your client's bank records
would support this notion, I believe this is not only unethical, but that you
are sufficiently aware of the background facts that you, Ms. Sparks and
Bowie & Jensen can be sued for facilitation of fraud upon the first filing of
your appeal documents. In the unlikely event the fraudulent judgments
would be reinstated on a procedural technicality, I also believe you would be
liable for the damages . . . My exchange with the FBI last Friday was a
telephone call with the assigned agent not a meeting.
***

We are prepared to add your firm as a defendant when the document is filed.
You won't be their first lawyer that is also a defendant. We're not going to
add you on RICO, so no worries there. You'll be added to our fraud and
aiding and abetting counts.
***
Your actions as a law firm are unethical and constitute facilitation of fraud .
. . I will remind you that our suit is already at 28 Defendants (including
several attorneys) and that there still may not be enough to pay a likely award
by a Baltimore City jury in this case. Therefore, my client has a strong
incentive to add any additional defendants against whom he has a good faith
40
A-42

claim. Should you choose to proceed with this illicit strategy, please advise
if you have counsel and whether they can accept service on your behalf.
***
You are assisting your client in an unlawful manner by attempting to cause
the entry of a knowingly fraudulent confessed judgment against Mr. and Mrs.
Moore in bad faith and without substantial justification. We also believe that
your attempts to have a knowingly fraudulent confessed judgment entered
against Mr. and Mrs. Moore constitute actionable conduct and have at this
point created liability on the part of you, Ms. Sparks, and Bowie & Jensen,
LLC.
Based upon the threatening tone of these email excerpts, pursuant to the Findings of
Fact, Bowie & Jensen informed its professional liability carrier of Respondent's intentions
and retained legal counsel, Ward B. Coe, III, and "counseled Imagine about the perception
that the Respondent was depriving them of their choice of counsel." Subsequently, Mr.
Coe wrote to Respondent, imploring him to cease his threatening conduct toward the law
firm. Mr. Coe provided citation to authority "for the proposition that threatening attorney
grievance complaints to gain a tactical advantage in litigation violates the Maryland Rules
of Professional Conduct." Mr. Hjortsberg also filed a complaint with the Attorney
Grievance Commission against Respondent with respect to his threatening conduct.
Respondent, thereafter, filed a frivolous petition for writ of certiorari in this Court,
according to the Findings of Fact, on April 16, 2012, as well as a "frivolous" motion to
dismiss the Imagine appeal in the Court of Special Appeals:
In support of his Petition, he argued that the case was an "extraordinary case
of public policy" with an "almost unbelievable record . . . arguably the most
shocking confessed judgment action to ever appear in Maryland's appellate
courts."
The Respondent included substantial documentation and
information not contained in the record. While his Petition for Writ of
Certiorari was pending, the Respondent, on April 20, 2012, filed a frivolous
motion to dismiss the appeal in the Court of Special Appeals arguing that the
appeal was based upon a non-final order. On May 3, 2012, the Court of
41
A-43

Special Appeals stayed the appeal pending resolution of the Petition for Writ
of Certiorari.
Despite a stay entered by the Court of Special Appeals pending a resolution of the
petition for certiorari, the Findings of Fact noted that, on the very next day Respondent
filed a "second frivolous Motion to Dismiss Appeal" in the Court of Special Appeals,
contending that Imagine failed to order transcripts and ensure timely transmittal of the
record. The motion, however, was withdrawn on May 23, 2012. Respondent also filed
"Petitioner's Reply to Respondent's Answer to Petition for Writ of Certiorari" in this
Court, which the Findings of Fact also noted to be frivolous, as it contained information
not within the record.
On May 17, 2012, Respondent filed a 49-page "Preliminary Brief of the Appellees
and Memorandum in Support of Motion to Dismiss Appeal," posing the question of
"[w]hether the Due Process Clause of the U.S. Const., amend. XIV, § 1 requires the
Appellant's failure to fund an escrow account that served as the fundamental consideration
for the Appellee's execution of an agreement containing waivers of their due process rights,
demonstrated a lack of consensus ad item resulting in a failed agreement and void waivers
of due process rights." The Findings included reference to the briefing, which not only
violated the length requirements set forth in Maryland Rule 8-503(d), but was frivolous:
In support of his "Preliminary Brief' the Respondent filed an extract
containing numerous documents that were not part of the Circuit Court. Also
on May 17, 2012, the Respondent filed "Supplementary Exhibits to Petition
for Writ of Certiorari" in the Court of Appeals. The filing was frivolous and
contrary to the Maryland Rules.

42
A-44

We denied Respondent's petition for writ of certiorari, and Respondent filed a
"Motion to Resume Proceedings and Renewed Motion to Dismiss Appeal" in the Court of
Special Appeals, a frivolous filing according to the admitted averments. On May 28, 2012,
Respondent emailed Mr. Coe, threatening a lawsuit against Mr. Hjortsberg, stating, in part:
It is my intention to sue Mr. Hjortsberg personally for defamatory statements
he made against me in a March 21, 2012 letter in which he attempted to
accuse me of me knowingly false ethical violations for allegedly
misrepresenting something about 'investigations' to a trial court during a
December 2011 Motion Hearing . . . Mr. Hjortsberg, an unethical and
incompetent attorney, straining to fabricate an issue for a meritless appeal to
cover up a client's scam involving financial institutions, unapologetically
stated five times in his 11-page letter that I misrepresented something about
`investigation(s)' during that hearing . . . I seek redress in the form of
reasonable compensation, an apology letter, and an agreement that Mr.
Hjortsberg will not intentionally defame me again . . . Please respond by COB
on May 29, 2012 to advise whether discussions about this matter would be
productive. If not, my suit will be filed in the Cir. Ct. for Balt. Co. against
Mr. Hjortsberg personally[.]
On May 29, 2012, Respondent emailed a "settlement offer" to Mr. Hjortsberg,
purportedly on behalf of the Moores, stating:
[The] best way to be rid of this for all is not to sue anyone . . . the way I look
at it, there are two potential law firm insurance policies . . . swanson's and
[Bowie & Jensen's] . . . if they are big enough . . . we can avoid a suit, but if
not . . . we can't . . . better off filing because we lose a lot if we don't file . .
. then again, my guy gets paid quicker and that's a benefit . . . I'm not an
expert, but I can think of 10 reasons for malpractice claims by these guys
against your firm and Swanson's firm too . . . I always thought doing this
quietly might be the best way for all . . . I said something about law firm
malpractice insurance for your clients' past lawyers because it might be
enough to get there . . . That was before you made the same mistakes as those
guys . . . Although everything we have is also with the feds, I still think its
better to settle (especially for Roseman) and get my guy out now[.]
On May 30, 2012, according to the admitted averments, Respondent filed a frivolous
complaint in the Circuit Court for Baltimore City on behalf of the Moores against twenty43
A-45

eight individuals. The complaint alleged that Imagine, acting in concert with others,
engaged in an elaborate fraud scheme, alleging multiple causes of action including, among
others, fraud, civil conspiracy, intentional misrepresentation, negligent misrepresentation
and breach of fiduciary duty. The damages alleged were seventeen million dollars.
The admitted averments also reflected that, on June 20, 2012, Respondent,
purportedly on behalf of Mr. Moore, filed a Qui Tam action in the United States District
Court for the District of Maryland, which was filed pursuant to the False Claims Act, 31
U.S.C. §§ 3729, et. seq., and listed Imagine as one of ten defendants, six of whom also had
been named in the circuit court action. The complaint similarly alleged that the defendants
had acted in concert to fraudulently procure mortgage insurance from the Federal Housing
Administration in twenty-seven separate mortgage transactions between July 2009 and
November 2010 costing the government over two million dollars.21
The admitted averments noted that the Court of Special Appeals erroneously
vacated the appeal filed by Imagine. Imagine filed a Motion to Reconsider. On July 12,
2012, however, Respondent, according to the admitted averments, emailed Mr. Coe, further
threatening potential causes of action against Mr. Hjortsberg and his firm, stating in part:
Mr. Hjortsberg and Bowie & Jensen, LLC are now liable for the following
potential counts: (1) civil conspiracy (2) 42 USC 1983, 42 USC 1985, (3)
Malicious prosecution, (4) abuse of process, (5) RICO . . . Please advise if
21 The False Claims Act, 31 U.S.C. §§ 3729-3731, "permits qui tam plaintiffs and
private attorneys to sue on behalf of the federal government to recover damages and
penalties for allegedly fraudulent charges to the United States. A successful qui tam
plaintiff receives between 15 and 30 percent of the proceeds or settlement of the action."
Philip Morris Inc. v. Glendening, 349 Md. 660, 686 n.16, 709 A.2d 1230, 1242 n.16 (1998)
(citing United States ex rel. Kelly v. Boeing Co., 9 F.3d 743, 745-47 (9th Cir. 1993); United
States ex rel. Robinson v. Northrop Corp., 824 F. Supp. 830, 833 (N.D. Ill. 1993)).

44
A-46

there is any interest in settling this matter. Also, please instruct your client
to place a litigation hold on any and all documents in his possession
concerning the Imagine Capital matter . . . Please advise if Bowie & Jensen,
LLC would have any interest in settlement negotiations pertaining to their
role in this matter.
Later that day, Respondent sent Mr. Coe another email, stating in part:
As a follow-up to my email this morning, please provide the following as
soon as possible: (1) An indication as to whether your clients are interested
in sitting down and discussing settlement possibilities for any liability they
may have arising out of the Imagine Capital matter. Should you and your
clients wish to sit down and discuss, we can review with you some of the
compelling evidence with respect to Imagine Capital's Ponzi scheme and
shell property mortgage fraud scam, and the fact that we believe Mr.
Hjortsberg, Tina Gentile, and perhaps Lisa Sparks conspired with Imagine
Capital, Svehlak and Roseman to cover it up . . . (3) Also, please state
whether you can accept service of summonses and/or subpoenas for Bowie
& Jensen, LLC, Matthew Hjortsberg, Tina Gentle, Lisa Sparks and any other
parties associated with Bowie & Jensen, LLC. As I have previously stated,
I am not inclined to sue Ms. Sparks or Ms. Gentle, but I have questions for
Ms. Gentle specifically with regard to two specific matters that pertained to
things Bowie & Jensen did during the appeal.
That same day, according to the admitted averments, Respondent filed a second Qui
Tam action in the federal court, listing twenty-four defendants to include Mr. Svehlak, Mr.
Roseman and Imagine Capital. On July 18, 2012, Respondent emailed Mr. Hjortsberg,
accusing him of fraudulent conduct and stating, in part:
I am also going to politely ask you and Bowie & Jensen, LLC to resign from
representation of Imagine Capital, Robert Svehlak and Neil Roseman,
effective immediately, following the withdrawal of your Motion and
dismissal of Imagine Capital's appeal. I think you will be conflicted from
representing them in future matters pertaining to my clients or the subject
mortgage.
***

So, what's the problem? Its your intent and attempt to conceal your client's
criminal conduct in an extension of a wrongful civil proceeding that was
initiated, at least in part, to obtain money to service debt on fraudulent
mortgages and stave off potential exposure of the mortgages themselves.
45
A-47

Hence, your 'defense' strategy was effectively to keep up the 'charade,' or
`stay the course' knowing your client's conduct was both criminal and
wrongful. On Jan 5, you said yourself something to the effect of, 'I know
everything . . . far more than any other attorney who represented them.' That
is the part that, at least in theory, turns defense attorney to defendant . . . As
you consider the rhetorical and perhaps debatable question that follows,
please remember the old adage — ethics is doing the right thing when nobody
is watching. Was your strategy an unethical attempted cover up or just a
lawyer trying to do his job?
According to the admitted allegations, later in July of 2012, Respondent emailed
Mr. Coe, threatening Mr. Hjortsberg, and stating:
Please pardon my French but I can't wait to see matt hjortsberg's balls
shoved down his fucking throat . . . pardon me again, we could turn hjortsberg
fucking upside down, chew him up and spit him out in so many pieces you
cannot imagine . . . again excuse my French, he was 'so smart, a real fuckin
genius . . .' Although I do not mean to be disrespectful, and perhaps he's an
excellent construction attorney — e.g. he definitely knows far more about
procedural rules than I do, he was horrible in this case . . . Does he like
managing that law firm? His partners are not going to be happy, especially
after I sent several messages to their founding member about the case . . .
Indeed Matt Hjortsberg should be disbarred, but I'm not the bar counsel and
my duty runs to someone else — the Moores. Mr. Hjortsberg knows he is in
trouble . . . he's known for awhile this was a mistake. I hope he's lost sleep
about it . . . he should have . . . There are many potential causes of action . .
. let's take rico for one . . . most civil rico cases are a bunch of crap, this one
isn't . . . a jury will hang matt hjortsberg, no less than they would his clients.
The media, the public, and the bar will crucify him . . think about the
economy and type of fraud he attempted to conceal . . . the amount, etc.
People are hurting out there and they would view hjortsberg's 'defense'
strategy quite poorly.
There an unserved lawsuit in the cir ct for bait. city. Its case 24C12003357.
There are 28 defts. RICO count is $17M ($5M trebled to $15. + $2M in
punitive damages) . . . nothing about matt Hjortsberg yet in any lawsuit.
Some defts know about the unspoken subject and its briefly referenced in the
complaint but its not fleshed out because that complaint was written
primarily in dec and jan. We've been waiting months to kick off our lawsuit,
it was delayed for this very conversation. Hjortsberg and his firm are far
easier defts (except maybe for his clients) than anyone in that case (many
more culpable for my clients' injuries and some pretty corrupt, but none
46
A-48

nearly as easy). The claims against Hjortsberg and his firm are like out of a
textbook . . just like my prelim brief.
By COB today, I want a response to take to my client . . . I am authorized to
offer $5M for a global settlement of this case. I will take any reasonable
offer to my clients. We haven't discussed a number for a partial settlement,
but my clients are open to one . . . if it is within hjortsberg's policy limits,
hed [sic] be damn smart to go for a global . . . With my proposal, Mr.
Hjortsberg and his firm need admit no wrong or no liability. We can have
complete confidentiality (we would still have to deal with his disingenuous
bar complaint which I think may still be under review, but we can do it later).
Not a cent of proposed settlement money may come from Mr. Hjortsberg's
clients.
Mr. Coe responded to Respondent, according to the admission, informing him of
the inappropriate tone of his earlier correspondence regarding Mr. Hjortsberg:
Your email was laced with invective and profanity, and included expressions
which could be interpreted as threatening physical violence. I am certain that
you did not intend those expressions to be interpreted that way. Regardless
of your intent, however, your conduct comprises misconduct that is
prejudicial to the administration of justice under Rule 8.4 of the Rules of
Professional Conduct, and must cease immediately. It also violates about
half the rules of the MSBA Code of Civility, a copy of which I have enclosed.
Respondent replied, walking back his previous statements, but advancing the notion that
Mr. Hjortsberg had violated the rules of professional conduct:
I think you know that the profanity, while regrettable, was a figure of speech,
and obviously not a threat of physical violence. Its a [sic] not threat at all,
other than it is our position he will lose badly in a court of law. Once again,
I apologize for the unprofessional tone. What this guy did was a violation of
MRPC 8.4, among several others. It is very angering. Simple emails,
although unprofessional in tone, are not prejudicial to the administration of
justice . . . I promise to keep the tone civil from this point forward, and assure
you that there were no threats of anything other than a possible lawsuit.
Respondent later, emailed Mr. Coe yet again, according to the admissions, with
regard to Mr. Hjortsberg's alleged fraudulent conduct:
47
A-49

I still have not heard from you about Mr. Hjortsberg conspiring with his
clients to continue knowingly false civil proceedings against the Moores with
the intent to conceal mortgage fraud, bank fraud and money laundering.
Hjortsberg has been target [defendant] # 1 for this case since January . . . We
do not want to sue Bowie & Jensen, LLC and put Mr. Hjortsberg through all
that misery. I know his wife has been sick. I know he just got promoted last
year. He's well-respected. He doesn't need to be tied to a big mortgage
fraud scam. His reputation will never recover. I feel bad that Hjortsberg is
liable in this case . . . There are many other causes of action to hang this guy
on too: 1983, civil conspiracy, abuse of process, and of course after he
ultimately loses, malicious prosecution. I am sure there are others we can
come up with. As I told him in January, his representation and intent was the
equivalent of helping a client bury a murder weapon. In this case there is
another word for it, racketeering. Hopefully, this metaphor is [a] bit easier
for you to understand.
At the end of July 2012, according to the admitted allegations, Bar Counsel wrote
to Respondent, asking him to explain the email he wrote Mr. Coe earlier in the month
containing profanity, to which he replied:
Things are not always what they appear. Although my emails have not
always sounded professional, the message has always been the same . . . My
emails simply asked if his firm wanted to settle his potential liability arising
out of his intent to conceal this mortgage fraud scam. It's a reasonable
question because he has liability for attempting to violate my clients' due
process rights in a false civil proceeding to cover up a major mortgage fraud
scheme. We would accept a nickel from his clients (it's all stolen money),
we would from Mr. Hjortsberg.
During the pendency of all of this, the Court of Special Appeals had granted
Imagine's Motion for Reconsideration and entered an order vacating the July 6, 2012 order
dismissing the appeal. Respondent then filed a frivolous Motion to Reconsider the Order
granting Imagine's Motion to Reconsider and reinstating the appeal in the Court of Special
Appeals, according to the admissions.

48
A-50

Thereafter, Mr. Coe wrote Respondent, requesting that he stop threatening Bowie
& Jensen and its employees. Two days later, Respondent replied, in part:
As someone licensed to practice law in seven states and the District of
Columbia, I would never accuse an attorney (especially one I have never met)
of the type of wrongdoing that I believe to be implicated in this case, unless
I firmly believed there was substantial basis to do so. Even if it turns out my
beliefs are erroneous (which is highly unlikely), no ethical violations were
presented by my emails because there is a good faith basis for the belief. My
one regrettable email, which used figure of speech that were less than
prudent, were expressions of MY opinion about the strength of the case.
Respondent then wrote a 16-page letter to then Chief Judge Peter B. Krauser of the
Court of Special Appeals, accusing "Mr. Hjortsberg, his associate and non-attorney
members of his staff of misconduct" to include having "ex parte" communications with the
clerk's office in an attempt to "manipulate the trial court record" and "manufacture
arguments for appellate review surrounding the void, erroneously-issued and unrecorded
May 20, 2011 Order." The Court of Special Appeals denied Respondent's motion for
reconsideration, which precipitated a second petition for writ of certiorari in this Court
being filed by Rheinstein, a filing Judge Klavans deemed frivolous, based upon the
admitted averments.
In October of 2012, Respondent filed his brief, asking the Court of Special Appeals
to consider whether "the Circuit Court err[ed] in finding clear and convincing evidence of
extrinsic fraud sufficient to vacate the judgment under Maryland Rule 2-535(b)?" He also
filed a frivolous "Supplemental Petition for Writ of Certiorari" in this Court, and attached
a copy of the record extract filed in the Court of Special Appeals that was the subject of his
"Motion to Replace Defective and Non-Compliant Record Extract," also filed with our
49
A-51

intermediate appellate court just the day before, a filing, as noted by the admissions, "not
in compliance with the Maryland Rules." We denied Rheinstein's second petition for a
writ of certiorari in November of 2012.
Judge Klavans noted that, based upon the admitted averments, earlier that fall, in
September of 2012, a number of the defendants in the Moore v. Svehlak matter filed a
Notice of Removal and the case was removed to the United States District Court for the
District of Maryland. In response to the removal, Respondent filed a motion to remand the
matter to state court and the defendants "filed a series of motions to dismiss and/or motions
for summary judgment."
In December of 2012, the Court of Special Appeals heard oral arguments; while
Respondent and Mr. Hjortsberg were waiting for the case to be called for argument,
Respondent emailed Mr. Hjortsberg his 68-page "Memorandum in Support of Plaintiffs'
Emergency Motion to Disqualify the Imagine Defendants' Counsel, et al" to be filed in the
Moore v. Svehlak matter in the federal court, according to the admitted averments.
Respondent also forwarded the memorandum to Mr. Coe and asked whether Mr.
Hjortsberg "is leaving the case voluntarily." In the memorandum, Respondent argued that
Mr. Hjortsberg and Bowie & Jensen should be disqualified from the case because they "are
potential co-conspirators." Again, Judge Klavans found the memorandum, which was filed
in December of 2012, to be frivolous, based upon the admitted averments. The federal
court, however, struck Respondent's motion and memorandum attempting to disqualify
Bowie & Jensen for its length, in violation of Local Rule 105.3.

50
A-52

The Findings further set out that, at the end of December 2012, Respondent emailed
Mr. Coe a 13-page letter "outlining the 'fallacies' of Mr. Hjortsberg's legal strategy."
Respondent, again, "reiterated that Mr. Hjortsberg was 'complicit in the very same fraud
as [his] clients" and threatened to file another Motion to Disqualify him as counsel, while
asking if there was any interest in settlement discussions.
In February of 2013, before the Court of Special Appeals issued its decision, the
Moores filed a voluntary Chapter 7 bankruptcy petition in the United States Bankruptcy
Court, thereby, staying the matter in the Court of Special Appeals.
According to the admissions, Respondent informed Mr. Hjortsberg that he was
"prepared to take the depositions of Robert S. Svehlak and Neil D. Roseman as soon as
possible." All litigation involving the Moores, however, had been automatically stayed
based upon their bankruptcy filing. The Findings, however, noted that "Respondent did
not advise Mr. Hjortsberg that his clients filed for bankruptcy protection and he had no
legal authority to take any action in any pending litigation after February 20, 2013."
In April of 2013, Marc Baer, the appointed trustee of the Moores' bankruptcy estate,
filed an Application to Employ Whiteford, Taylor & Preston as Special Counsel to Trustee.
The application was granted, and David Daneman entered his appearance in the Imagine
Capital v. Moore and Moore v. Svehlak matters. In July of 2013, the federal district court
remanded the Moore v. Svehlak matter back to the Circuit Court for Baltimore City.
At the end of 2013, Mr. Daneman, the trustee, was able to settle the Imagine matter
with the Moores so that the Moores received money rather than having to pay; Mr.
Daneman then
51
A-53

filed a motion for approval of the Settlement and Compromise that [he] had
reached with the defendants in the Moore v. Svehlak matter as well as the
appellants in Imagine v. Moore. The settlement provided, inter alia, that in
exchange for the Defendants' payments in the aggregate amount of $137,500
and release of all claims against the Moore's bankruptcy estate, the Trustee
would dismiss Moore v. Svehlak with prejudice. As of December 2013,
several of the defendants in Moore v. Svehlak had filed claims against the
bankruptcy estate. The settlement agreement further provided that the stay
would be lifted in the Court of Special Appeals to allow an opinion and
mandate to be issued in Imagine v. Moore deciding the issue of whether
Imagine committed extrinsic fraud.
While neither Bowie & Jensen nor Mr. Hjortsberg had been added to the
Moore v. Svehlak matter, they joined in the settlement agreement because
they had been identified as possible additional defendants. The settling
parties denied liability and stated that they entered into the settlement
agreement "as a compromise in order to avoid expense and to terminate all
controversies and/or claims for injuries or damages of whatsoever nature[.]"
Neither Bowie & Jensen nor Mr. Hjortsberg contributed any funds towards
the settlement.
The Bankruptcy Court approved the settlement and compromise.
In November of 2014, the United States also filed Notices of Election to Decline
Intervention in both Qui Tam actions. That same month, the Court of Special Appeals filed
an unreported opinion in Imagine v. Moore, No. 2445, September Term, 2011, rejecting all
of Respondent's arguments, which, according to the admitted averments, the Court found
to have "no merit":
The Court rejected the Respondent's arguments in support of the Motions to
Dismiss, finding his legal theory to be "mistaken." The Court found that the
Moores had "adduced no evidence" to support their theory on the merits of
the case and concluded the Respondent's arguments to have "no merit." In
a footnote, the Court cautioned the Respondent for filing a brief in violation
of Maryland Rule 8-503(d). The Court reversed the Circuit Court finding
and remanded the case for further proceedings.

52
A-54

Based upon the settlement agreement in the bankruptcy proceeding, the confessed
judgment in the circuit court was dismissed. The Findings noted, however, that
Respondent, nevertheless, filed a "frivolous" Motion for Rehearing and Reconsideration;
and Motion Requesting Reported Opinion Pursuant to Md. Rule 8-605.1 and a Motion for
Leave to File Amicus Paper in the Court of Special Appeals, all of which were denied.
Based upon the admitted averments, Judge Klavans then noted that Respondent
pursued the Moore's estate for fees in relation to his representation:
During the pendency of the bankruptcy proceeding, the Respondent filed five
proofs of claim against the Debtors' estate associated with his representation
of the Moores. The claims, including amendments, totaled $85,604.61. Both
the Trustee and the Moores filed objections to the claims. On May 21, 2015,
the Trustee filed Notice of Assignment of Bankruptcy Estate's Qui Tam
Claims assigning the claims to the Respondent in exchange for withdrawal
of his claims against the estate.
As set forth in the Findings, Respondent had failed to serve any of the defendants in the
Qui Tam claims.
Thereafter, in 2017, Judge Catherine Blake of the United States District Court for
the District of Maryland dismissed the first Qui Tam complaint with prejudice. She found
that Respondent failed to timely serve the defendants and "offer[ed] no explanation for his
failure" and found some of his defenses to the defendants' motions to dismiss to be
"meritless." Judge Blake additionally noted that Respondent's complaint was "a
paradigmatic example of a 'parasitic' suit," filed in violation of the False Claims Act public
disclosure bar, a bar "to prevent 'parasitic' qui tam actions in which relators, rather than
bringing to light independently-discovered information of fraud, simply feed off of
previous disclosures of government fraud." Judge Blake recognized that neither Rheinstein
53
A-55

nor Mr. Moore were "original sources" and that they offered no information that is
"independent of and materially adds to" the information contained in three plea agreements
that already existed.
With respect to Respondent's conduct, Judge Blake found that Rheinstein
"displayed a pattern of not meeting deadlines throughout th[e] litigation"; although she had
granted Rheinstein's motion for leave to file excess pages, she concluded that there was no
good cause to "permit [his] continued excessively lengthy filings." She further concluded
that the complaint filed by Rheinstein failed to particularly allege the relevant facts
supporting the fraud charge and simply "made vague allegations upon 'information and
belief.'" She also found that two of the defendants listed in the complaint were actually
victims of the fraud scheme.
Judge Klavans found, based upon the allegations as admitted, that Respondent was
nevertheless "undeterred" as he continued efforts to "promote his conspiracy theory and
further his financial interest," as he persisted in the second Qui Tam action:
with filing a Motion to Alter/Amend Judgment on April 25, 2017 and
Amended Motion to Alter/Amend Judgment on May 9, 2017. On May 9,
2017, in exchange for the Respondent's withdrawal of the Motion to
Alter/Amend, as to Cardinal Financial and Wells Fargo Bank, those two
defendants withdrew their pending Motions of Attorneys' Fees. The
remaining defendants filed responses and, by Order entered December 5,
2017, Judge Blake denied the Respondent's Motion.
Respondent then filed a Motion to Voluntarily Dismiss the second Qui Tam case.
CONCLUSIONS OF LAW
We already have denied Rheinstein's exceptions regarding Judge Klavans' decision
to impose discovery sanctions against him, so that we now review de novo Judge Klavans'
54
A-56

conclusions of law. Maryland Rule 19-741(b)(1)22; see Attorney Grievance Comm'n v.
Conwell, 462 Md. 437, 457, 200 A.3d 820, 831 (2019) (citing Attorney Grievance Comm'n
v. Woolery, 456 Md. 483, 494, 175 A.3d 129, 136 (2017)).
In the course of that review, we consider any exceptions filed by Respondent. With
respect to Rheinstein's representation of the Moores, Judge Klavans concluded that he
violated Rules 1.1, 3.1, 3.4, 4.4 and 8.4, all of which Rheinstein excepts to.
Rheinstein excepts to Judge Klavans' conclusion that he violated Rule 1.1 when he
"failed repeatedly to analyze the relevant factual and legal elements and demonstrated a
disregard for the rules of procedure." Specifically, Judge Klavans noted that, "Respondent
developed an elaborate conspiracy theory involving Imagine, its principals, attorneys,
lenders and other associates and embarked on a course of conduct, disconnected from the
facts and applicable law — both substantive and procedural — to prove his theory."
Rheinstein argues that Judge Klavans erred in finding that he demonstrated an
ignorance to the applicable law when he first filed a petition for writ of certiorari in this
Court regarding the fraud action, contending that the matter was an "extraordinary case of
public policy" with an "almost unbelievable record . . . arguably the most shocking
confessed judgment action to ever appear in Maryland's appellate courts." As noted in the
admitted averments, however, Rheinstein's assessment of the case ran contrary to the
opinion of the Court of Special Appeals, which found the case to be nothing more than an
ordinary confessed judgment action.

22

Maryland Rule 19-741(b)(1) states: "The Court of Appeals shall review de novo
the circuit judge's conclusions of law."
55
A-57

Rheinstein also takes issue with the finding that his "Preliminary Brief" filed in the
Court of Special Appeals on May 17, 2012, further "demonstrated his inability or
unwillingness to analyze the relevant facts." Again, as cited in the admissions, the opinion
of our intermediate appellate court found Respondent's arguments to be "'mistaken,'
contrary to 'clear' precedent established by the Court of Appeals, and 'without merit.'"
Rheinstein also disagrees with the assessment that he repeatedly disregarded the
rules of procedure, either intentionally or ignorantly, also amounting to a Rule 1.1
violation, as demonstrated by the flaws contained in the following filings:
The April 2012 petition for writ of certiorari filed in this Court which
violated Rules 8-112(c)23 and 8-303(b)24;
23

Rule 8-112(c) provides:

Printed and Computer-Generated Papers—Proportionally Spaced type.
Type Size and Font. Proportionally spaced type (such as produced by
commercial printers and many computer printers) in the text and footnotes
shall be in a font approved by the Court of Appeals and shall not be smaller
than 13 point. The Court of Appeals shall approve, from time to time, a list
of fonts that comply with the requirements of this Rule. Upon the docketing
of an appeal, the clerk of the appellate court shall send the approved list to
all parties or their attorneys.
Spacing. Papers prepared with proportionally spaced type shall have
double spacing between lines, except that headings, indented quotations, and
footnotes may be single-spaced.
Rule 8-303 governs the procedure for filing a petition for writ of certiorari in this
Court, and provides in pertinent part:
24

(b) Petition. (1) Contents. The petition shall present accurately, briefly, and
clearly whatever is essential to a ready and adequate understanding of the
points requiring consideration. Except with the permission of the Court of
Appeals, a petition shall not exceed 3,900 words. It shall contain the
following information:
(continued . . .)
56
A-58

A frivolous motion to dismiss the appeal in the Court of Special Appeals
"while, at the same time, arguing to the Court of Appeals that certiorari was
warranted";

(continued . . .)
A reference to the action in the lower court by name and docket number;
A statement whether the case has been decided by the Court of Special
Appeals;
If the case is then pending in the Court of Special Appeals, a statement
whether briefs have been filed in that Court or the date briefs are due, if
known;
A statement whether the judgment of the circuit court has adjudicated all
claims in the action in their entirety, and the rights and liabilities of all parties
to the action;
The date of the judgment sought to be reviewed and the date of any
mandate of the Court of Special Appeals;
The questions presented for review;
A particularized statement of why review of those issues by the Court of
Appeals is desirable and in the public interest.
A reference to pertinent constitutional provisions, statutes, ordinances,
or regulations;
A concise statement of the facts material to the consideration of the
questions presented; and
A concise argument in support of the petition.
(2) Documents. A copy of each of the following documents shall be
submitted with the petition at the time it is filed:
The docket entry evidencing the judgment of the circuit court;
Any opinion of the circuit court;
Any written order issued under Rule 2-602(b);
If the case has not been decided by the Court of Special Appeals, all
briefs that have been filed in the Court of Special Appeals; and
Any opinion of the Court of Special Appeals.
(3) Where Documents Unavailable. If a document required by subsection
(b)(2) of this Rule is unavailable, the petitioner shall state the reason for the
unavailability. If a document required to be submitted with the petition
becomes available after the petition is filed but before it has been acted upon,
the petitioner shall file it as a supplement to the petition as soon as it becomes
available.
(4) Previously Served Documents. Copies of any brief or opinion previously
served upon or furnished to another party need not be served upon that party.
57
A-59

A second frivolous motion to dismiss in the Court of Special Appeals, despite
the stay entered there, at his request, and in light of his pending petition for
writ of certiorari;
A 49-page "Preliminary Brief of the Appellees and Memorandum in Support
of Motion to Dismiss Appeal" filed in the Court of Special Appeals which
violated the length requirements of Rule 8-503(d), despite the stay;
An extract filed in the Court of Special Appeals containing numerous
documents that were not part of the Circuit Court record which violated the
Maryland Rules and simultaneously filing "Supplementary Exhibits to
petition for Writ of Certiorari," in support of his "Preliminary Brief' with
this Court;
A "Supplemental Petition for Writ of Certiorari" with a copy of the flawed
record extract filed in the Court of Special Appeals attached; and,
Purporting to represent the Moores after they petitioned for bankruptcy
protection.
Rheinstein argues that any technical errors that may have existed in his filings were
primarily a result of his inexperience in preparing appellate documents and not the product
of a willful disregard for the rules of procedure.
Rule 1.1 "requires an attorney to provide competent representation to his/her client
by applying the appropriate knowledge, skill, thoroughness, and preparation to the client's
issues." Attorney Grievance Comm'n v. Shakir, 427 Md. 197, 205, 46 A.3d 1162, 1167
(2012). Comment 5 to the Rule provides, in part, that: "Competent handling of a particular
matter includes inquiry into and analysis of the factual and legal elements of the problem,
and use of methods and procedures meeting the standards of competent practitioners." The
Comment further states that, the "required attention and preparation are determined in part
by what is at stake; major litigation and complex transactions ordinarily require more
extensive treatment than matters of lesser complexity." While a single mistake or error
58
A-60

does not necessarily demonstrate that an attorney is incompetent, multiple errors,
considered together, may rise to the level of a Rule 1.1 violation. See Attorney Grievance
Comm 'n v. Brown, 308 Md. 219, 232, 517 A.2d 1111, 1117 (1986). Although the filing of
a motion or pleading that ultimately proves to be unsuccessful or even lack merit is not per
se a violation, a violation may, nonetheless, exist when a claim in a pleading demonstrates
an attorney's failure to apply requisite thoroughness and preparation, lacked merit and
failed to advance a client's cause. Conwell, 462 Md. at 462-63, 200 A.3d at 834-35.
Rheinstein violated Rule 1.1 because, repeatedly, his pleadings lacked merit and,
woefully, reflected his significant unwillingness to explore the correct procedure and
inability to comply with the rules in both federal and state cases.
Rheinstein next excepts to Judge Klavans' conclusion that he violated Rule 3.1,
which prohibits an attorney from bringing or defending a proceeding "unless there is a
basis for doing so that is not frivolous." He contends that Judge Klavans erred by not
considering the actual pleadings and transcripts of the underlying litigation which were not
in the record, but rather based his conclusion on the result of the litigation.
Judge Klavans based his conclusion on the fact that Rheinstein filed "numerous
frivolous papers and pleadings and took positions unsupported by fact or law." He found
that the following filings amounted to a Rule 3.1 violation:
The October 18, 2011 Motion to Revise and Vacate the judgments and
memorandum in support filed in Imagine v. Moore was unsupported by the
facts and law as outlined by the Court of Special Appeals' opinion.
Specifically, the Respondent failed to apply the applicable law regarding
void vs. voidable; advanced a meritless claim that intrinsic fraud is sufficient
to vacate a confessed judgment; and failed to evaluate the facts or produce
any evidence of extrinsic fraud as required by Maryland Rule 2-433(b).
59
A-61

The April 16, 2012 Petition for Writ of Certiorari filed in the Court of
Appeals [and supporting filings] were unsupported by the facts of the case.
The Petition was not based on the record, but rather on the Respondent's
unsubstantiated conspiracy theories. The Petition was denied, and as
evidenced by the Court of Special Appeals' opinion, the record failed to
establish any basis for the Respondent's contentions. Specifically, there was
no jurisdictional defect and no evidence existed in the record "to support a
finding of extrinsic fraud sufficient to warrant revision of the confessed
judgment."
[T]he Respondent filed Motions to Dismiss in the Court of Special Appeals
while his Petition for Writ of Certiorari was pending in the Court of Appeals.
It is inconceivable how the Respondent could present a meritorious argument
that, on the one hand, certiorari was appropriate, while arguing on the other
hand that the appeal should be dismissed for mootness or as premature. The
merits of the Respondent's Motions were summarily rejected by the Court of
Special Appeals.
On May 30, 2012, the Respondent filed suit against 28 defendants in the
Circuit Court for Baltimore City requesting $17,000,000 in damages. The
lawsuit was clearly nothing more than a further attempt to compel a
settlement from Mr. Hjortsberg and Bowie & Jensen (as well as a second law
firm). It is noteworthy that the complaint was filed within days of the
Respondent's threat to sue Mr. Hjortsberg personally and was filed only after
Mr. Hjortsberg failed to respond to Respondent's extortionist $5,000,000
settlement demand.
On December 14, 2013, the Respondent filed a frivolous Motion to
Disqualify Mr. Hjortsberg and Bowie & Jensen in the U.S. District Court for
the sole purpose of harassing and burdening Mr. Hjortsberg and his clients. .
. . On December 17, 2012, the U.S. District Court, sua sponte, struck the
Respondent's frivolous filing. Notably, the Respondent never refiled the
Motion, despite threats to do the same, thus conceding that the Motion was
without basis in fact or law.
On February 25, 2013, the Respondent emailed Mr. Hjortsberg purporting to
continue to represent the Moores in Moore v. Svehlak. The Respondent did
not advise Mr. Hjortsberg that his clients had filed for bankruptcy and stated
that he was "prepared to take the depositions of Robert S. Svehlak and Neil
D. Roseman as soon as possible." With the February 20, 2013 bankruptcy
filing, Moore v. Svehlak was automatically stayed and became the property
of the bankruptcy estate. The Respondent had no legal authority to take any
60
A-62

action in any pending litigation after February 20, 2013, and his attempt to
schedule depositions was frivolous.
On November 17, 2014, the Court of Special Appeals issued its unreported
opinion. On December 18, 2014, the Respondent filed a Motion for
Rehearing and Reconsideration; Motion Requesting Reported Opinion; and
Motion for Leave to File Amicus Paper in the Court of Special Appeals. As
of December 18, 2014, the Moores had filed for bankruptcy and the
bankruptcy stood in their place. The Respondent had no standing to file any
papers in the Court of Special Appeals . . . . The Court finds the Respondent's
motive, in filing his December 18 motions, was purely selfish in an effort to
advance his own financial gain.
Comment 1 to Rule 3.1 states, in part, that, "[t]he advocate has a duty to use legal
procedure for the fullest benefit of the client's cause, but also a duty not to abuse legal
procedure. The law, both procedural and substantive, establishes the limits within which
an advocate may proceed." Comment 2 further elucidates, that, "[w]hat is required of
attorneys, however, is that they inform themselves about the facts of their clients' cases
and the applicable law and determine that they can make good faith arguments in support
of their clients' positions." The comment also provides that an action may be deemed
frivolous, "if the attorney is unable either to make a good faith argument on the merits of
the action taken or to support the action taken by a good faith argument for extension,
modification or reversal of existing law."
In Attorney Grievance Commission v. Alison, 349 Md. 623, 709 A.2d 1212 (1998),
this Court upheld the hearing judge's conclusion that Alison had violated Rule 3.1 when
he "brought the RICO and fraud counts vexatiously for the purpose of harassing the
defendants" and "solely to take advantage of the treble damages provisions of the RICO
statute in order to obtain an exorbitant settlement from the defendants," which had
61
A-63

amounted "to a claim brought in bad faith and without substantial legal or factual
justification." Id. at 632, 709 A.2d at 1216. We also concluded that Alison violated the
rule when he filed a lawsuit against a law firm where the claim was "without foundation"
since the firm's attorneys "never had a legal relationship with Mr. Alison." Id. at 640, 709
A.2d at 1220. We recognized that a Rule 3.1 violation may occur where the legal process
is used "for the sole purpose of harassing [a party]." Id.; see also Attorney Grievance
Comm'n v. Mixter, 441 Md. 416, 511, 109 A.3d 1, 58 (2015) (sustaining a Rule 3.1
violation where respondent attempted to enforce over 120 unenforceable subpoenas
through meritless motions to compel in order to coerce opposing parties into compliance
with excessive discovery requests); Attorney Grievance Comm'n v. Gisriel, 409 Md. 331,
356-57, 974 A.2d 331, 346 (2009) (stating that the "legal process should never be used as
the Respondent did here, i.e., merely [as] a device to apply pressure to the other parties."
(alteration added)).
In the present matter, Rheinstein violated Rule 3.1 when he filed his lawsuits "with
vexatious RICO and fraud counts in an effort to obtain an 'exorbitant settlement.'" His
multiple filings and lengthy pleadings were "both incredible and outrageous in light of
what actually occurred," Alison, 349 Md. at 631, 709 A.2d at 1216 and were designed to
bully Mr. Hjortsberg and his associates into settlement. Rheinstein clearly abused the legal
process to further his agenda, both in the courts of this State and the federal system.
Accordingly, we overrule Rheinstein's exception and conclude that he violated Rule 3.1.
Rheinstein excepts to Judge Klavans' conclusions that he violated Rules 3.4(c) and
(e) "in his attempt to prove his elaborate conspiracy theory and force a settlement" and
62
A-64

when "he interjected irrelevant and unsubstantiated accusations against Imagine and its
members regarding an elaborate fraud scheme and led the court to believe that Imagine and
its officers were under investigation of the Department of Justice." He, conversely, avers
that he did not violate Rule 3.4 because he zealously and competently represented the
Moores.
Rule 3.4(c) prohibits an attorney from "knowingly" disobeying "an obligation under
the rules of a tribunal except for an open refusal based on an assertion that no valid
obligation exists." Rule 3.4(e) prohibits an attorney from alluding, at trial, "to any matter
that the attorney does not reasonably believe is relevant or that will not be supported by
admissible evidence, assert personal knowledge of facts in issue . . . or state a personal
opinion as to the justness of a cause, the credibility of a witness, the culpability of a civil
litigant or the guilt or innocence of an accused[.]"
As previously discussed, however, Rheinstein clearly violated Rules 3.4(c) and (e)
by persistently advancing an elaborate conspiracy theory unsupported by fact, trying to
force a settlement with Imagine and pursuing the Moores for attorneys' fees despite their
having filed for bankruptcy. Furthermore, his unsubstantiated assertion that Imagine and
its members were being investigated by the Department of Justice prompted Mr. Svehlak
to invoke his Fifth Amendment right to remain silent, resulting in the circuit court vacating
the confessed judgment, which was ultimately reversed by the Court of Special Appeals
that found no clear and convincing evidence of extrinsic fraud. Accordingly, we overrule
Respondent's exceptions and conclude that he violated Rules 3.4(c) and (e).

63
A-65

Rheinstein then asserts that Judge Klavans' conclusion that he violated Rule 4.4(a)
is at odds with the record. Rule 4.4(a), in part, prohibits an attorney from using means
"that have no substantial purpose other than to embarrass, delay, or burden a third
person[.]" Attorneys "are required to act with common courtesy and civility at all times in
their dealings with those concerned with the legal process." Attorney Grievance Comm 'n
v. Payer, 425 Md. 78, 96, 38 A.3d 378, 388 (2012) (quoting Attorney Grievance Comm 'n
v. Link, 380 Md. 405, 425, 844 A.2d 1197, 1209 (2004)). An attorney may violate Rule
4.4 when he or she includes individuals in a lawsuit without substantial justification or in
"an attempt to get to some deep pockets by using a shotgun approach[] and hoping to obtain
a good settlement." Alison, 349 Md. at 633, 709 A.2d at 1217 (alteration in original). An
attorney also violates the rule when his or her "actions were pursued in total disregard for
their substantial cost to [the opposing party], were intentionally dilatory and were without
legal basis." Attorney Grievance Comm 'n v. McClain, 406 Md. 1, 15, 956 A.2d 135, 143
(2008).
Here, Rheinstein violated Rule 4.4(a) when he threatened to report Mr. Hjortsberg
and Ms. Sparks to the Attorney Grievance Commission if they refused to drop the appeal
in the Court of Special Appeals and/or withdraw as counsel for Imagine. He also violated
the Rule when he wrote then-Chief Judge Krauser, accusing Mr. Hjortsberg's firm for
having an ex parte conversation with the clerk's office in an attempt to "manipulate the
trial record." His actions served no other purpose than an attempt to bully a dismissal of
the appeal in the Court of Special Appeals and withdrawal of counsel. Rheinstein further
violated the Rule when he threatened to sue the attorneys for claims related to their clients'
64
A-66

alleged fraudulent conduct. Accordingly, we overrule his exception and conclude that he
violated Rule 4.4(a).
Rheinstein, finally, excepts to Judge Klavans' conclusion that he violated Rules
8.4(a), (c) and (d). Rheinstein excepts to the conclusion that he violated Rule 8.4(a) insofar
as he excepts to the previous conclusions of rule violations. We overrule his exception as
we have sustained all other rule violations. See Attorney Grievance Comm'n v. Van Nelson,
425 Md. 344, 363, 40 A.3d 1039, 1050 (2012).
Rheinstein excepts to Judge Klavans' conclusion that he violated Rule 8.4(c) when
he, at the hearing before Judge Brown, "interjected irrelevant and unsubstantiated
accusations against Imagine and its members regarding an elaborate fraud scheme[,] leered
at Mr. Svehlak and led the court to believe that Imagine and its officers were under
investigation by the Department of Justice." Judge Klavans further noted that, while
Rheinstein' s misconduct "was isolated to [the] misleading statements at the December
2011 hearing, the impact of his misconduct was enormous," as his "irrelevant and
unsubstantiated accusations" resulted in "Mr. Svehlak invok[ing] his Fifth Amendment
right to remain silent" and the vacatur of the confessed judgment, "setting into motion the
years of frivolous litigation that followed."
Rheinstein, primarily, contends, however that Judge Klavans went beyond the
averments in the Petition because, he asserts, Bar Counsel did not allege that he made
misrepresentations or false statements. The Petition, however, specifically provides that,
"Respondent interjected irrelevant and unsubstantiated accusations . . . and led the court to

65
A-67

believe that Imagine and its officers were under investigation by the Department of
Justice."
Respondent, then, argues that he never misled Judge Brown because he merely
stated, in response to the question as to whether there were any criminal charges that may
be filed against Imagine and its officers that, "[w]e have consulted with the U.S. Attorney,
Your Honor, yes." Rheinstein also contends that he did not advance irrelevant or
unsubstantiated accusations, as the evidence he proffered indicated that Imagine had
engaged in fraud with respect to the Moore loan.
Rule 8.4(c) provides that "it is professional misconduct for an attorney to engage in
conduct involving dishonesty, fraud, deceit or misrepresentation." Of import to the instant
matter, "deceit" is defined as the "act of intentionally giving a false impression." Attorney
Grievance Comm 'n v. Dore, 433 Md. 685, 698, 73 A.3d 161, 168 (2013) (citation omitted).
A "misrepresentation is made when the attorney 'knows the statement is false,' and cannot
be 'the product of mistake, misunderstanding, or inadvertency.' Id. (quoting Attorney
Grievance Comm'n v. Zeiger, 428 Md. 546, 556, 53 A.3d 332 (2012) (internal citation
omitted)). We also note that there "is significant overlap between [Rule] 3.3(a)(1) and
8.4(c)," such that a "lawyer that violates [Rule] 3.3(a) generally violates [Rule] 8.4(c) as
well." Attorney Grievance Comm'n v. Steinhorn, 462 Md. 184, 198-99, 198 A.3d 821,
829 (2018) (quoting Attorney Grievance Comm'n v. Dore, 433 Md. 685, 707, 73 A.3d 161
(2013)). "This overlap occurs because both rules are violated when a lawyer—regardless
of intent—knowingly makes a false statement to the court." Id.

66
A-68

In Attorney Grievance Commission v. Mixter, we concluded that Mixter engaged in
misrepresentative acts in violation of Rule 8.4(c) because his actions were "laden with
deceit and consistent misrepresentations to the courts, parties and witnesses of both fact
and law." 441 Md. 416, 523, 109 A.3d 1, 65-66 (2015). In that case, we agreed with the
hearing judge, that the Rule 8.4(c) violation was supported by the fact that Mixter had
falsely asserted in twenty-four motions that the oppositions were properly served with
subpoenas outside of Maryland, falsely certified in fifty-three certifications that he had
engaged in good faith efforts at resolving discovery disputes and willfully omitted material
information in connection with motions, among others. In Attorney Grievance
Commission v. Sperling, 432 Md. 471, 494, 69 A.3d 478, 491 (2013), we also sustained a
Rule 8.4(c) violation based upon the attorney's misrepresentation of facts to a court "in an
effort to mislead the court into granting both [of his] motions to reopen a case."
In Attorney Grievance Commission v. Woolery, 462 Md. 209, 198 A,3d 835 (2018),
we concluded that Woolery had violated Rule 8.4(c) when he falsely filed a motion to
remove an individual as a trustee from an estate, which he supported with an affidavit from
his client, based upon the allegation that the trustee had undertaken representation of a
party of interest in the estate. In excepting to the conclusion that he had violated Rule
8.4(c), Woolery argued that Bar Counsel failed to prove that he knew that the affidavit was
false; we, however, found that the hearing judge possessed clear and convincing evidence
that Woolery had no basis to believe that the trustee represented the third-party in interest
when he filed his motion to remove. We noted that the filing had been "[p]rompted by his

67
A-69

`personal animus' and recent termination of his representation, thereby, violating the
Rule. Id. at 246, 198 A.3d at 857.
In the present case, Rheinstein violated Rule 8.4(c) when he advanced allegations
of fraud against Imagine and represented to the Circuit Court that Imagine and its principals
faced criminal charges, both of which lacked any substantiation, as noted by the Court of
Special Appeals, the United States District Court for the District of Maryland and Judge
Klavans.
Rheinstein then excepts to Judge Klavans' conclusion that he violated Rule 8.4(d),
based upon Rheinstein's "complete disregard for his obligations as a member of the Bar"
and subordination of "his responsibility to the courts, his clients, third parties, and his
opponents in an effort to advance his own agenda for financial gain." Such vexatious
litigation, Judge Klavans noted, sullied the reputation of the legal profession.
"A lawyer engages in conduct prejudicial to the administration of justice," thereby
violating Rule 8.4(d), "when he or she engages in conduct that 'tends to bring the legal
profession into disrepute.'" Attorney Grievance Comm'n v. Plank, 453 Md. 446, 465-66,
162 A.3d 888, 899 (2017) (quoting Attorney Grievance Comm'n v. Basinger, 441 Md. 703,
712, 109 A.3d 1165, 1170 (2015)). Generally, an attorney violates Rule 8.4(d) "where the
lawyer's conduct would negatively impact the perception of the legal profession of a
reasonable member of the public." Attorney Grievance Comm'n v. Sacks, 458 Md. 461,
514, 183 A.3d 86, 116 (2018) (quoting Attorney Grievance Comm'n v. Chanthunya, 446
Md. 576, 602, 133 A.3d 1034, 1049 (2016), reconsideration denied (Apr. 21, 2016)). We
have concluded that an attorney violated Rule 8.4(d) when she threatened to bring an
68
A-70

unfounded disciplinary complaint against opposing counsel when opposing counsel
refused to comply with the attorney's untimely discovery requests. Plank, 453 Md. at 46869, 162 A.3d at 901.
In Attorney Grievance Commission v. Alison, we also held that the hearing judge
was correct in finding that filing a lawsuit against a law firm that "'was completely without
foundation" was prejudicial to the administration of justice because the conduct
"'generated a lot of court time, unnecessary pleadings and involvement of parties for the
sole purpose of harass[ment.]" 349 Md. at 640, 709 A.2d at 1220-21; we also held that
the inclusion of meritless counts in a complaint also violated Rule 8.4(d). Id. at 633, 709
A.2d at 1217. We also have determined that a Rule 8.4(d) violation occurred when an
attorney filed suit against a former client in federal court in Maryland, where the client
neither resided nor had any contacts, in an effort to collect attorneys' fees, requiring the
former client to hire a Maryland attorney to defend the frivolous action. Powers, 454 Md.
at 99-100, 164 A.3d at 150.
In the instant case, Rheinstein engaged in conduct that brought the legal profession
into disrepute in violation of Rule 8.4(d), as it would certainly negatively impact the
perception of the legal profession of a reasonable member of the public. As Judge Klavans
noted, Rheinstein "engaged in a persistent course of misconduct fueled by his conspiracy
theories and disconnected from the facts and the applicable procedural and substantive
law." Rheinstein wasted judicial resources and forced others to expend unnecessary
resources to defend against frivolous allegations he presented in the Circuit Court for
Baltimore City, the Court of Special Appeals, the United States District Court for the
69
A-71

District of Maryland, the United States Court of Appeals for the Fourth Circuit, the United
States Bankruptcy Court and this Court. He also "repeatedly sought to intimidate and
harass his opponents to coerce a settlement contrary to the merits of any of his claims."
Furthermore, Rheinstein, during the pendency of the Moores' bankruptcy proceeding, filed
five proofs of claim against their estate, seeking a total of $85,604.61 in attorney's fees for
his representation. The exorbitant amount in fees were the result of Rheinstein's
vexatiousness and frivolous filings, as well as consistent harassment of opposing counsel.
Accordingly, we overrule his exception to the Rule 8.4(d) violation.
SANCTION
Bar Counsel, based upon the unsubstantiated representation to the Circuit Court
about possible criminal charges against Imagine and its principals and Rheinstein's
obstructionist conduct during the disciplinary proceedings, recommends his disbarment.
Rheinstein, initially, proposes that we should dismiss the charges against him,
because, he argues, his "zealous" conduct did not amount to a violation of the rules of
professional conduct. In the alternative, he contends that the matter should be remanded
back to the Circuit Court to permit discovery to take place, so that his defenses can be
"properly considered." Rheinstein further posits that, if this Court determines that an
immediate sanction is warranted, he "would accept a reprimand" based upon "the tenor of
his email correspondence for which he has expressed regret on multiple occasions."
The "purpose of `attorney discipline is protection of the public, rather than
punishment' of the errant attorney." Attorney Grievance Comm 'n v. Hodes, 441 Md. 136,
205, 105 A.3d 533, 574 (2014) (quoting Attorney Grievance Comm 'n v. Coppola, 419 Md.
70
A-72

370, 404, 19 A.3d 431, 451 (2011) (further citation omitted)). The public is protected by
attorney sanctions because they demonstrate "to members of the legal profession the type
of conduct which will not be tolerated." Attorney Grievance Comm'n v. Gallagher, 371
Md. 673, 714, 810 A.2d 996, 1020 (2002) (citation omitted). In crafting a sanction, our
task is to "evaluate each attorney grievance matter on its own merits, considering the
particular facts and circumstances in order to determine an appropriate sanction." Hodes,
441 Md. at 205-06, 105 A.3d at 574 (citing Coppola, 419 Md. at 404, 19 A.3d at 451). In
so doing, we often consider various aggravating factors found in Standard 9.22 of the
American Bar Association for Imposing Lawyer Sanctions when imposing discipline,
which are:
prior disciplinary offenses;
dishonest or selfish motive;
a pattern of misconduct;
multiple offenses;
bad faith obstruction of the disciplinary proceeding by intentionally failing
to comply with rules or orders of disciplinary agency;
submission of false evidence, false statements, or other deceptive practices
during the disciplinary process;
refusal to acknowledge wrongful nature of conduct;
vulnerability of victim;
substantial experience in the practice of law;
indifference to making restitution;
illegal conduct, including that involving the use of controlled substances.
71
A-73

Standard 9.22 of the American Bar Association Standards for Imposing Lawyer Sanctions
(1992). We also consider mitigation and will evaluate whether any of the following factors
exist:
absence of a prior disciplinary record; absence of a dishonest or selfish
motive; personal or emotional problems; timely good faith efforts to make
restitution or to rectify consequences of misconduct; full and free disclosure
to disciplinary board or cooperative attitude toward proceedings;
inexperience in the practice of law; character or reputation; physical or
mental disability of impairment; delay in disciplinary proceedings; interim
rehabilitation; imposition of other penalties or sanctions; remorse; and
finally, remoteness of prior offenses.
Coppola, 419 Md. at 407, 19 A.3d at 453 (quoting Attorney Grievance Comm'n v. Gordon,
413 Md. 46, 63, 991 A.2d 51, 61 (2010) (further citation omitted)).
The hearing judge, although not crafting a sanction, addresses aggravating and
mitigating factors and includes findings relevant to them. See Attorney Grievance Comm 'n
v. Ucheomumu, 462 Md. 280, 323-28, 200 A.3d 282, 307-10 (2018), reconsideration
denied (Dec. 12, 2018).
With respect to aggravation, Judge Klavans found several 9.22 factors relevant to
the present case, those being (b) dishonest or selfish motive, (c) a pattern of misconduct,
(d) multiple offenses, (e) bad faith obstruction of the disciplinary proceeding by
intentionally failing to comply with rules or orders of the disciplinary agency, (0
submission of false evidence, false statements, or other deceptive practices during the
disciplinary process, (g) refusal to acknowledge wrongful nature of conduct and (i)
substantial experience in the practice of law. Rheinstein excepts to each of Judge Klavans'
findings as to the presence of aggravating factors, which we shall address in turn.
72
A-74

As to aggravating factor (b), "dishonest or selfish motive," Rheinstein excepts to
Judge Klavans' finding that he was motivated by his own financial gain, because he
charged the Moores $85,604.61 for his representation and because he exhibited "abusive
and threatening" behavior towards his opponents in order to force settlement. Rheinstein
contends, rather, that he did not pursue the litigation for personal gain, but "went out of his
way to represent his clients" and allegedly uncovered a "fraud scheme" that had "real
victims" and which resulted in "criminal indictment and six-figure financial settlements,"
again without substantiation.
Rheinstein, however, resorted to unacceptable and egregious tactics in an attempt to
force a settlement on a frivolous claim, thereby exhibiting a dishonest and selfish motive.
Rheinstein also pursued the Moores for attorneys' fees, despite their bankrupt status, for
pursuing vexatious litigation, which did not benefit them. See Conwell, 462 Md. at 474,
200 A.3d at 841 (noting that aggravating factor (b) was present when attorney inflated
client invoices, pursued previous client for fees despite cease-and-desist order by
Bankruptcy Court and misrepresented the legal work contributed to client's cause of action
to increase a potential award). Additionally, in everything Rheinstein penned to opposing
counsel, he coupled unacceptable threats with demands for exorbitantly high amounts in
settlement.
As Judge Klavans found, aggravating factor (c), "a pattern of misconduct," is
implicated. "A pattern of misconduct is formed by a series of acts, even if that series of
acts is performed to achieve a single goal." Hodes, 441 Md. at 207, 105 A.3d at 575.
Rheinstein engaged in a pattern of misconduct by pursuing the underlying vexatious
73
A-75

litigation between 2011 and 2014, threatening attorneys and filing countless unnecessary
filings in both the courts of this State and the federal court. He demonstrated a pattern of
misconduct by obstructing the disciplinary action against him in excess of three years,
removing the matter to the federal court twice, filing motions to dismiss and completely
disregarding discovery orders and requests, as well as doing data "dumps" on Bar Counsel
and alleging that Bar Counsel was engaged in an "illicit strategy."
As to aggravating factor (d), "multiple offenses," we have sustained Judge Klavans'
conclusions regarding multiple rule violations, so that this factor weighs in favor of a more
severe sanction. See Mixter, 441 Md. at 530, 109 A.3d at 69-70 (stating that "Factor (d) .
. . is implicated when an attorney violates multiple disciplinary rules.").
Aggravating factor (e) regarding bad faith obstruction during the disciplinary
proceeding surely is implicated. Rheinstein filed two frivolous Motions to Dismiss in the
Circuit Court,25 failed to respond to Bar Counsel's discovery requests in violation of the
Circuit Court's scheduling order and the Maryland Rules, removed the disciplinary case
twice to the federal court without any bases, engaged in conduct in an attempt to bully Bar
Counsel and sought to disqualify Bar Counsel on numerous occasions, acts which clearly
were intended to obstruct the disciplinary process. See Attorney Grievance Comm'n v.
Maldonado, 463 Md. 11, 51, 203 A.3d 841, 864 (2019) (finding bad faith obstruction where
attorney, in a disciplinary action, evaded service, failed to file a timely answer and failed
to timely and completely respond to discovery requests); Attorney Grievance Comm'n v.

Motions to Dismiss an attorney grievance matter are not entertained in the circuit
court. See Rule 19-725.
25

74
A-76

Phillips, 451 Md. 653, 672, 155 A.3d 476, 487 (2017) (finding obstruction where attorney
filed a frivolous motion to quash an investigative subpoena "for the sole purpose of
obstructing the investigation and delaying his having to make a statement under oath");
Attorney Grievance Comm'n v. Allenbaugh, 450 Md. 250, 280, 148 A.3d 300, 318 (2016)
(finding bad faith obstruction where attorney refused to comply with Bar Counsel's
requests for information and otherwise failed to cooperate with discovery).
As to factor (f), the "submission of false evidence, false statements, or other
deceptive practices during the disciplinary process," Judge Klavans found that Rheinstein
"has shown a propensity to misstate the law and to omit inconvenient but essential facts
from his arguments." Judge Klavans noted that Respondent asserted, in a motion in limine
to prevent Bar counsel from presenting evidence relating to frivolous filings, that "no court
has ever found any filing presented by the Respondent to be 'frivolous.'" Rheinstein's
contention, however, flies in the face of the determination by the Court of Special Appeals
that his arguments lacked merit as well as the findings of the United States District Court
which found his Qui Tam complaint to be "parasitic." See Attorney Grievance Comm'n v.
McLaughlin, 456 Md. 172, 205, 171 A.3d 1205, 1224 (2017) (finding that attorney
implicated aggravating factor regarding the submission of false evidence, false statements
or other deceptive practices by making "multiple representations in her sole
communication with Bar Counsel"); Attorney Grievance Comm 'n v. Rand, 445 Md. 581,
643, 128 A.3d 107, 144 (2015) (affirming finding that factor (f) had been implicated where
Rand provided false statements to Bar Counsel).

75
A-77

With regards to aggravating factor (g), a "refusal to acknowledge wrongful nature
of conduct," Judge Klavans found that, even prior to the hearing before him, Rheinstein
asserted that he had "not violate[d] a single Maryland Rule of Professional Conduct."
Before us, Rheinstein only acknowledges that several of his emails may have been
unacceptable.

See Maldonado, 463 Md. at 52, 203 A.3d at 865 (concluding that

aggravating factor (g) had been implicated where, at oral argument, the respondent "did
not show remorse for her actions and instead blamed everyone but herself for this
disciplinary action.").
Throughout the disciplinary process, Rheinstein also advanced a conspiracy theory
between Imagine and its attorneys, even alleging that Bar Counsel's requests to his
interrogatories "conclusively establish[ed] that [Bar Counsel was] attempting to try the
merits of Qui Tam I," further reflecting his lack of remorse. See Rand, 445 Md. at 642,
128 A.3d at 144 (noting respondent's failure to acknowledge any wrongdoing, "instead
arguing that he simply made 'clerical errors,' was not required to provide [client] with any
invoices and only attempted to 'set conditions' on Bar Counsel's inquiries for
documentation rather than refused to comply."); Mixter, 441 Md. at 530, 109 A.3d at 70
("Out of Mixter's one-hundred and six pages of exceptions, he only asserts, in one
sentence, that he is 'sincerely remorseful,' without elaboration.").
With respect to aggravating factor (i), the "substantial experience in the practice of
law," Judge Klavans found that, "[a]t the time of Respondent's first involvement in the
cases underlying this matter [he] had been practicing law for six years." Since then,
"[t]hrough the myriad litigations and this disciplinary process, with its various detours and
76
A-78

delays, Respondent has now practiced nearly fourteen years." Judge Klavans further noted
that because Rheinstein had proceeded mostly pro se during the disciplinary matter, and
after reviewing the pleadings drafted in both the underlying matter and the disciplinary
action, "along with his sophisticated efforts to prosecute appeals and removals to the
Federal courts demonstrate substantial experience in the practice of law."
Rheinstein, however, excepts to the finding of substantial experience, contending
that "the underlying litigation presented for the first time the Respondent had litigated a
complex fraud case and the first time he litigated any case in Maryland's appellate courts."
What is troublesome regarding this aggravating factor is that Rheinstein's
representation in the Moore matter reflected a general incompetence and vexatiousness that
we would expect no one with any experience in the law to exhibit. On the other hand, only
before us is Rheinstein alleging his inexperience, as he represented his extensive
experience to Mr. Coe when he presented himself as someone licensed to practice law in
seven states and the District of Columbia and repeatedly espoused the validity of his
various legal theories. As a result, we overrule his exception.
The hearing judge found that "only mitigating factor (1), the absence of prior
attorney discipline, is present in this matter, as conceded by Petitioner." Although Judge
Klavans' order granting Bar Counsel's motion for sanctions and request for default does
not specifically state that Respondent is precluded from presenting evidence of mitigation,
Respondent's failure to disclose information concerning his expert witness—i.e., Dr.
Ratner—was the subject of the multiple discovery violations found by Judge Klavans.
Thus, we concur in his findings.
77
A-79

Rheinstein excepts to Judge Klavans' failure to find that any of the other following
mitigating factors are implicated, to include:
absence of a dishonest or selfish motive;
personal or emotional problems;
timely good faith efforts to make restitution or to rectify consequences of
misconduct;
full and free disclosure to disciplinary board or cooperative attitude toward
proceedings;
inexperience in the practice of law;
character or reputation;
physical or mental disability or impairment;
delay in disciplinary proceedings; and,
remoteness of prior offenses.
We have already determined, in our discussion of aggravation, that the "absence of
a dishonest or selfish motive," "timely good faith effort to make restitution or to rectify
consequences of misconduct," "full and free disclosure to disciplinary board or cooperative
attitude toward proceedings" and "remoteness of prior offenses" did not exist in the present
case nor "inexperience in the practice of law." Our determination that Rheinstein acted to
delay the disciplinary proceedings also has been discussed infra.
With respect to personal or emotional problems and physical or mental disability or
impairment, Rheinstein proffers that his discipline would have been obfuscated were he to

78
A-80

have been able to present Dr. Ratner's testimony. We already have disposed of this
contention by sustaining the discovery sanctions.
Moreover, Rheinstein did not proffer that Dr. Ratner would opine that the bases for
the Rule 8.4(c) and (d) violations, the gravamen of the disciplinary sanction, were obviated
or mitigated by Rheinstein's ADHD diagnosis. In order to obviate the rule violation, the
alleged emotional problems and mental disability must be the "root cause" of the
misconduct so as to prevent the attorney from conforming his conduct to the Rules.
Attorney Grievance Comm'n v. Vanderlinde, 364 Md. 376, 413-14, 773 A.2d 463 (2001).
An attorney also bears the responsibility to proffer mitigation. Rule 19-727(c);
O'Leary, 433 Md. at 33, 69 A.3d at 1139. Here, Rheinstein demurred in response to Bar
Counsel's interrogatory regarding what mitigators he intended to proffer and failed to
proffer sufficient mitigation of the Rule 8.4 violations, the gravamen of the present matter.
Rheinstein also contends that there "is no evidence that [he] has a bad character or
bad reputation," but, rather, he asserts, the "record reflects that he went out of his way to
represent his clients to uncover the fraud scheme at the heart of this case." Rheinstein,
however, never proffered evidence of his character or reputation below, nor does he point
to any before us. Accordingly, this mitigating factor cannot weigh in favor of a less severe
sanction.
As a result, we shall impose a sanction of disbarment, in line with our jurisprudence
regarding similar misconduct, based upon Rheinstein's misrepresentation to Judge Brown
of the Circuit Court for Baltimore City at the hearing which occurred in December of 2011

79
A-81

and his vexatious litigation conduct, as well as his dilatory action during the disciplinary
process.
With respect to Rheinstein's deceit, it is axiomatic that, "candor by a lawyer, in any
capacity, is one of the most important character traits of a member of the Bar. . . . When a
lawyer lies to a tribunal, he or she violates a norm that warrants disbarment." Attorney
Grievance Comm'n v. Fader, 431 Md. 395, 438, 66 A.3d 18, 43 (2013) (internal quotation
marks and citation omitted) (disbarring attorney for misrepresenting facts to the Office of
Administrative Hearings and the administrative law judge in order to secure a
postponement and failing to subsequently correct misrepresentations). Knowing
misrepresentations, especially those made in order to obtain a more favorable outcome,
also generally warrant the sanction of disbarment. See Attorney Grievance Comm'n v.
Agbaje, 438 Md. 695, 735-36, 93 A.3d 262, 285 (2014). In Attorney Grievance
Commission v. Mixter, 441 Md. 416, 109 A.3d 1 (2015), we disbarred Mixter upon
concluding that he had violated Rules 3.1, 3.3, 3.3(a)(1), 3.4(a), (c) and (d), 4.1(a)(1) and
8.4(a), (c) and (d). Our decision to disbar Mixter rested on his repeated misrepresentations
to the court which had been made "in an effort to abuse and browbeat his opponents into
complying with his excessive and unnecessary discovery requests." Id at 526, 109 A.3d
at 67.
Repeated misrepresentations are not required, as 'one instance of misconduct can
be so egregious as to warrant the imposition of a significant sanction,' such as disbarment."
Attorney Grievance Comm'n v. Garcia, 410 Md. 507, 525, 979 A.2d 146, 157 (2009)
(citations omitted); see also Gisriel, 409 Md. at 386, 975 A.3d at 363 (disbarring an
80
A-82

attorney after a single instance of misappropriating funds by forging a client's signature on
a check); Attorney Grievance Comm 'n v. Roberts, 394 Md. 137, 146, 166-67, 904 A.2d
557, 562, 574-75 (2006).
In Garcia, we disbarred him for misrepresenting to the Immigration and
Naturalization Service that he was the employer of his client on a visa application which
resulted in the attorney's conviction by guilty plea to conspiracy to commit immigration
fraud. We found the one instance of deceit and fraud to warrant the sanction of disbarment.
In Attorney Grievance Commission v. Framm, 449 Md. 620, 144 A.3d 827 (2016),
we disbarred Framm because of her conduct when pursuing fees against a former client.
At a hearing on the contested attorneys' fee, Framm had testified that the former client had
a "fairly good capacity to understand agreements," knowing, however, a judge had found
the client to be incompetent. Id at 641-42, 144 A.3d at 840. We noted that such conduct
deserved "the ultimate sanction" because Framm had "lied to and deceived the court to the
detriment of her former client for her own monetary gain." Id at 668, 144 A.3d at 855;
see also Attorney Grievance Comm 'n v. Trye, 444 Md. 201, 118 A.3d 980 (2015)
(disbarring attorney based, in part, upon false statements made to court regarding which
documents she subpoenaed in divorce case); Attorney Grievance Comm 'n v. McClain, 406
Md. 1, 16, 956 A.2d 135, 144 (2008) (disbarring attorney for informing the court that his
client had settled a matter, when, in fact, he had not, a fact he knew).
Rheinstein misrepresented facts to Judge Brown in the Circuit Court in an effort to
intimidate his opponents; he advanced baseless and unsubstantiated claims of fraud against
Imagine and led Judge Brown to believe that Imagine and its principals had been facing
81
A-83

criminal charges, without bases. Throughout the course of the litigation, Rheinstein
attempted to disqualify every attorney retained by Imagine without bases and bully counsel
into settling the cases for ridiculous amounts.
As an officer of the court, Rheinstein was "expected to manifest integrity," Mixter,
441 Md. at 526, 109 A.3d at 67, but, instead, misrepresented facts to the Circuit Court with
the intent to secure a favorable outcome, thereby, resulting in the use of abhorrent tactics
in seeking settlement and subordinating his duty to his clients and the court. He also
pursued litigation in a vexatious manner and intolerably delayed and sullied the ensuing
disciplinary process. Disbarment must follow.
IT IS SO ORDERED; RESPONDENT
SHALL PAY ALL COSTS AS TAXED BY
THE CLERK OF THIS COURT,
INCLUDING COSTS OF ALL
TRANSCRIPTS PURSUANT TO
MARYLAND RULE 19-709, FOR WHICH
SUM JUDGMENT IS ENTERED IN FAVOR
OF THE ATTORNEY GRIEVANCE
COMMISSION AGAINST JASON
EDWARD RHEINSTEIN.

82
A-84

ATTORNEY GRIEVANCE COMMISSION
OF MARYLAND

•

IN 1BE
COURT OF APPEALS
OF MARYLAND

Petitioner,
lvlise, Docket AG No. 77
V.
Septernber Tortri,.2016
JASON EDWARD RHEINSTEIN
Respondent.

•

lit the Circuit Court for
Anne Arundel County
Case No. C-02-CV46-090597

FINDINGS OF FACT AND coNcLusroNs OF LAW
This matter came before the Court for hearing on. July 1 and 10, 2019, on a Petition for

b/19/ 2U 1 U ULI-

Disciplinary or Remedial Action filed by the Attorney Grievance Commission. of Maryland
(hereinafter "Petitioner") against Jason Edward Itheinstein (hereinafter "Respondent"). Upon
consideration of the Petition, Respondent's Answer, the Record in this matter, and as a result of
the Default Judgment granted against the Respondent (as will be discussed below), this Court
makes the following Findings of Fact and Conclusions °flaw.

PROCEDURAL HISTORY
On December .8, 2015, Bar Counsel received direction from the. Attorney Grievance
Commission to file this petition pursuant to Maryland Rule 16-751(a) (now Rule 19-721). On
February 17, 2016, Bar Counsel, filed a Petition for Disciplinary or Remedial. Action (hereinafter
"Petition") in The Court of Appeals. By Order dated February 19, 2016, the Court transmitted the
matter to the Circuit Court for Anne Arundel County pursuant to Maryland Rule 19-722 to be
heard and determined by Judge Paul F. Harris, Jr. On April 22, 2016, the Respondent was served
with the following: (1) Petition for Disciplinary or Remedial Action;. (2) Order of the Court of

A-85

Appeals dated February 19, 2016; (3). Summons Issued. February 23, 201.6; (4) Petitioner's First
Set cif interrogatories; and (5) Petitioner's First Request for Production of Documents. Pursuant
to Maryland Rule 19-727(e), the hearirig in this matter should have been completed by August 20,
2016. Instead, due to a series of delays attributable to the Respondent, the case was not considered
in the Circuit Court until July 2019, having been reassigned due to the retirement of Judge Harris
to Judge Glenn L. Klavans.

STANDARD OF REVIEW
Petitioner in this matter has the burden of proving, by clear and convincing evidence,, the
averments of the petition. Respondent has the burden of proving an affirmative 'defense ar a matter
of mitigation or extenuation by a preponderance of the evidence. Maryland Rule 19-727(e).

DEFAULT JUDGMENT
Upon (I) Petitioner's Motion for Sanctions and Order of Default, filed Tilly 19, 2017, and
Respondent's Opposition to Petitioner's Motion for Sanctions and Order of Default1 filed August
2, 2017; (2) Petitioner's Motion for Sanctions and/or Motion In Limitte, filed June 2, 2019 and
Supplement to Petitioner's Motion for Sanctions and/or Motinn In Litnine, filed June 24, 2019,
and Respondent's Opposition to Petitioner's Motion for Sanctions and/pr Motion In Limine, filed
June 24, 2019, the Court issued an Memorandum Opinion and Order on. June 27,. 2019, granting a
Default Judgment against Respondent Respondent filed a Motion for Reconsideration, which the
Court granted and a hearing was held on said Motion. on July 10, 2019. As a result, the Court
issued its Second Memorandum Opinion and Order, again granting a. Default Judgment against
2

A-86

Respondent. Such Second Memorandum Opinion and Order is part of the Record in this matter
and incorporated herein by reference. The Petitioner was previously directed to file Proposed
Findings of Fact and Conclusions ofLaw, and argument was heard from both parties thereon, on
July10, 2019.
FINDINGS OF FACT
Asa result of the Default Judgment entered against Respondent, the allegations are deemed
admitted and it is deemed proven by clear and convincing evidence that the Rules of Professional
Conduct have been violated as alleged m the Petition for Disciplinary or Remedial Action, the
factual basis for which is as follows:.
Me Respondent was admitted to the Maryland Bar on DeCeMber15, 2005. At all times
relevant hereto, he maintained an office for the practice of law in Anne Arundel County
Imagine Capital,, Inc. ("Imagine") is a private lender which finances residential
rehabilitationprojects in Maryland. Imagines two officers. are Robert Svehlalc and Neil Roseman.
In September 2008, Charles and Felicia Moore, husband and wife, entered into a construction loan
agreement for $200,000 with Imagine. The "Loan Commitment Letter" identified Mr. Moore as
the borrower and the Moores as guarantors. It stated that the total loan amount is anticipated to be
distributed in $ construction draws. Mr. Moore, a seasoned real estate investor, pledged four
Baltimore City properties as collateral for the loan. After $67,419,92 was disbursed to Mr. Moore,
he defaulted on the monthly interest payments.
In June 2009, Imagine, through its then-attorney, James Holdemess, Esquire, tiled a
complaint for confessed judgment. imagine Capital, Inc. v. Charles E. Moore, et aL Case No. 24C-09-003634 in. the Circuit Court for Baltimore City (hereinafter "Imagine v. Moore"). On June
3

A-87

12, 2009, the Circuit Court entered judgments against the Mc otes in the amount of $111683.76
(principal, interest,. attorneys' fees and costs), The Moores did not retain counsel or otherwise take
any action during the 30 days allotted by the Maryland Mesta vacate the confeSsedjudgnionts.
4. To September 2009, imagine and Mr. Moore reached an agreement whereby Mr. Moore
conveyed one of collateral properties to Boomerang Properties, LLC an 'entity controlled by
Mr. Svehlak, at an agreed value of $05000 and signed a promissory note for $29,990. When. Mr.
Moore defaulted On the. agreement, the. original note terms resumed and imagine sought to collect
the full amount due less the $65,000 value. of the ctnivey.ed property. In November 291.9; bug*
began collection efforts. On, November. 17, 2010, Mr. Moore, pro se, filed a motion to open Or
vacate the confessed judgment, which the court denied on February 1.8„2011... On March 24, 2011,
Imagine filed a. request for garnishment of property claiming the Moores still owed $157,578.74.
On April 13,2011.,, Mr. Moore filed a second motion to vacate judgment, which the court denied.
5..1n October 2011, the Moores. retained. the Respondent to represent them, in challenging
the confessed judgments. The Respondent developed an. elaborate conspiracy theory involving
Imagine, its principals, attorney, tenders and. Other associates.. In October 2011, the Respondent
embarked. on a . eoetse of conduct to prove his theory.. His condoet exceeded the bounds, of zealous
advocacy. As discus dbetOw, the Respontient.threatene&tha Se he-believed to be co-cOnSpiraters,
filed numerousfrivplous papers and generally engaged in Vexatious litigation.
On October 18; 2011, more than two years: after-Me confessed. judginents were entered,
the Respondent entered his. appearance on behalf of the Moores inimagine. v. Alopre. He filed, a
motion styled "Motion to Open, Modify, or- Vacate Confessed Judgments, or in the Alternative,
Motion for Order of Satisfaction; and.Motion to. Open, Modify, or Vacate Orders of Garnishment;
4

A-88

and Motion to Enjoin Further Debt Collection Proceedings," along with .a memorandum in support
thereof alleging the judgments were obtained by the perpetration of a fraud and, pursuant to
Maryland Rule 2-535(b), should be vacated.
On October 31, 2011, Imagine, through counsel Jeffrey Tapper, Esq., filed an opposition.
A heating was scheduled for December 7, 2011.
In November 2011, the Respondent filed .a complaint against Mr. Tapper with the
Attorney Grievance Commission. Approximately one week before the hearing, Mr. Tapper
withdrew his appearance citing a conflict due to the grievance.
Imagine then, retained Troy Swanson, Esquire as Successor counsel and a hearing was
held on December 7 and 8, 2011 before the Honorable Emanuel Brown. During the hearing the
Respondent interjected irrelevant and unsubstantiated accusations: against Imagine and its
members regarding an elaborate fraud scheme. The Respondent leered. at Mr. Svehlak during the
proceeding and led the court to believe that Imagine and its officers were under investigation by
the Department offu,stice. Mr. Svehlak invoked his Fifth Amendment right to remain silent.
At the conclusion of the hearing, the court vacated the confessed judgments.
In December 2011, Imagine retained, the law final of Bowie & Jensen and. Matthew
fijortsberg, Esquire, to file an appeal and defend various threatened claims made against it by the
Respondent. On. January 3, 2012, Imagine filed a Notice of Appeal to the Court of Special
Appeals.
On January 25, 2012, the Respondent began a series of email correspondence with Mr.
Hjortsberg in which be threatened, to sue Bowie & Jensen and report Mr. Hjortsberg and his
associate, Lisa D. Sparks, Esquire, to the Attorney Grievance Commission if the appeal was not
S

A-89

dropped. The Respondent never filed a complaint against either attorney with the Attorney
Grievance Commission.
13. Additionally, the Respondent launched an ad hominem attack on Mr. Svehlak's
character. Excerpts from the Respondent's emails include the following:
We are going to proceed with the letter to the Maryland Attorney
Grievance Commission at this time to simply advise of this case and
our concerns over the ethical issues surrounding possible attempts
to reinstate this debt based upon the testimony and the facts in this
case.
*

Because. I believe the transcript and an audit of your client's bank
records would support this notion, I believe this is not only
unethical, but that you are sufficiently aware ofthe background facts
that you, Ms. Sparks and Bowie & Jensen can be-sued for facilitation.
of fraud upon the first 'filing of your appeal documents. In the
unlikely event the fraudulent judgments, would be reinstated on a
procedural technicality, I also believe you would be liable for the
damage% . . My exchange with the FBI last Friday was a. telephone
call with the assigned agent not a meeting,

We are prepared to add your firm as a defendant when the document
is filed. You won't be their first lawyer that is also a defendant.
We're not going to add you on RICO, so no worries there. You'll
be added to our fraud and aiding' and abetting counts.
*

*

Your actions. as a law firm are unethical and constitute facilitation
of fraud. . . I willreinindyou that our suit, is already at24 Defendants
(including several attorneys) and:. that there stilt may not be enough
'to pay a likely award by a Baltimore City jury in this case.
Therefore, my 'client has a strong incentive to add any additional
defendants against whom he has a good faith claim. Should. you
choose to proceed.with this. illicit strategy, please. advise if you have
counsel and whether they can accept service on your behalf
6

A-90

You are assisting your client in an unlawful manner by attempting
to cause the entry of a knowingly fraudulent confessed judgment
against Mr. and Mts. Moore in bad faith and without substantial
justification. We also believe that your attempts to have a
knowingly fraudulent confessed judgment entered against Mr. and
Mrs. Moore: constitute actionable conduct and have at this point
created liability on the part of you, Ms. Sparks, and Bowie & Jensen,
LLC.

Asa result ofthe threats, Bowie & Jensen put its professional liability canier on notice,
retained Ward B. Coe, III, Esquire, as legal counsel, and counseled Imagine about the perception
that the Respondent was depriving them of their choice of counsel. On February 14, 2012, Mr.
Coe wrote to the Respondent and implored him to cease threatening Bowie & Jensen. Mr. Coe
summarized the Respondent's improper threats, outlined the research indicating that the appeal
pending in the Court of Special Appeals was not frivolous, and provided: citations to authorities
standing for the proposition that threatening attorney grievance complaints to gain an advantage
in litigation violates the Maryland Rules of Professional Conduct.
On March 21, 2012, Mr. Hjortsberg filed a complaint with the Attorney Grievance
Commission.
On April 16, 2012, the Respondent filed a frivolous Petition for Writ of Certiorari in
the Court of Appeals. In support of his Petition, he argued that the case was an "extraordinary
case of public policy" with an "almost unbelievable record . . . arguably the most shocking
confessed judgment action to ever appear in Maryland's appellate courts." The Respondent
included substantial documentation and information not contained in the record. While his Petition
for Writ of Certiorari was pending, the Respondent, on April 20, 2012, filed a frivolous motion to
7

A-91

dismiss the appeal in the Court of Special Appeals arguing that the appeal was based upon a nonfinal order. On May 3, 2012, the Court of Special Appeals stayed the appeal pending resolution
of the Petition for Writ of Certiorari.
On May 4, 2012,, despite the stay and his pending Petition, the Respondent filed a
second frivolous Motion to Dismiss Appeal in the Court of Special Appeals'arguing that Imagine
failed to order transcripts and failed to ensure the timely transmittal of the Record. The Motion
was withdrawn on May 23, 2012. On or about May 9„ 2012, the Respondent filed "Petitioner's
Reply to Respondent's Answer to Petition for Writ of Certiorari" hi the Court of Appeals. The
filing was frivolous, and again contained information outside the record.
On May 17, 2012, despite the stay and no briefing schedule having been issued, the
Respondent filed 49-page "Preliminary Brief of the Appellees and Memorandum in Support. of
Motion to Dismiss Appeal." The Respondent phrased. the question to the Court as follows:
"Whether the Due Process Clause of the U.S Const., amend. XIV,. § 1. requires that the Appellant's
failure to fund an escrow account that served as the fundamental consideration for the Appellees'
execution of an agreement containing waivers of their due process tights, demonstrated a lack of
eansensw ad item resulting in a failed agreement and void waivers, of due process rights!'
(emphasis in original). The Respondent cited to the and 14th Amendments of the United States
Constitution as well as 42 U.S.C. § 1983 and 42 US.C. § 1985. In addition to violating Maryland
Ride 8-503(d), the filing was frivolous. In support of his "Preliminary Brief' the Respondent filed
an extract containing numerous documents that were not part of the Circuit Court record in
violation of the: Maryland Rules. Also on May 17, 2012, the Respondent, filed "Supplementary
Exhibits to Petition for Writ of Certiorari" in the Court of Appeals. The filing was frivolous and
8

A-92

contrary to the Maryland Rules.
On May 21, 2012, the Court of Appeals denied the Petition for Writ of Certiorari. The
Respondent, on May 23, 2012, filed a frivolous "Motion to Resume Proceedings and Renewed
Motion to Dismiss Appeal" in the Court of Special Appeals.
On May 2S, 2012, the Respondent mailed Mr. Coe and stated, inter alia:
It is :my intention to sue Mr. Hjortsberg. personally for defamatory
statements he made against me: in a March 21, 2012 letter in which
he atteMpted to accuse me Of knowingly false ethical violations for
allegedly misrepresenting something about 'investigations' to a trial
Court dUring. a December 2011 Motion Hearing. . . Mr. lijortsberg,
anunethical and incompetent attorney, straining to fabricate an issue
for a meritless appeal to cover up tellent'S scam involving financial
institutions, unapologetically stated five times in his 11-page letter
that'! inisrepreSented sothething abOut `inveStigation(S)' during that
hearing. .. I seek redress in the form of reasonable compensation).
an apology letter, and an agreement that Mr. .Hjortsberg will not
intentionally defame me again... Please respond by COB on May
29, 2012 to advise 'Whether discussions* abOnt this Matter would be
productive. If not, ny suit mill be filed in the 'Cit Ct. far Bait. Co.
against Mr. IljortSbeig personally (all sic in original).
As of February 17, 2016, the date the Petition for Disciplinary or Remedial Action was
filed, the Resportdent had not filed suit against Mr. Blomberg. On May 29, 2012,. the Respondent
emailed a "settlement offer" to Mr. Iljortsberg purportedly on behalf of the Moores. In his offer,
he stated, inter alia:
best.way to be rid of this for all is not to sue anyone...the way I look.
at it, there are two potential law firm insurancepolicies: swanson's
and [BoWie &
if they are big enough. ..we can avoid
suit, but if not.. . we can't. .better off filing because we lose a lot if
we don't file...:then again,. my guy gets paid quicker and. that's a.
benefit.. .I'm not an expert, but I can think of 10 reasons far
malpractice claims, by these. guys against your firm and Swanson's
firm too-.. I always thought doing this quietly might be best way for
all I said something about law firm malpractice insurance for your
clients past lawyers because it might be enough to get there... That
9

A-93

was before you made the same mistakes as those guys...Although
everything we have: is also with feds,. I still think its better to settle
(especially for Roseman) and get my guy out now (all sic in
original).
The Respondent then relayed the demand from the Moores in the amount of $5 million.
On May 30, 2012, Mr. Coe wrote to the Respondent regarding his threat to sue Mr.
Hjortsberg for defamation. The Respondent, by email later the same day, forwarded a copy of a
complaint to be filed in the Circuit Court by close of business that same, day.
On May 30, 2012, the Respondent filed a frivolous complaint in the Circuit Court for
Baltimore: City on behalf of the Moores (Moore v. Svehlak et al. Case No. 24-C-12435)
(hereinafter "Moore v. Svehlak").• The complaint named twenty-eight (28) defendants and alleged
that Imagine, acting in concert with other defendants, engaged in an elaborate fraud scheme. The
30-count complaint sought millions a dollars in compensatory and punitive damages for various
causes of action including fraud, civil conspiracy, RICO "deprivation of civil rights", aiding and
abetting, intentional misrepresentation, negligent misrepresentation, breach of fiduciary duty,
breach of contract, professional negligence, declaratory judgment, quiet title, "violation of Md..
Comm. Law Code Ann. § 12-801 et seq.", constructive trust, unjust enrichtnent and abuse of
process. Service was effectuated in the months that followed.
The complaint requested $17,000,000 in damages.
On June 20,. 2012, the Respondent, on b.ehalf of Mr. Moore, filed, a Qui Tarn action in
the U.S. District Court for the District of Maryland (United States of America ex rel. Charles E.
Moore v. Cardinal .Pthancia( Cornpahy, L.P et al. Case No. 1:12-cv-01824) (hereinafter "Qui Tam
1"). The Respondent filed an amended complaint against all defendants on December 12, 2015.

1:0

A-94

27. The complaint, filed pursuant to the federal False Claims Act, 31 'USC. §§ 3729, et
.seq,,named

10 defendants, six of whom had been named defendants in./I/loomv. $0eigitk, including

Mr. .Sveltlak. The complaint alleged the defendantS, acting in caffeett, frauditlently procured
Mortgage insurance from The federal Housing Adniinistration in 27 separate Mortgage transactions
between July 2009 and November 2010 costing the goveriiiiient up to $2.6 Million.
28, On July 6, 2012, °the •CotutofSpecial Appeals erroneously vacated the appeal. Imagine
filed aMotion to Re.cOnSider.. On July 134 2012 at9:22-a.m..„ the RespOndent nailed Mr. Coe and
stated, inter alia:
Mr. Hjortsb-erg and Bowie 4 Jensen, LLC are now liable for the
following potential counts: (1) civil conspiracy (2) 42 USC.1983, 42
USC 1985, (3) Malicious prosecution, (4) abuse of process, (5)
RICO. . . Please advise if thereis any interest in settling this matter.
Also, please instruct your client to place a litigation hold on any and
an documents in his possession concerning the Imagine Capital
matter. . Please advise if Bowie & Jensen, LLC would have any
interest in, settlement negotiations pertaining to their role in this
matter.
On July 13, 2012 at 5:28 pan, the Respondent mailed Mr. •Coe and stated, inter alter
As a follow-up to my email this morning, please provide the
following as soon as possible: (I) An indication as to whether your
clients are interested in sitting down and discussing settlement
possibilities for any liability they may have arising out of the
Imagine Capital matter. Should you and your clients wish to sit
down and discuss, we can review with you some of the compelling
evidence with respect to Imagine Capital's Ponzi scheme and shell
property mortgage fraud scam, and the fact that we believe Mr..
Hjortsberg, Tina Gentile, and perhaps Lisa Sparks conspired with
Imagine Capital, Svehlak and Roseman to cover it up. . . (3) Also,
please state whether you can accept service of summonses and/or
subpoenas for Bowie & Jensen, LLC, Matthew Iljortsberg, Tina
Gentle, Lisa Sparks and any other parties associated with Bowie &
Jensen, LLC. As I have stated previously, I am not inclined to sue
Ms. Sparks or Airs. Gentle, but. I have questions for Ms. Gentle
specifically with regard to two specific matters that pertained to
II

A-95

things Bowie & Jensen did during the apipeal.
Also on July 13, 2012, the Respondent filed a second Qui Tam action in the U.S.
District Court naming 24 defendants including Mr. Svehlak, Mr. Roseman and Imagine Capital
(United States of America ex rel. Charles E. Moore v. Robert S. Svehlak, et al. Case No. 1:12-cv02093) (hereinafter "Qui Tam II").
On July 18, 2012 at 3:28' pm., the Respondent emailed Mr. Hjortsberg and stated, inter
alio:
I am also going to politely ask you and. Bowie & Jensen,. LW to
resign from representation of Imagine Capital,, Robert Svehlak and
Neil Roseman,. effective immediately, following the withdrawal of
your Motion and dismissal of Imagine Capital's appeal. I think you
will be conflicted from representing them in future matters
pertaining to my clients er the subject mortgages.

So, what's the problem? Its your intent and attempt to conceal your
clienVs criminal conduct in an extension of a wrongful civil
proceeding that was initiated, at least in Part, to obtain money to
service debt on fraudulent mortgages, and stave off potential
exposure of the mortgages themselves, Hence, your 'defense'
strategy wa,s effectively to keep up the 'charade,' or' 'stay the course'
knowing your client's conduct was both critninal and wrongful.. On
know
Jan 5,. you said yourself something to the effect of,
everything . . . far more than any other attorney who represented
them.' That is the part that, at leastin theory, turns defense attorney
to defendant ....As you consider the rhetorical and. perhaps debatable
question that follows, please remember the old adage — ethics is
doing the right thing when nobody is watching. Was your strategy
an unethical attempted cover up or just a lawyer trying to do his job?
On July 20, 2012 at 1113 am, the Respondent entailed Mi. Coe and stated, inter alia:
Please pardon my French, but I can't wait to see matt hjortsherg's
balls shoved down his fucking throat.. .pardon me again, we could
turn hjortSberg flicking upside down, chew him up and spit him out,
1:2

A-96

in so many pieces you Cannot imagine. —again excuse MyFrench, he
was 'sow smart, a real fuelcin genius...' Although I do not mean to
bedisrespeetful,, and.perhaps he's an excellent toristriktion attorney
— e;g, be definitely knows far more Eiboutprocedural rules that I do,
he Was herrible in this case. ...Does he like Tlian nit* that law fire
Hispartners are not going to be. happy, especially atter I sent several
messages to their founding member about the case Indeed Matt
Hjortsberg Should be disbarred, but I'm not the bar counsel and my
duty runs to se-mem* else — the Moores. Mr: Hjortsberg IthOwS he
is in trouble...hes known for awhile this was a mistake...I hope he's
lost sleep about it lie should haVe. There are many potential
causes of action..let's take rico for one...most civil rico cases are a
bunch of crap, this one isn't...a jury will hang Matt hjortsberg, no
less than they would his clients. The media, the public, and the bar
will crucify him think about the economy and type Of fraud he
atteinpted toconceal... the amount,. etc. People are hurting out there
and they would View hjortsberes 'defense' strategy cialte poorly,
There's an unkeryed lawsuit sitting in the cir et for bait. city. Its case
24C12003357. There are 28 defis. RICO 'count is SOU ($5M
trebled to $1 + $2M in punitive damages)... nothing about matt
Bjortsberg is yet in any lawsuit. Some defIS know about. the
Unspoken subject and its briefly referenced in the cOmPlaitit but its
not fleshed out because that complaint was written primarily in: dee
and jan. We've been waiting months to kick off our lawsuit, it was
delayed for this very conversation. Hjortsberg and his firm ,are far
easier clefts (except maybe for his clients) than anyone in that case
(many more culpable for my clients' injuries and some pretty
corrupt, but none neatly as a.s3i.),. The claims against Hjortsberg and
his firm are, like out of a textbook.justlike myprelim brief..
By COB today, I want a response to take to my client...I sin
authorized to offer $5M for a global settlement of this case. I will
take any 'reasonable offer to my clients. We haven't discussed a
number for a partial settlement, but my clients are open to one if
it is within hjortsbergs policy limits, hed be damn. Mart to go for a
global... With my proposal, Mr. Hjortsberg and his firm. need admit
no wrong or no liability. We can, have complete confidentiality (we
would still have to deal with his disingenuous bar complaint which
I think may still be under review, but we can do it later). :got a cent
of proposed settlement money may come from Mr. Hjortsberg's
clients.
(all sic in original).
13

A-97

On July 24, 2012, Mr. Coe wrote to the Respondent and stated:
Your email was laced with invective and profanity, and included
expressions which could be interpreted as dreatening physical
violence. I am certain that you did not intend. those expressions to
be interpreted that way. Regardless of your intent, however, your
conduct comprises misconduct. 'that is prejudicial to the
administration ofjUStice underRule 8.4 of the Rules of Professional
Conduct, and must cease immediately. It also violates about half the
rules of the MSBA Code of Civility, a copy of which I have
enclosed.
The Respondent replied, (all sic in original):
'I think you know that the profanity, while regrettable, was a figure
of speech, and obviously not .11.. threat of physical violence. Its a not
threat at all, other than it is our position he will lose badly in :a court
of law. Once again, I apologize for the unprofessional tone. What
this guy did was' a violation of MRPC 8.4, among several others. It
is very angering. Simple emai.ls, although unprofessional in tone,
are not prejudicial, to the administration of justice. . I promise to
keep the tone Civil from this point forward, and assure you that there
were no threats of anything other than a possible lawsuit.
On July 26, 2012 at1:43 p.m., the Respondent emailed Mr. Coe and stated, inter alien
I still have not heard from you' about Mr. Hjortsberg conspiring with
his clients to continue knowingly false civil proceedings against the
Moores with the intent to conceal -mortgage 'fraud, bank fraud and
money
Hjortsberg has been target [defendant] #1'for this case since
January...We donot want to sue Bowie & Jensen, LLC and put Mr.
Hjortsberg through all that misery I know his wife has been sick I
know he just got promoted last year. He's well-respected.. He
doesn't need to be tied to a big mortgage fraud scam. His reputation
will never recover. I feel bad that Hjortsberg is liable in this case..
There are many other causes of action to hang this guy on too:
1983, civil con spiracyi abuse of process, and of course all& he
ultimately loses, malicious prosecution. I am sure there: are others
we can come up with. As I told him in January, his representation
and intent was the equivalent of helping a client bury a murder
weapon. In this case there is another word for it, racketeering.
14

A-98

Hopefully, this metaphor is [a] bit easier for you to understand.
On July 31, 2012, Bar Counsel wrote to the Respondent and asked him to explain his
July 20, 2012 email to Mr oe On August 1, 2012, the Respondent sent a series of emails to Bar
Counsel in, which he stated, inter alter
Things are not always what they appear. Although my emails have
not always sounded professional, the message has always been the.
same. . My emails simply asked if his fiun wanted to settle his
potential liability arising out of his intent to conceal this mortgage
fraud scam. It's a reasonable question because he has liability for
attempting to violate my clients' due process rights in a false civil
proceeding to cover up a major mortgage fraud scheme. We would
accept a nickel from his clients (it's all stolen money), we would
from Mr. Hjortsberg.
On July 27, 2012, the Court of Special Appeals granted Imagine's Motion for
Reconsideration and entered an order vacating the July 6, 2012 order dismissing the appeal.
On August 8,. 2012, the Respondent filed a frivolous Motion to Reconsider the Order
granting Imagine's Motion to Reconsider and reinstating the appeal in. the Court of Special
Appeals.
On August 10, 2012, M. Coe wrote to the Respondent and catalogued his numerous
threats and inappropriate conduct and demanded he cease threatening Bowie & Jensen, its
attorneys and employees. On August 20, 2012, the Respondent wrote to Mr. Coe and stated, inter
alia:
As someone licensed to practice law in seven states and the District
of Columbia, I would never accuse an attorney (especially one I
have never met) of the type of wrongdoing that I believe to be
implicated in this case, unless I fimily believed there was substantial
basis to do so. Even if it turns out my beliefs are erroneous (which
is highly unlikely), no ethical violations were presented by my
mails because there is .a good faith basis for the belief My one
15

A-99

regrettable email, Which used figure of speech that Were less than
prudent, were expressions of MY opinion about the strength of the
evidence in this case.
35... On August 22, 2012, the Respondent sent a 16-page letter to the Honorable Peter B.
Krauser, then-Chief Judge'. of the Court of Special Appeals, in which he accused Mr. Hjortsberg,
his associate and non-attorney members of his staff of Misconduct including having "ex: parte"
communications with the clerk's office hi an -440,1140 "Manipulate the trial court record" and
"Manufacture argUnietits for appellate review .surrounding. the void,. ertoneously-iSsued and
unrecorded. May 20,.-2011 Order.'"
36. On. September 14,, 2012, the: Cott of Special. Appeals

the Respondent's Motion

to Reconsider and the Respondent filed It second frivolous Petition for Writ, of certiorari in the
Court of Appeals.
37 OnOctober 2, 2012, Mr. Hjortslierg filed Appellants' brief askingthe court to consider
the following: "Did the Circuit Court err in finding Clear and convincing evidence Of extrinsic.
fraud. sufficient to vacate the judgment undetMaryland Rule .2435(b)?"
On OctOber 1.i 2012, the Respondent filed a "Siippleme.ntal Petition. for Writ of
Certiorari". in the Coiirt of Appeals and attached, in support, a copy of the record extract filed*
the Court of Special ApPealS, that was the subject Of hiS "Motion to Replace Defective and NonCompliant Record Extract" filed in. the Court of Special Appeals, just. the day before.. The filing
was frivolous and not in compliance with, the Maryland. Rules, and was denied on November 1.,
2012,
On November 19, 2012, the Court of Appeals denied the Second Petition for Certiorari.
On. December 12, 2012, oral argument was heard in the Court of Special Appeals..
16

41. On September 12, 2012, a number of the Defendants in the Moore v. Svehlak matter
filed a Notice of Removal and the case was removed to the U.S. District Court. Subsequently, the
Respondent filed a motion to remand,. and the defendants filed a series of motions to dismiss and/or
motions for summary judgment
42. On December 12,2012, while the Respondent and's/fr. Hjortsberg were in the Court of
Special Appeals waiting for the case to be called for argument) the Respondent sent Mr. Hjortsberg
an email of his 68-page "Memorandum in Support of Plaintiffs' Emergency Motion to Disqualify
the Imagine Defendants' Counsel, et a1." to be filed in Moore v. Svehlak. The 'Respondent also
sent a copy of the motion to Mr. Coe and asked whether Mr. Hjortsberg. "is leaving the federal
case voluntarily." The Respondent filed the frivolous Motion and Memorandum on December 14,
2012. He argued that Mr. Hjortsberg and Bowie & Jensen are potential co-conspirators and are,
therefore, disqualified.
43. On December 17, 2012, the U.S. District Court, sua sponte, struck the Respondent's
Motion and Memorandum as they were in violation of Local Rule 105.3 prohibiting the filing of
a Memorandum longer than, 50-pages without leave of court.
44, On December 2:8,2012, the Respondent sent Mr. Coe a 13-page letter outlining the
"fallacies" of Mr. Hjortsberg's legal strategy. He also reiterated that Mr. Hjortsberg was
"complicit in the very same fraud as [hisi clients", threatened to re-file the Motion to Disqualify
and then asked if Mr. Hjortsberg would be interested in discussing settlement.
45. On February 20, 2013, before the Court of Special Appeals issued its ruling, the Moores
filed a voluntary Chapter 7 bankruptcy petition in the U.S. Bankruptcy Court and the Court. of
Special Appeals matter was stayed. Craig L. Holcomb, Esquire, represented the Moores in the
17

A-101

Bankruptcy Court. Marc H. Baer,. Esq. was: appointed Trustee of the banlauptcy estate. On
February 25, 2013, the Respondent emailed Mr. lijortsberg and stated that he was "prepared to
take the depositions of Robert S. Svehlak and Neil D. Rose an as soon as. possible," With. the
February 20, 2013 bankruptcy filing, all Moore litigation was automatically stayed and became
the property of the bankruptcy estate. The Respondent did not advise Mr. Hjortsberg that his
clients had filed for bankruptcy protection and he had. no legal authority to take any action in any
pending litigation after February 20,2013.
On April 3., 2013,, Mr. Baer filed an Application to Employ Whiteford, Taylor &
Preston, LLP as Special Counsel to Trustee. The Application was granted and David Daneman,
Esquire, entered his appearance in the Imagine Capital 1). Moore and Moore v. Svehlak matters.
By lvlemorandurn Opinion filed JuLy 11, 2013, theU.S. District Court remanded/Wore
Svehlak to the Circuit Court for Baltimore City.
On December 11, 2013, the Trustee filed a motion for approval of the Settlement and
Compromise that.M. Daneman had reached with the defendants in. the Moore v. Svehlok matter
as well as the appellants in Imagine v. Moore. The settlement provided, inter alia, that hi exehtmge
for the Defendants' payments in the aggregate amount of $137,500 and release of all claims against
the Moores' bankruptcy estate, the Trustee would dismiss Moore v. S'vehlak with prejndice. As of
December 2013, several of the defendants in Moore v. Svehlak had filed claims against the
bankruptcy estate. The settlement agreement further provided that the stay would be lifted in the
Court of Special Appeals to allow an opinion, and mandate to be issued in. Imagine v. Moore
deciding the issue of whether Imagine committed extrinsic fraud.

18

A-102

While neither Bowie .& Jensen nor Mr. Hjortsberg had been added to theMoOre v. Svehlak
Matter, they joined in the settlement agreement because they had been identified as possible
additional defendants. The Settling parties denied liabilitr and stated that. they entered into the
settlement agreement "as a compromise in order to avoid expense and to tenninateall controversies
and/or claim's for injuries or damages of whatsoever hatiiretr Neither

& Jensen nor Mi.

.11jortsberg .c.ontributed any funds towards the settlement,
On March 17, .2014, the Bankruptcy Court granted the Trustee's Motion for Approval
of Settlement and Compromise.
In November. 2014, the Government filed Notices of Election to Decline. Intervention
in both Qui Tam actions.
5L On November 17, 2014, the Court of Special Appeals filed. an. unreperted opinion in..
Imagine v. Moore, No 2445„ September Term,, 2011, The. Court rejected the Respondent's
arguments in support of the Motions to Dismiss, finding his legal theory to be "mistaken." The
Court found that the Moores had "adduced no evidence" to. support their theory:on the merits: of
'the case and concluded the Respondent's arguments to have "no merit." hi a footnote,. the Court
Captioned the Respondent for. :filing a brief in violation of Maryland Rule 8-593(d). The Court
reversed the Circuit Court finding:and remanded the case for further proceedings.
Based upon the settlement agreement reached in the bankruptcy proceedings, the
Circuit Court confessed judgment actien was dismissed on December 19, 2014.
On December IS, 2014, the Respondent filed 4 frivolous Motion. for Rehearing and
Reconsideration; and Motion Requesting Reported Opinion Pursuant to Md. Rule 8-605.1 and a
Motion for Leave to File Amiens Paper in the Court of Special. Appeals. TheMotions were denied
19

A-103

by order dated January 14, 2015.
Daring the pendency of the bankruptcy proceeding, theRespondent filed five proofs of
claim against the.-Debtors' estate associated with his representation of the Moores. The claims,
including amendments, totaled $85,604.61. Both the Tiustee and the Moores filed objections to:
the claiMS. On May 2 t, 2015, the. Trustee filed Notice of ASsignirient Of Bankruptcy Estate's Qui
Tam Claims assigning the claims to the Respondent in exchange for withdrawal of his claims
:against the Estate.
As. Of February 23, 2016, the date the Petition for Disciplinary or Remedial Action was
filed, the Respondent had, failed to: serve any of the Qui Tarn defendants. By Memoranduin. Pled.
March 28., 20.17, the Honorable.. Catherine C. Blake, on defendants" motion% dismissed' the first
Qui Tam complaint (filed. June 20, .2012) with prejudices Judge Blake .foun4 that the Respondent
failed to timely serve the defendants. and "offerfedi- no explanation for his failure" and found.semi
Obis defenses to the defendants' motions to dismiss to be "tneritlesS." Judge Blake found further.
that coMplaint Pled by the Respondent was. "a. paradigmatic example ofa 'parasitic' snit!' filed
in violatiOn of the FCA public disclosure bar, a bar""to prevent 'parasitic' 4ui tam actions in. which
relators„ rather than bringing to light incippOdent,ly,discoveod infermation of fraud, simply feed.
Off of previous diselostres of governinent fraud.'" .judge. Blake. Concluded.' that neither the
Respondent. nor Mr. Moore were "original sources" and that they have proffered: no- knowledge
that is "independent of and. materially adds-to"- the information contained in. three plea agreements
(Memorandum at 24). Judge Blake noted, in footnote 16, that the Respondent had "displayed, a
pattern of not: meeting deadlines throughout th[e] litigation" (Memo at. 20).. Judge Blake also
granted the Respondent's motion for leave -to file -excess. pages, notwitbstanding a . finding that
20

A-104

there is no good cause to "permit the continued excessively lengthy filings" made by the
Respondent.
Additionally, Judge Blake found that the complaint failed to particularly allege the relevant
fraud and simply "made vague allegations upon 'information and belief" and that the complaint
(and amended complaint) were barred by applicable law. Finally, Judge Blake found that two of
the defendants named in the complaint were, in fact, victims of the fraud scheme.
Undeterred, the Respondent, in a continued effort to promote his conspiracy theory
and further his financial interest, persisted with filing a Motion to AlterfAmend Judgment on April
25, 2017 and Amended Motion to Alter/Amend Judgement on May 9, 2017, On May 9, 2017, in
exchange for the Respondent's withdrawal of the Motion to Alter/Amend,, as to Cardinal Financial
and Wells Fargo Bank, those two defendants withdrew their pending Motions of Attorneys' Fees.
The remaining defendants filed responses and, by Order entered December 5., 2017, Judge Blake
denied the Respondent's Motion.
On April 3,2017, the Respondent filed.a Motion to Voluntarily Dismiss the second Qui
Tam case (filed July 13, 2012). As of the date of dismissal, the Respondent had failed to serve
any of the defendants.

.21

A-105

CONCLUSIONS. OF LAW
This Court finds, by clear and convincing evidenco, that the Respondent violated the
following Rules of the Maryland Lawyers' Rules of Professional Conduct, as enumerated at the
time of the misconduct:
Rule 1.1. Competence.
Rule 1.1 provides:
A lawyer shall provide competent representation to a. client.
Competent representation requires the legal knowledge, skill,
thoroughness and preparation reasonably necessary for the
representation.
Comment [5] to the Rule states, in part; "Competent handling., of a particular matter
includes inquiry into the analysis a the factual and legal elements of the problem and use of
methods and procedures meeting the standards of competent practitioners." The Court of Appeals
has stated that while a single mistake or error does notnecessarily demonstrate that an attorney is
incompetent, multiple errors or omissions, considered together, may rise to the level of a violation
of Rule 1.1. Aley Griev. Conn'n v. Brown, 308 Md. 219, 517 A.2d 1111 (1986).
The Respondent violated Rule 1.1 during his representation of the Moores. He failed
repeatedly to analyze the relevant factual, and legal elements and demonstrated a disregard for the
rules of procedure. Specifically, the Respondent developed an elaborate conspiracy theory
involving Imagine, its principals, attorneys, lenders and other associates, and embarked on a course
of conduct, disconnected from the facts and applicable, law — both substantive and procedural — to
prove his theory.
The Respondent's failure to analyze the relevant facts is perhaps best demonstrated by the
argument presented in his. April 16, 2012. Petition for Writ of Certiorari filed in the Court of

Appeals. In support of his Petition, he argued that the case was an "extraordinary case of public
policy" with an "almost unbelievable record . . arguably the most shocking confessed judgment
action to ever appear in Maryland's appellate courts." A review of the Court of Special Appeals'
November 17, 2014 Opinion demonstrates that the case, contrary to the Respondent's assertion,
was nothing more than an ordinary confessed judgment action.
In his "Preliminary Brief' filed in the Court of Special Appeals on May 17, 2012, the
Respondent further demonstrated his inability or unwillingness to analyze the relevant facts and
law when he phrased the question to the Court as, follows: "Whether the Due Process Clause of
the U.S Const, amend. XTV, § .1 requires that. [Imaginers failure to fund an escrow account that
served as the fundamental Consideration for the Appellees' execution of an agreement containing
waivers of their due process rights, demonstrated a lack of consensus ad item resulting in a failed
agreement and void waivers of due process lights." As, found by the Court of Special Appeals,
the Respondent's argument were "mistaken' contrary to "clear" precedent established by the
Court of Appeals, and "without merit." See "Rey Griev. Comm 'n v. McClain, 406 Ivid, 1,956 A.2d
135 (2008) (concluding attorney violated Rule 1.1. where his arguments were not presented in the
context of the facts of the case and where he failed to present lucid and substantial arguments in
support of his contentions).
The Respondent's representation of the Moores included repeated disregard for the rules
of procedure; whether characterized, as =ors, inadvertent omissions, or knowing violations of the
procedural rules, combined, they amount to a violation of Rule 1.1. The deficiencies include the
following: (1) on April 16, 2012, he filed a Petition for Writ of Certiorari in violation of Rules 8112(c) and 8-303(h); (2) on April

2012, the Respondent filed a frivolous motion to dismiss the
23

A-107

appeal in the Coat of Special Appeals while, at the same time, arguing to the Court of Appeals
that certiorari was warranted; (3) on. May 4, 2012, despite the stay, entered: at his request, and his
pending Petition for Writ of Certiorari, the Respondent filed a second fiiVolous Motion to Dismiss
Appeal in the Court of Special Appeals; (4) on May 17, 2012, despite the stay and no briefing
schedule having been issued, the Respondent filed a 49-page 'Preliminary Brief of the Appellees
and Memorandum in Support of Motion to Dismiss Appeal" in violation of Maryland Rule 8503(d); (5) in support of his "Preliminary Brief' the Respondent filed an extract containing
numerous documents that were not part of the Circuit. Court record in violation of the Maryland
Rules and simultaneous filed "Supplementary Exhibits to. Petition for Writ of Certiorari" in. the
Court ofAppeals; (6) on October 11,, 2012, the Respondent filed a "Supplemental Petition for Writ
of Certiorari" in the. Court ofAppeals< and attached, in support, .a copy of the record extract filed
in the' Court of Special Appeals that was the subject of his pending motion to strike; (7) on February
25, 2013, after the Moores petitioned for bankruptcy protection, the Respondent emailed Mr.
Hjortsberg and, contrary to, the law, purported to continue to represent the Moores in the pending
litigation.
Rule 3.1. Meritorious Claims and Contentions.
Rule 11 provides:
A lawyer shall not bring or defend a proceeding, or assert or
controvert an issue therein, unless there is a basis for doing: so that
is not frivolous, which includes, for example, a good faith argument
for an extension, modification or reversal of existing,law. A lawyer
may nevertheless so defend the proceeding as to require that every
element of the moving party's case be established.
comment [1] to Rule 3.1 states, in. part:. "The advocate has a duty to use legal procedure
for the fullest benefit of the client's cause, but also a duty not to abuse legal procedure. The law,
24

A-108

both. procedural and substantive, establishes the limits within Which an -advocate may proceed?'
'Comment [2) provides that "What is required of attorneys . . is that theyinform themselvesabout
the fad& oftheir clients' cases and the applicable law "and detertnitie that they can Make good faith
arguments in support of the client's positions?' The comment states further that an action is
frivolous "if theittorney is unable either to Make a good faith argument on the merits of the action
taken or to support the action taken by a good faith argument for an extension, Modification or
reversal of existinglaw."
The Court finds the Respondent filed numerous frivolous papers and pleadings and took
positions unsupported by fact or law in violation ofRule3.L The violations are discussed in turn:
The OetObet IS„ 2011 MotiOn to Revise and Vacate the judgments and memorandum
in support flied ittfingging. V. Moore was unsupportedby the facts. and law:ps outlined by the Court
of Special Appeals' opinion. Specifically, the Respondent failed to apply the applicable law
regarding void vs. voidable contracts; advanced a meritless claim that intrinsic fraud is sufficient
to vacate a confessed judgment; and failed to evaluate the facts or produce any evidence of
extrinsic fraud as required by Maryland Rule 2-535(b). Instead of eValuatirigthe facts and applying
the appropriate law,: the Respondent, to bolster his conspiracy theories, interjected irrelevant and
unsubstantiated accusations against Imagine and its members regarding arielaboratefraudseheine.
The April 16, 2012. Petition for Writ of Certiorari filed in the Court of Appeals (and
reply to the Opposition filed on May 9, 2012, as well as the Supplementary Exhibits. filed on May
17,20,12) were unsupported by the facts of the case. The Petition was based not on the record, but
rather on the Respondent's unsubstantiated conspiracy theories. The Petition was denied and, as
evidenced by the Court ofSpecial Appeals' opinion, the, record failed to establish any basis for the
25

A-109

Respondents dontentiona.. Specifically,. there was no jurisdictional defectand no evidence existed
in the record 'to support a finding: Of extrinsic fraud sufficient to warrant revision of the confessed
judgment" The Respendent'S Petition, based: on the preposition that the record Was "almost
unbelievable". and that the case was "arguably the most shocking confessed judgment action to
ever appear in Maryland appellate. courts" clearly demonstratea. his failure-to itifOrift himself about
the facts of his clients' case and. .the applicable law. Additionally,, the Respondent's Petition failed
to comply with the requirements of Maryland. Rule 8-112(c);
On. April .20, 2012-and May 4,. 2012, the Respondent flied Matimis to Dismiss in the
Court of Special Appeals While. his Petition for Writ of :Certiorari was pending. in. the -.Court of
Appeals. It is inconceiVabie how. the Respondent c uld. present a meritorious: argument that, on
the One hand, certiorari was appropriate, whilearguing on the other hand that.the appeal, should. be
dismissed for tnootnesa: or .as. premature. The merits of the Respondent% Motions. vvere summarily
rejected by the Court of Spe.cial Appeals,
On. May. 1.7,. 2012, While his: Petition for Writ: of Certiorari was pending and the Court
of Special Appeals matter was stayed, the Respondent filed a Preliminary Brief Of the Appellees
and Memorandum. in Support of MOion Dismiss Appeal and associated extract in the. Court of •
Special Appeals. Iii supPOrt of his Preliminary Brief, the Respondent Medan extract containing
ntunerons documents that. were not part of The Circuit Court record in violation of Rule 8-501 and
exceeded, the. page tetigth permitted by Rule ,8-503(d).. As discussed above, the Respondents
question presented in his preliminary brief demonstrated his failure to inform: himself about the
facts of his clients' case and the applicable law.

26

A-110

(5) On May 30, 2012, the Respondent filed suit against 28 defendants in the Circuit Court
for Baltimore City requesting S17,000,000 in damages. The lawsuit was clearly nothing more than
a further attempt to compel a settlement from Mf. Hjortsberg and BoWie & Jensen (as well as a
second law firm). It is noteworthy that the complaint was filed within days of the. Respondent's
threats to sue M. Hjortsberg personally and was filed only after Mr. Hjortsberg failed to respond
to the Respondent's extortionist $5,000,000 settlement demand.
The Court finds that the Respondent filed the lawsuit as part of his continued, escalating
threats made in bad faith in an attempt to obtain a settlement from those he perceived to have deep
pockets. In a January 2012 email to Mr. Hjortsberg, he stated:
Your actions as a law finn are unethical and constitute facilitation
of fraud. . I will remind you that our suit is alreadyat 28 Defendants
(including several attorneys) and that there still may not be enough
to pay a likely award by a Baltimore City jury in this case.
Therefore, my client has a strong incentive to add any additional
defendants against whom he has a good faith. claim. Should you
choose to proceed with this illicit strategy, please advise if you have
counsel and whether they can accept service on your behalf.
In his email of May 29, 2012 to Mr. Hjortsberg, the Respondent stated:
best.way to be rid of this for all is not to sue anyone...the way I look
at it, there are two potential law firm insurance policies... swanson's
and P3owie & Jensen's]... if they are big enough. .we can, avoid a
suit, but if not. . we can't ..better off filing because we lose a lot if
we don't file...then again, my guy gets paid quicker and 'that's a
benefit.. .I'm not an expert, but I can think of 10 reasons for
malpractice claims by these guys against your firm and Swanson's
firm too... I always thought doing this quietly might be best way for
all,. .1 said something about law firm malpractice insurance for your
clients' past lawyers because it might be enough_ to get there.. That
was before you made the same mistakes as those' guys...Although
everything, we have is also with feds, I still thnk its better to settle
(especially for Roseman) and get my guy out now.

27

A-111

(5) On May 30, 2012, the Respondent filed suit against 28" defendants in the Circuit Court
for Baltimore City requesting$17,000,000 in damages... 'The lawsuit was-clearly nothing more than
a further attempt to compel a settlement froth Mt. lijortSberg and BOWle & :Jensen .(tts. well 'as a
second law firm). It is noteworthy that the complaint was filed within days 'of the. Respondent's
threats to sue Mi. FIjortsberg.perionally and Was filed Onlyafter-Mi. Iljortsberg failed to _respond
to the Respondent's extortionist $5,000,000 settleinent demand.
The Court finds that 'the Respondent filed the lawsuit as part of his 'continued, escalating
threats made in bad faith in an attempt to obtain a settlement from those heperteived to have deep
pockets. In a January 2912:email to Mr. fijortsberg„ he stated:
Your actions as a law firm are unethical and constitute facilitation
of fraud. . i will remind you that our suit is alreadyat28 Defendants'
(including several attorneys) and that there still may not be enough
to pay a likely award by a Baltimore City jury in this case.
Therefore, my client has a strong incentive to add any additional
defendants against whom. he has a good faith claim. Should you
choose to proceed with this illicit strategy, please advise if you have
counsel and whether they can accept service on your behalf.
In his email of May 29, 2012 to Mr. Hjortsbergi the Respondent stated:
best way-to be rid of this far all is n.ot to sue anyone...the way nook
at it, there are two potential law firm insurance policies... swanson's
and [Bowie 8c Jensen's].,. if they are big enough...we can avoid a
suit, but if not.. . we can't better off filing because we lose a lot if
we don't file—then again, my guy gets paid quicker and that's a
benefit.. .I'm. not an expert, but I can think of 10 reasons for
malpractice claims by these guys against your 'firm and Swanson's
firm too... I always thought doing this quietly niight be best way for
all.. .1 said something about law finn malpractice insurance for your
clients' past lawyers because it might be enough to get there.. That
was before you made the same mistakes as those guys.. .Although
everything we have is also with feds, I still thnk its better to settle
(especially for Roseman) and get my guy out now.

27

A-111

On July 30, 2012, the Respondent wrote to Mr. Coe and quite clearly identified his
improper motive. in filing the lawsuit.. He stated:.
Please pardon my Frenth blit I can't wait to see matt hjortsberg's
balls shoved down his fuekingtbreat....pardon me..again, we could
turn hjortsberg fucking upside. down, chew him up and spit him out
in so many pieces you cannot imagine-. again excuse my French, he
Althongh I do not &lean to
was `sboo smart, a real fuckin
be. disrespectful, and perhaps he's an:excellent. construction attorney
e..g. he definitely knows far more aboutprocedural rules that I do,.
'he: was horrible in this ease.. ..Does he like managing that law lirm7
His partners are not goingtobeh41)135ri especially after! sent Several:
messages to their founding. member about the case...Indecd Matt.
Hjortsberg should be disbarred, but I'm not the- bar counsel and my
the Moores. Mr. lijortsberg knows he
.duty 'runs to someone
is in trouble he's known . for awhile this was.
hope he's
lost sleep. about it...he should have. ... There. are many potential
causes of action, let's take rite, for one most civil rico cases are a
bunch of crap,.-this one isret....'a jury' will hang matt hjortsberg, no
less than they would.his etitnts.. The media, tivpUblie,sand.the bar
will crucify him..think about the economy and type of fraucrhe
attempted to conceal the amount, etc People are hurting mit there
and they would view hjortaberg's.'defe.nso' strategy quitepoorly.
Therd's an unservedlawsuitaitting.in the eir et for balt. 'city. Its oast.
.24Q1:2903357. There . are 28 defts. RICO count is $17M ($5M
trebled to. $15.. + $2.M in punitive damages)... nothing. about :matt
Hjortsberg is yet iri any laWinit. Some defts know about- the.
unspoken subject and its briefly referenced in, the COMplaint but its
not fleshed out because that complaint was written primarily in dec
and jail. We've been waiting. months. to. kick off our lawsuit, it was.
delayed for this very conVersation. Hjortsberg and his firth are far
easier clefts (except maybe..:for his clients) than anyone in that cast:
(many more culpable for my clients' injuries and some pretty
corrupt, but:none nearly as eaSy). The claims: against Hjortsberg and
his firm are :like out of a textbook just like nty:prelini brief..
By COB today,, I want a response to take to my client....!, am,
authorized to. offer S5M for a global settlement of this case. I will
take any reasonable offer to my clients. We haven't discussed, a
number for a partial' settlement, but my clients are open to one ... if
it is within hjortsbergs policy limits, lied be damn smart to go for a
global.. .With my proposal, Mr. Hjortsberg and his firm need admit
28

A-112

no wrong or no liability. We can have complet6 coedentiality (we
would still have to deal with his disingenuous bar complaint, which
I think may still be under review, but' we can do it later). Not a cent
of proposed settlement money may come from Mr. Hjortsberg's
clients.
(all sic in original).
In Attorney Grievance Commission v. Alison, 349 Md. 623, 709 k2d 1212 (1998) (Alison
fl), the Court of Appeals found an attorney violated Rule 3.1 in two separate matters. In the first
matter, the attorney "brought RICO and fraud counts vexatiously for the purpose of harassing the
defendants" and to "take advantage of the treble damages provisions of the RICO statute in order
to obtain an exorbitant settlement from the defendants." 349 Md. at 632, 709 A.2d at 1216. In the
second matter, the attorney brought and maintained a lawsuit where the claim against a law fmn
was "without foundation" and the remaining claims were found to be "meritless." Id. at 640, 1220.
In concluding the attorney violated Rule 3.1, the hearing judge correctly found that the "entire case
generated a lot of court time, unnecessary pleadings and involvement ofparties for the sole purpose
of harassing [one defendant]." Id. ivittch like the attorney in Alison, the Respondent filed the
lawsuit with vexatious RICO and fraud counts in an effort to obtain an "exorbitant settlement" and
asserted (though did not file) claims against Mr. Hjortsberg and Bowie & Jensen that were
maiden, without foundation, and made in an attempt to threaten, harass and burden Mr.
Hjortsberg.
The Court of Appeals in Attorney Grievance Commission v. Gisriel, 409 Md. 331, 356-57,
974 A.2d 331, 346 (2009), stated: "The legal process should never be used as the Respondent did
here,

merely [as) a device, to apply pressure to the other parties...." This Court finds the

Respondent filed the lawsuit in the Circuit Court as a device, to apply pressure. to Mr. Hjortsberg
29

A-113

and his clients' as well as Bowie 44 Jensen for the able piutrose of extratting a large financial
Settlement. Any argument that the complaint as a whole was meritorious based on the settlement
reached by the: defendants and the bankruptey-Trusted is unpersuasive. This Court finds that the
Settlement was a business decision, settling claims against the defendants as. well as claims the
defendants'. had filed against the bankruptcy estate. The imieunta paid by most of . the defendants
were nominal, ranging frOm $1-,000 to $$,000.. The. hnagine. defendants, including Mr. and Ms.
SVehlak„ Mr. Roseman, IMagine„. Leadprobe, The., and Boomerang Properties, LLC„ paid a
cOmbined total. of $60,090. The amounts paid by the defendants may well have been nothing ntore
than the fees ,ancl- costs they would incur in pursuing their claims against the estate or filing a
prelinainary motion in the Circuit COurt. As 'noted iii the settlement agreeinent, the bankruptcy
estate had "very little by way of assets" other than* Circuit Conrt litigation: There is no evidence
that:Mt Daneman or Mr.. Baor, in.settling all Claims with. all parties, found the lawsuit to have any
merit. What the record suggests, is. that the estate did not have the. resources for litigation counsel
to pursue the claims given the "exorbitant, cost". associated With discovery. This Court finds that
the amount Of the settlement With' the bankruptcy estate supports the finding of the frivolousness

of the'Responderit'S demand of $17,000,000 and "settlement" demands of $5,000,000..
(6) Oi December 14,20:12, the. Respondent filed a. frivolous Motion to' 1)1s-qualify- Mt
Itortsberg and. Bowie & Jensen in the U.S.. District Court for the sole purpose of harassing and
burdening Mr. 'Hjortsberg and his clients. Additionally, the' Metion, violated Local Rule- 105.3
prohibiting filing. of memoranda longer than 50.pages without leave of court. On December 17,
2012, .the U.S. District Court„ suo. spank, struck the Respondent's frivolous filing. Notably, .the
Respondent never refiled the Motion,, despite threats to do same, thus conceding that the Motion
30

A-114

was without basis in fact or law.
On February 25, 2013, the Respondent entailed Ivlr. Hjortsberg purporting to continue
to represent the Moores in Moore v. Svehlak. The Respondent did not advise Mr. Hjortsberg that
his clients had filed for bankruptcy and stated that he was "prepared to take the depositions of
Robert S. Svehlak and Neil D. Roseman as soon as possible." With the February 20, 2013
bankruptcy filing, Moore v. Svehlak was automatically stayed and became the property of the
bankruptcy estate. The Respondent had no legal authority to take any action in any pending
litigation. after February 20,20.13, and his attempt to schedule depositions was frivolous.
On November 17, 2014, the Court of Special Appeals issued its unreported opinion.
On December 18, 2014, the Respondent fled a Motion for Rehearing and Reconsideration; Motion
Requesting Reported Opinion; and Motion for Leave to File Amiens Paper in the Court of Special
Appeals, As of December 18, 2014, the Moores had filed for bankruptcy and the bankruptcy
Trustee stood in their place. The Respondent was no longer representing the. Moores and was not
retained to represent the Trustee. The Respondent had no standing to file any papers in the Court
of Special Appeals and his December 18 filings violated Rule 3.1. See Att'y Griev. Comnen v.
Woolery, 462 Md. 209, 198 Aid 83.5 (2018) (finding attorney violated Rule 3.1 when his nonmeritorious filings continued even after his clients' interests in the matter were non-viable). The
Court finds the Respondent's motive, in filing the December 18 motions, was purely selfish in an
effort to advance his own financial gain.
The Court finds that the Respondent's course of conduct, including multiple frivolous
filings listed herein, combined with his improper threats and harassment, violates Rule 3.1. The
Respondent, like the attorney in4lison 17, attempted "to distort the unremarkable with allegations
3:1

A-115

which are both incredible and outrageous in light of what' actually occurred." 349 Md. at 631, 709
Ald at 1216. A review of the record demonstrates that the Respondent, based on his distorted
version of events, abused legal procedure, filed papers and took positions outside the bounds of
procedural and substantive law, for the sole purpose of harassing Mr. Hjortsberg and his clients in
an effort to extract an exorbitant Settlement for the Respondent's own financial gain. In Woolery,
the Court of Appeals found the attorney violated Rule 3.1 "through his persistent course of filing
motions . all with the purpose of delaying the distribution of the 0 Estate because the Respondent
felt his claim of attorney's fees and expenses U had not been properly considered in negotiating a
resolution." 462 Md. at 244-45, 198 A.3d at 856. See also Atey Griev. Conn'n v. Sacks, 458
Md. 461, 183 A.3d 86 (2018) (concluding the attorney violated Rule 3.1 where the court in the
underlying litigation expressly found he had "assert[ed] claims that ha[d] no merit" and made
"filings that lack[ed] a substantial, good-faith basis"); Atey Griev. Comm's v. Gisriel, 409 Md.
331, 974 A.2d 331 (2009) (concluding attorney violated Rule 3.1 when he "formed an
unreasonable belief that the contract was a nullity" and that the attorney "initiated suit to, misuse
the judicial process.")
Rule 3.2 Expediting Litigation
The Petitioner withdrew the Rule 3.2 allegation.

Rule 3.4. Fairness to Opposing Party and Counsel.
Rule 3,4 provides, in part:
A lawyer shall not:
(c) knowingly disobey an obligation under the rules of a tribunal except for an
open refusal based on an assertion that no valid obligation exists;
32

A-116

*
*
(e) in trial, allude to any matter that the lawyer does not reasonably believe is
relevant or that will not be supported by admissible evidence, assert personal
knowledge of facts in issue except when testifying as a witness, or state a personal
opinion as to the justness of a cause, the credibility of a witness, the culpability of
a civil litigant or the guilt or innocence of an accused;
The Respondent violated Rule 3.4(e) in his attempt to prove his elaborate conspiracy theory
and force a settlement from Mr. Rjortsberg and/or his clients as discussed in reference to Rules
1.1 and 3.1 herein. Throughout his representation of the Moores — and for a time thereafter — he
engaged in a persistent course of conduct that demonstrated a complete disregard for his
obligations as an attorney under the rules of the Circuit Court, Maryland Appellate Courts, the
U.S. District Court for the District of Maryland, and United States Bankruptcy Court. While any
one of these failures may not, standing alone, constitute a violation of the Rule, the failures, in
totality, make clear to this Court that the Respondent knowingly disregarded and disobeyed the
applicable procedural rules.
The Respondent violated Rule 3.4(e) when, during the December 2011 hearing in the
Circuit Court for Baltimore City, he interjected irrelevant and unsubstantiated accusations against
Imagine and its members regarding an elaborate fraud scheme and led the court to believe that
Imagine and its officers were under investigation by the Department of Justices Mr. Svehlak
invoked his. Fifth Amendment right to remain silent. At the conclusion of the hearing, the court
vacated the confessed judgments, notwithstanding, as found by the Court of Special Appeals, 'that
the Respondent failed to, present clear and convincing evidence of extrinsic fraud..
Rule 4.4. Respect for Rights of Third Persons.
Rule 4.4(a) provides:
(a) In representing a client, a lawyer shall not use means that' have no substantial
33

A-1 1 7

purpose other than to embarrass, delay, or burden a third person, or use methods of
obtaining evidence that the: lawyer' knows violate the legal rights of such a person.
in Attorney Grievance Commisgan v. Payer, 425 Md. 78, 96 (2012), the Court of Appeals,
citing Att'y Griev. Gomm 'n v. Link, 38Q, Md. 405, 425, 844 A.2d1 1197, 1209 (2004) stated:
Irt presenting legal argument, there is aproper place for passion and,
indeed, for the panoply of literary devices designed and appropriate
to give power, force, and clarity to the argument . . . Mhis Court
confirmed 'that there are some limits, that 'attorneys are required_ to
act with common courtesy and civility at all times iri their dealings
with those concerned with the legal process.'
The Court finds the Respondent violated Rule 4.4(a) on numerous occasions. As' stated,
the Respondent developed an elaborate conspiracy theory and embarked on a coutse of conduct to
prove his theory incomplete disregard. of his obligations to his clients, the courts, opposing counsel
or third parties. His conduct exceeded the bounds of zealous advocacy and violated Rule 4.4(a),
The Respondent violated Rule 4.4(e) when he launched an ad Itontinent attack on Mr.
Svehlak's character. He violated the Rule when he threated to report Mr. Hjortsberg and Ms.
Sparks to the Attorney Grievance Commission if they refined to dismiss the appeal in the Court
of Special Appeals. The Court finds the conduct had no substantial purpose other than to burden,
harass: and embarrass Mr. Svehlak, Mr. Hjortsberg and Ms, Sparks.
On August 22, 2012, the Respondent, while the. appeal was pending in the Court of Special
Appeals, wrote directly to then-Chief fudge Krauser and accused Mr. Hjortsberg, his associate and
non-attorney members of his staff of misconduct including having "ex parte" communications
with the clerk's office in an attempt to "manipulate the trial court record" and "manufacture
arguments for appellate review!' The allegations: warranted no response from Chief fudge Krauser
arid this Court finds they were made to further harass, burden and embarrass the named individuals
34

in his continued effort to force them to dismiss the appeal.
The Respondent's numerous threats to sue .Bowie .& Jensen, Mr. Hjortsberg, Ms. Sparks,
and a paralegal, also violate Rule 4.4(a). Specifically, the Resportdent throated to sue both Bowie
& Jensen and the individuals for various claims including: facilitation of fraud, fraud, aiding and
abetting, defamation, civil conspiracy, 42 USC 1983, 42 USC 1985, malicious prosecution, abuse
of process,. and RICO/racketeering. The threats were without any substantial basis other than to
harass and burden his opponents. See Attly &ley. Comms'n v. Coeco, 442 Md. 1, 109 A.3d 1176
(2015) (concluding attorney violated Rule 4.4 by presenting invalid subpoenas to witnesses in
order to obtain a copy of a Surveillance video and,. when the individuals did not comply, threatening
them with personal lawsuits).
The Respondent's motivation for threatening Bowie & Jensen, Mr..Hjortsberg and Ms.
Sparks is made clear through his various "settlement' offers — namely, it was his own financial
gain. For example (all sic in original):
The Respondent wrote to Mr. Hjortsberg and stated: "I will remind
you that our suit is already at 28 Defendants (including several
attorneys) and that there still may not be enough to pay a. likely
award by a Baltimore City jOryiti this case."
In demanding $5,000,000 to avoid filing a lawsuit, he stated: "Mhe
way I look at it, there are two potential law finn insurance policies.
. if they are big enough. we can. avoid a suit, but if not . we
can't.. . I always thought doing this quietly might be best way for
all."
Later he stated: "Hjortsberg and his firm are far easier defts (except
maybe for his clients) than anyone in that case (many more culpable
for my clients' injuries and some pretty corrupt, but none nearly as
easy)... We haven't discussed a number for a partial settlement, but
my clients are open to one . . . if it is within hjortsbergs policy limits,
bed be damn smart to go for a global. . ."
35

A-119

In his profanity laced email of July 20, 2012, the Respondent
threatened what could be construed as physical violence and offered
to settle the purported claims, against Mr. Hjortsberg a.nd Bowie &
Jensen for $5,000,000.
On July 26, 2012, having received no response to his settlement
demand, the Respondent identified Mr. Hjortsberg as "target
defendant #1." The Respondent then made a cryptic reference to
Mr. Hjortsberg's wife having been sick, implied Mr. Iljortsberg's
job would be impacted by the case, stated that Mr. Hjortsberg should
be disbarred and that the, representation. of Imagine "was the
equivalent of helping a client bury a murder weapon."
The Respondent, by threatening Tmagine's attorneys, improperly sought to compel a quick
out of court exorbitant settlement funded bythe lawyers' malpractice carriers. Seeking such "deep
pocket," without justification is found by this Court to be persuasive evidence of Respondent's
greed and self-interest that pervaded his entire course of conduct.
The record also reflects the Respondent's pattern of 'using threats, harassment, disciplinary
complaints, and lawsuits.-to' deprive opposing parties of their choice of counsel. The conduct had
no purpose or justification other than to burden his opponents and opposing counsel and therefore
constitutes a violation of Rule 4.4. In November 2011, shortly before the hearing in the Circuit
Court in the confessed judgment case, the Respondent filed a complaint against Imagine's thencounsel with the Attorney Grievance Commission. Citing the complaint, counsel withdrew his
appearance approximately one week before the scheduled hearing. Less than one month after
Imagine retained Bowie & Jensen, the Respondent began threating Mr. Hjortsberg with the filing
of a disciplinary complaint and a lawsuit By July 2012, the Respondent Attempted to force Mr.
Hjortsberg to withdraw from the representation arguing, without any basis, that Mr. Hjortsberg's
representation of Imagine in the Court of Special Appeals was an unethical "attempt to conceal.
[Imagine}'s criminal conduct."
36

A-120

On July 18, 2012, after threatening to file various claims, the Respondent asked Mr.
Hjortsberg to withdraw from the representation of Imagine. On December 12, 2012, the
Respondent emailed Mr. Hjortsberg a copy of his. frivolous 68-page "Memorandum in Support of
Plaintiffs' Emergency Motion to Disqualify the Irnagine Defendants' Counsel, et at" to be filed
in Moore v. Svehlak. The Respondent also sent a copy of the motion to Mr. Cae and asked whether
Mr. Hjortsberg "is leaving the federal case voluntarily." On December 14, 2012, he filed the
Motion in the US. District Court and argued that*. Hjortsberg and Bowie& Jensen are potential
co-conspirators and were, therefore, disqualified from representing. Imagine.
Additionally, this Court finds the Respondent violated Rule 4.4 when he filed suit against
28 defendants in. the Circuit Court seeking damages in the amount of $17,000,000. SeeAtt'y Griev.
Comatin v. Alison, 349 Md. 623, 632, 709 A.2d 1212, 1216 (finding the attorney violated Rule 4.4
when he included certain defendants in a lawsuit without substantial justification and others in "an
attempt to get to some deep pockets by using a shotgun approach and hoping to obtain a good
settlement.")
This Court finds the Respondent's conduct, described herein, was knowing, intentional and
willful. The Respondent sought to extract a settlement through improper means, namely threats,
harassment, and attempts to burden and embarrass those that opposed his demands. His pattern of
conduct violated Rule 4.4. Att'y Griev. Commin v. McClain, 406 Md. 1, 15, 956 A.2d 135, 143
(2008), cert. denied, 129 S. Ct. 1691 (2009) (attorney violated Rule 4.4(a) when "his actions were
pursued in total disregard for their substantial cost to [the opposing party], were intentionally
dilatory and were without legal basis).
37

A-121

Rule 8.4. Misconduct.
Rule 8.4 provides, in part:
It is professional misconduct for a lawyer to:
(a) violate or attempt to violate the. Maryland Lawyers' Rules of Professional
Conduct,
engage in conduct involving dishonesty, fraud, deceit or misrepresentation;
engage in conduct that is prejudicial to the administration of justice;
The Respondent, having violated other Rules. of Professional Conducts violated. Rule gA(a).
See Att'y Griev. Comnz'n v. Nelson, 425 Md. 334, 40 A.3d 1039 (2012).
The Court finds the Respondent violated. Rule 8.4(e) when he interjected irrelevant and
unsubstantiated accusations against Imagine and its members regarding an elaborate fraud scheme
during, the hearing in the Circuit. Court on December 7-8, 2011. During the hearing, the
Respondent leered at Mr. Svehlak and led the court to believe that Imagine and its officers were
under investigation by the Department of Justice. While the Respondent's misconduct as it relates
to Rule 8.4(c) was isolated to misleading statements at the December 2011 hearing, the impact of
his misconduct was enormous., Based on the Respondent's irrelevant and unsubstantiated
accusations, Mr. Svehlak invoked his Fifth Amendment right to; remain silent and the court vacated
the confessed judgment, setting into motion the years of fiivolous litigation that followed. See
McClain, 406 Md. at 15-16, 956 A.2d at 143-44 (finding that an attorney who "adroitly
misconstrued and twisted" the facts, violated Rule 8.4(c)).
The. Court of Appeals has often repeated that conduct that is prejudicial to the
administration of justice in violation of Rule 8.4(d) is that which "impacts negatively the public's
perception or efficacy of the: courts or legal profession." Att'y Griev. Commsn v. Rand, 441 Md.
38

A-122

83, 96, 981 A.2d 1234, 1242. (2009). The Court has stated that "conduct prejudicial to the
administration of justice should not be given a restricted meaning and that the duty rests upon the
courts, and the profession as a whole, to uphold the highest standatds of professional conduct and
to: protect the public from imposition by the unfit or unscrupulous practitioner." Att'y Griev.
Commin v. Mixter, 441 Md. 416, 526, 109 A.3d 1, 67 (20I5) (internal citations and quotations
omitted). In determining whether an attorney's conduct negatively impacts the public's
perceptions, the Court imposes an objective standard. Att'y Griev, Comrn'n v. Basinger, 441 Md.
703, 716-17, 109 A.3d 1165, 1172-73 (2015).
The Respondent is a vexatious litigant and his conduct, as found by this, Court, violated
Rule 84(d). In Attorney Grievance Commission v. AlLson, 317 Md. 523, 565 A.2d 660 (1989)
(Alison .1), the Court of Appeals stated:
It is clear that each person who became involved in this dispute was
viewed by [the respondent] as •an• enemy and became an object in
what appears to have been a campaign of disrespect, abuse and
intimidation . . harassment was the order of the day.
31.7 Md. At 53Z 565 A.2d at 664. The same can be said for the Respondent here. The Respondent
demonstrated a complete disregard for his obligations as a member of the Bar and subordinated
his responsibility to the courts, his clients, third parties, and his opponents in an effort to advance
his own agenda and financial gain. See Att'y Orley, Commit V. Usiak, 418 Md. 667, 691-92, 18
A.3d 1, 15 (2011) ("It is the failure to distinguish between zealous advocacy that is appropriate
and professional misconduct that gives the Court pause. . . In Respondent's zeal to manipulate the
outcome of the court proceedings, Respondent. . . subordinated his responsibility to his client to
his own desire to advance his own agenda.")

39

A-123

The. Respondent sullied the reputation of the legal profession. See AteyGriev. Comm* v.
Coeco, 442 Md. 1, 12, 109 A.3d 1176, 1183 (Idle attorneyrs misrepresentation, threats, and
intimidation depart from this model of conduct and were a grave transgression and an abuse of her
role as an officer of the legal system."); key Griev. Comm'n v. Plank, 453 Md. 446, 162 A.3d
888 (2017) (concluding the attorney violated Rule 8.4(d) when the threatened to bring an
unfounded disciplinary complaint against opposing counsel when opposing counsel refused to
comply with the attorney's discovery requests); Att'y Griev. Comm'n v. Powers, 454 Md 79, 10607, 164 A.3d 138, 154 (finding the attorney violated Rule 8.4(d) where, inter alio, defendants were
required to incur legal fees to defend against a frivolous complaint); Att), Griev. Comm 'n v. Alison,
317 Md. 523, 540, 565 A.2d 660, 668 (1989) (Alison .1) (concluding attorney who used profane
and vulgar language in his interaction with An employee of the clerk's office violated Rule 8.4(d));
Alt), Griev. Comm'n v. Alison, 349 Md. 623, 640, 70.9 Ald 1212, 1220 (Alison Ii (attorney who
used the legal system 9.n. his efforts to obtain revenge against [an individualj" and who
"unnecessarily involved [other individuals] in th[e] matter for the sole purpose of carrying out this
vendetta" violated Rule 8.4(d)); At' Griev. Comm'n v. Basinger, 441 Md. 703, 109 A.3d 1165
(2015) (finding attorney's insults, including obscene, sexist word, aimed at a client, were
"egregiously unprofessional" and "grossly exceeded an appropriate expression era] grievance"
in violated Rule 8.4(d)); Aley Griev. Comm'n v. Mixter, 441 Md. 416, 526 109 A.3d 1, 67 (2015)
(concluding attorney violated Rule 8.4(d) when he engaged in misconduct "in an effort to abuse
and browbeat his opponents" and was abusive towards, his colleagues at the bar).
The Respondent engaged in a persistent course of misconduct fueled by his conspiracy
theories and disconnected from the facts and the applicable procedural and substantive law. The
40

A-124

Respondent's theories were, as evidenced by the record!built ''upon his own suggestions and
innuendoes, which [were] devoid of proof" Kerpelman,.2$8 Md. 341, 365, 420 A.2d 940, 951,
952 (1980) (Xerpelmw; J. The years-long campaign he embarked upon to Vindicate his baseless
theories exceeded the bounds of zealous advocacy and violated Rule 8.4(d). See Mixter, 441 Md.
at474-75, 109 A.3d at 37, citing: Little v. Duman, 14 Md,App. 8, 15., 284 A.2d 641, 644 (1971)
("Zeal in advocacy is commendable, but zeal, even in advocacy, without bounds may be
tontertiptimus and disruptive[n:
This Court finds that the Respendent wasted judicial resources with. 'his frivolous and
incompetent filings including the resources of the Circuit Court for B,altirriore City, the :Court Of
Special Appeals, the Court of Appeals, the U.S. District Court for the District of Maryland, the
U.S. Court of Appeals for the Fourth Circuit and the U.S. Pankrtiptcy Court. The Respondent
caused those he threatened and sued to spend time and resources to defend against his baseless
allegations and repeatedly sought to intimidate and harass his opponents to coerce :a settlement
contrary to the merits of any of his claims. The: Respondent brought the legal profession into
disrepute.

MITIGATING FACTORS
Mitigating factors include: (1) the absence of prior attorney discipline; (2) the absence of
a dishonest or selfish motive; (3) personal or emotional problems; (4) timely good faith efforts to
make restitution or to rectify [the misconduct's] consequences (5) MI and free disclosure to the
Commission or a cooperative attitude toward the attorney discipline proceeding; (6) inexperience
in the practice of law; (7) character or. reputation; (8) a physical disability; (9) a mental disability
41

A-125

or chemical dependency, including alcoholism or drug abuse, where:. (a) there is medical evidence
that the lawyer is affected by a chemical dependency or mental disability. (b), the chemical
dependency or mental disability caused the misconduct; (c) the lawyer's recovery from the
chemical dependency or mental disability is demonstrated by a meaningful and sustained period
of successful rehabilitation; and (d) the recovery arrested the misconduct, and, the misconduct's
recurrence is unlikely; (10) delay in the attorney discipline proceeding;. (11) the imposition of other
penalties or sanctions; (12) remorse; (13) remoteness ofprior violations of the Maryland Attorneys'
Rules ofProfessional Conduct; and (14) unlikelihood of repetition of the misconduct..
The Court finds only mitigating factor (1), the absence of prior attorney discipline, is
present in this matter, as conceded by Petitioner.

FINDINGS AS TO ANY REMEDIAL ACTION TAKEN BY THE RESPONDENT
The Courts finds, that the Respondent has taken no remedial action as regards his conduct.

AGGRAVATING FACTORS
In Attorney Grievance Conuniseon v. Shuler, 443 Md.. 494, 506-0'7, 117 A.3d 38, 46
(2015), the Court of Appeals stated:
This Court sanctions a lawyer not to punish the lawyer, but instead to protect the public
and the public's confidence in the legal profession. This Court accomplishes these goals
by: (1) deterring other lawyers from: engaging in similar misconduct; and (2) suspending
or disbarring a lawyer who is unfit to continue to practice law.

42

A-126

The Court of Appeals has recognizedthe following aggravating factors:
Ptior disciplinary offense
A dishonest or selfish motive;
A pattern of misconduct;
Multiple offenses;
Bad faith obstruction of the disciplinary proceeding by
intentionally failing to comply with rules or orders of the
disciplinary agency,
Submission of false evidence, false statements, or other
deceptive practices during the disciplinary process;
Refusal 'to acknowledge the wrongful nature of conduct;
Vulnerability of victim;
Substantial experience in the practice of law; and
Whether he or she displayed indifference to making restitution.
See Atey Orley, Commli v Sperling, 434 Md. 658, 676-77, 76 A.3d 1172, 1183 (20.13)
(citing Standard 9.22 of-the American Bar Association Standards for Imposing Lawyer Sanctions). •
The Court having reviewed the Record in this matter, and by virtue of facts deemed admitted as a
result of the Default Judgment entered against Respondent, finds the existence of aggravating
factors numbered (2) through (7) and (9) by clear and convincing evidence, as follows:
Factor 2: The Respondent has demonstrated a selfish motive. The record makes clear that
the Respondent was motivated by his own financial gain. Between October 2011, when he was
retained by the Moores, and February 2013, when 'the Moores filed for bankruptcy, the Respondent
had charged the Moores at least $85,604.61. The frivdlous filings and argumentS, as well as well
as his abusive and threatening behavior were aimed at forcing a settlement from Imagine, Mr.
Hjortsberg, Bowie & -Jensen, or any other actual or perceived defendant, by any means, for the
Re.spondent's financial :gain. Once the Qui Tam suits were assigned to him by the bankruptcy
Trustee, the Respondent continued to pursue the first "parasitic" claim solely to advance his
personal interests. It was only after Judge Blake dismissed the first suit with prejudice that the
43

A-127

Respondent moved to dismiss the second Qui Tam action. Similarly, the Respondent's December
18, 2014 filings in the Court. of Special Appeals were nothing more than a last-ditch effort to
advance his self-interest and personal gain.
Factors 3 and 4: The Respondent displayed a pattern of misconduct and committed
multiple offenses. His misconduct spanned years, from 2011 through 2014, and his obstruction of
this disciplinary proceeding spanned an additional three years, from 2016 to 2019. The
Respondent's misconduct violated his obligations, to his, clients (Rules 1.1 and 8.4), the courts
(Rules 3.1 and 8.4), opposing counsel and parties (Rules 3.1, 3.4, and 84), and third parties (Rules
4.4 and 8.4). Similarly, the two Qui Tam cases filed in the U.S. District Court, one of which was
pursued, were not supported by fact or law as outlined by Judge Blake in her March 28, 2017
Memorandum.
Factor 51 The Respondent engaged in bad faith obstruction and deceptive practices during
the pendency of this disciplinary proceeding. The Respondent flied two frivolous Motions to
Dismiss in this Court in violation of established law and Rule 19-725(e); he failed to file a timely
Answer as required by Rule 19-724, forcing the. Petitioner to file a Motion for Order of Default;
he failed to respond to discovery for more than two years in violation of this Court's Scheduling
Order and Rules 2-421(b) and 2422(c), forcing the Petitioner to file two Motions, for Sanctions
and, a Supplement thereto; when he did respond to discovery, his untimely responses were wholly
deficient; he removed the case twice to the U.S. District Court without basis and filed a frivolous
appeal of the order of remand to the U.S. Court of Appeals for the Fourth Circuit to further delay
the proceedings; he requested multiple extensions of time to file his briefs; he engaged in vexatious
discovery tactics in an effort to harass and intimidate Petitioner's current and former attorneys; he
44.

A-128

made repeated scurrilous accusations about Bar Counsel; he sought to intimidate and harass the
Petitioner and opposing ctrunsel, and made numerous meritless efforts to disqualify Bar Counsel
Lawless as counsel. See Ait'y Griev. Comm'n v. Maldonado, 463 Md. 11, 203 A.3d 841, (2019)
(finding bad faith obstmction of the disciplinary process where the attorney evaded service, failed
to file a timely answer, and failed to timely and completely respond to discovery forcing Bar
Counsel to file for sanctions); AtCy Griev. Comm 'n v. Phillips 451 Md. 653,1'55 A.3d 476 (2017)
(finding attorney obstructed the disciplinary proceeding when, he filed as frivolous motion to quash
an investigative subpoena "for the sole purpose of obstructing the investigation and delaying his
having to make a statement under oath."); Att'y &ley. Comm'n v Culver, 381 Md. 241, 849 A.2d
423 (20.04) (finding an attorney engaged in a pattern of.conduct of obsiniction and delay when he
filed a frivolous bankruptcy petition on the eve of the damages hearing and removed the case to
federal court shortly before the rescheduled hearing); Atey Griev. Comm'n v. Link, 380 Md. 505,
844 A.2d 1197 (2004) (J. Wilner concurring) (writing separately to address the attorney's
unfounded accusations about Bar Counsel and finding the conduct to be "inexcusable and
deplorable".).
Factor 6: Additionally, the Respondent, throughout this disciplinary proceeding, has
shown a propensity to misstate the law and to omit inconvenient but essential, facts from his
arguments. In his Motion in Limine filed June 21, 2019, in which he sought to prevent the
Petitioner from presenting evidence related to frivolous'• filings, the Respondent stated: ". . . no
court has ever found any filing presented by the Respondent to be 'frivolous'. . ." What the
Respondent omits, is highly significant Namely that the Court of Special Appeals found the
Respondent's arguments to have "no merit" and Judge Blake finding his Qui Tam complaint to be
45

A-129

"parasitic." In. the same Motion, the Respondent alleged that the Petition did not provide adequate
notice of the Rule. 3.1 violations. In support of his argument he cited three inapposite cases. In
Bell Ailantic v. 71vombly, 550 U.S. 554 (2007), die Supreme Court analyzing whether a complaint
alleged sufficient facts of an antitrust conspiracy under the Sherman Act to withstand a motion to
dismiss for failure to state a claim. Canova v: State, 278 Md. 483 (1976), is a case addressing the
question of whether the trial court erred in dismissing criminal informations filed against a
defendant. Finally, Valentine v. On Target, inc., 353 Md. 544 (1999), reviewed, a trial court's
grant of a motion to dismiss in a negligence ease. The Respondent failed to cite the wellestablished and applicable law for attorney disciplinary cases in Maryland:
A petition for disciplinary or remedial action is a notice
pleading that will be deemed sufficient so long as the petition
informs the attorney of the misconduct charged in language which
is clear and sufficiently specific to enable the attorney to prepare a
defense. No specific form or detail is required to satisfy this
threshold requirement. . . Furthermore, McDonald points to no
authority to support the proposition that every material fact relied on
ultimately by the hearing judge from the admitted evidence must
have been alleged in the Petition. There is no such authority, nor
shall, this opinion be the first of that kind.
Attorney Grievance Commission v. McDonald, 437 Md. 1, 43-44, 85 A.3d 117, 142 (2014)
(internal citations, quotations and modifteation omitted)
Also conspicuously absent from his repeated notice arguments, is the law of this
disciplinary matter. On May 12,2016, the Respondent filed a Motion for More Definite Statement
In denying the Motion, Judge Harris of this Court stated:
I think it's an easy call for the 'Court. I'm looking at the Petition, it's a separate
paragraphs in their petition, 19 pages long with 18 sub memos as to what the topic is. So if you're
claiming that you don't have — or you're not put on notice as to what is being charged for the life
of me I've read it I think it's crystal clear what the issues are in this case.
46

A-130

Notwithstanding the ruling, the Respondent, without so much as referencing Judge Harris'
finding,. continued to assert the baseless notice. arm:lent. See 4#54 Orley. Comm 'n v.. McClain,.
.406 Md. 1, 13, 956 A.2d 135, 142 (200S) (concluding the attorney filed frivolous motions "relying
on the same facts, same argument and same legal theory" previously rejected by the court).
In his Motion in Limine filed June 21, 2019, requesting. the Petitioner be precluding from
'offering any evidence regarding the Rule 8.4(c) charge, the Respondent stated that Petitioner
conceded that the Respondent did net violate Rule S.4(c), The -statement is false. In .supportof
his argument, the Respondent.cited to the Petitioner's acknowledgment that the violation was not
based on "Misrepresentation or false .statements." The Respondent omitted entirely, the other
grounds for finding. a violation of the Rule: dishoneSty, fraud and deceit.
in his: Motion for Reconsideration.frled on July 3 2019, the Respondents in arguing that
this Court - was required to hold a. hearing prior to granting Petitioner's Motion for Sanctions,. the
Respondent contorts the facts of this case and the relevant law to claim that this Court "disposed
of the entire case." In support of his argument, the Respondent cited' to K4r1v, Blue Cross & Blue
Shield .071foriland, Inc., 10.0 Md. App.

642 A.2d 903 (1994), stating lii Karl, the Court of

Special Appeals reversed the entry of sanctions because the Appellant did not receive a hearing.on
the Appellee's Motion for Sanctions." The Respondent omits the critical fact that the sanction
granted by the trial court in Karl was dismissal of the complaint and, as is his pattern, the
Respondent failed. to cite the applicable law. Pirst„ as the Respondent is well-aware, the hearing
judge in a disciplinary matter cannot dismiss. or finally dispose of a case. Maryland Rule 19-725.
See also Maryland Rule 1.9-741 .(providing only the Court of Appeals can. enter a. final disposition
in a disciplinary matter). Second, in Logan v. LSP Marketing Corp., 196 Md. App. 684, 11 A.3d
47

A-131

355 (2010), the Court of Special Appeals, citing to earlier precedent stated: "For a decision to be
deemed dispositive of a claim or defense within the contemplation of Rule 2-311(f), it must
actually and formally dispose of the claim Or defense. It is not enough to argue that it is the
functional equivalent of a dispositive decision or that it lays the inevitable predicate for such a
decision." (internal citations omitted). In Logan, the Court concluded::"the dispositive actionwas
the granting of summary judgment in favor of [Appellee]. Although the grant of summary
judgment may have resulted from. earlier discovery rulings, the court did not directly dismiss the
case when it granted [Appellee]s motion for sanctions. As such, the court did not abuse its
discretion by ruling, on the motion without holding a hearing." Id. at 697, 362.
Factor 7: Respondent has shown a complete refusal to acknowledge the wrongful nature
ofhis conduct. As recently as June 21, 2019, in his Motion in. Limine regarding the testimony of
Mr. Hjortsberg and Mr. Coe, the Respondent stated that he "did not violate a single Maryland Rule
of Professional Conduct."
The Respondent's extraordinary obstruction of the disciplinary proceeding, including
repeated frivolous filings; failure to comply with applicable. Mess harassing and attempting to
intimidate opposing counsel, and developing a conspiracy theory about Bar Counsel's rOle and
motives in the disciplinary process, repeats and mirrors, in many ways, the underlying misconduct
with which he is charged. As such, the Court finds it to be the Respondent's modus operandi.
In Maldonado, 463 at 52,. 203 .A.3d at 864-65, the Court found the lawsuit filed by the
attorney against Assistant Bar Counsel alleging defamation supported a conclusion that she refused
to recognize the wrongful nature of her conduct. The Court wrote further:
[Tjhe respondent appears not to understand that she is before us not
because of some conspiracy between [various witnesses] and Bar
48

A-132

Counsel, but instead because of her own. wrongdoing. We are
concerned that she does, not appear to understand the wrongful
nature oilier conduct.
As with Maldonado, the Respondent's refusal to acknowledge the wrongful nature of his
conduct leading, to this disciplinary case and his similar conduct during these proceedings supports
a finding that there is a strong likelihood of repetition of the misconduct.
Factor 9: At the time of Respondent's first involvement in the cases underlying this matter
he had been practicing, law for six years. Through the myriad litigations and this disciplinary
process, with its various detours and delays, Respondent has now practiced nearly fourteen years.
For a significant portion of this disciplinary process Respondent has appeareclpro se. A review of
the pleadings he has drafted in both the underlying cases and the current matter, along with his
sophisticated efforts to prosecute appeals and removals to the. Federal courts demonstrate
substantial experience in the practice of law. This is a strong aggravating factor, as such a
sophisticated and experienced litigator subverted his intellect and abilities to bully and threaten
other attorneys, deceive courts, and attempted to utilize the law as a cudgel for his own
aggrandizement and self-serving ends.
WHEREFORE, it is this found by the Circuit Court for Anne Arundel County, for the
reasons set forth herein, that the Respondent, Jason Edward Rheinstein, has violated the. Maryland
Lawyers' Rules of Professional Conduct § 1.1, 3A, 3.4, 4.4 and 8.4.
Signed: 8/19/2019 03:58 PM

Judge Glenn L. Klavans

49

A-133

ATTORNEY GRIEVANCE COMMISSION * IN THE
OF MARYLAND
CIRCUIT COURT
*
Petitioner
v
FOR
JASON EDWARD 'WEINSTEIN

ANNE ARUNDEL COUNTY

Respondent
CN1
cNi *
c

*

*

'Case Na. C-02-CV-16-000597
*

.*

*

*

N-

SECOND MEMORANDUM OPINION &. ORDER
U-

Upon (1) Petitioner's Motion for Sanctions and Order of Default, filed July 19t 2017, and
Respondent's Opposition to Petitioner's Motion for Sanctions and Order of Default, filed August
2, 2017., (2) Petitioner's Motion for Sanctions and/or Motion in Lirnine, filed. June 2,20.19 and
Supplement to Petitioner's Motion for Sanctions and/or Motion. In "Amine, filed June 24, 2019,
and Respondent's Opposition to Petitioner's Motion fax anetions and/or Motion:In Limn, filed
June 24, 2019, and after reconsideration of this Cottrt's Memorandum Opinion & Order granting
a default judgment in favor of Petitioner, and upon a review of the record in this matter, and after
hearing, the Court finds as fallow&
procedural !dam
Petitioner served its First Set of biterrogatories and First Request for Production of
Doeuments upon Respondent On April 22, 2016. Wlien Respondent failed to respond to such
discovery requests, Petitioner filed a Motion for Sanctions and Order of Default on July 19,2017
(after this matter had been removed to federal court by Respondent and subsequently remanded
to the Circuit Court). Said Motion was never ruled upon due to Respondent's second removal of
this matter to federal court and the stay of this matter by the Court of Appeals. Upon the federal

A-1 34

courts again reinanding the ',Matter:to the Circitit Cote, the stay wain lifted and PetitiOnettenewed
its Motion for Sanctions on June 12,2019.
.standardofunaliAsis
The factors used to, guide a trial court's deeision.to impose sanctions.for a failure of
idistovely are -articulated in Taliaferro v. State of:Map/Ind, 295 Md. 376 (1983):
(1) whether the disclosure violation was technical or -substantial; (2) thetithing of the
ultimate disclosure; (3) the reason,. if any, for the violation; (4) the degree of prejudice to the
parties respectively offering and opposing the evidence, and (5) whether any resulting prejudices
might be cured. by a postponement arid, if.s% the:overall desirability of a continuance. Frequently
these factors overlap. They do not lend themselves to a. compartmental analysis.
Also see: Hossainkhail v. Gebrehiwot, 143 Md. App. 716 (2002), W-arehime v. Dell, 124
Md.App. 31, 45, 720 A.2d 1196 (1998); Heineman v. Bright, 124 Md,App. 1, 8-11, 720 A.2d
1182 (1998); Valentine-Bowers v. Retina Group of Washington,. D.C., 217 Md. App. 366 (2Q14).
The power to impose sanctions is not dependent on a acting that the defaultingparty
acted willfully or contumaciously: See North. River his. Co. V. Mayor & City Council of
Baltimore, 343 Md. 34, 86, 680 A.2d 480 (1990; see also Scully v, Tanber„ 138 Md.App. 423,
432-33, 771 A.2d. 550 (2001).
whether the disclosure violation was technical or substantial
The Respondent failed, after proper service, to respond to, or supplement, in a timely
manner, Petitioner's First Set of Interrogatories, and Petitioner's First Request for Production of
Down:lents, Electronically Stored Inforthation and Property. Such failure was substantial and not
merely technical.

2

A-135

Respondent's failures of discovery severely prejudices the Petitioner by preventing
Petitioner to learn the identity of Respondent's intended hearing witnesses, including expert
witnesses, reviewing Respondent's documentary evidence, both as to facts and mitigation,
conducting discovery thereon and properly preparing for the hearing scheduled in this matter,
especially in light of the time limitations imposed by law on the timely conduct of attorney
disciplinary hearings, as reflected in the Scheduling Order entered in this matter.
the timing of the ultimate disclosure
The stay in this matter was lifted by the Court of Appeals on May 17, 2019. Yet,
Respondent continued to fail to respond to the pending discovery requests. The Court fmds that
Respondent's counsel's email to Bar Counsel attempting to informally provide possible witness
names, including an expert witness, for the first time on June 6, 2019, a mere 26 days prior to the
scheduled hearing, more than three years after discovery was propounded, and clearly after the
discovery deadline in August 2017, was the very first glimmer of compliance with the discovery
rules. It was too little and much too late.
Respondent's wilful and deliberate course of conduct to subvert the discovery process is
also clearly demonstrated from the styling of Respondent's eleventh-hour formal responses to the
discovery requests: "Respondent's Answers to Petitioner's Renewed First Set of Interrogatories"
(emphasis added), and "Respondent's Response to Petitioner's Renewed First Request for
Production of Documents, Electronically-Stored Information and Property" (emphasis added),
which were served upon Petitioner on June 13, 2019, 19 days before the scheduled hearing.
Petitioner's discovery requests were not renewed. To the contrary, they had been propounded on
April 22, 2016.
3

A-136

The Court further finds that Respondent made no good faith effort to resolve this discovery
dispute. To the contrary, Respondent's position that Petitioner's discovery requests had been
somehow nullified by virtue of his removal of the matter to Federal court is unsupported in law. It
is noted that the record in this matter reveals that Respondent sought no protective order against
such discovery requests. As such, it clearly indicative of dilatory and wilful conduct. The timing
of such ultimate, untimely disclosure acts as a tacit admission by Respondent of his previous
failures of discovery.
the reason, if any, for the violation
In addition to his position that the discovery requests had somehow expired due to the
removal of the case to federal court, Respondent puts great stock in the fact that he filed a 99-page
Answer to the Petition in this matter, supplemented by what is described as 12,000 pages of
related documents. From these materials, Respondent asserts that Petitioner was given adequate
notice of defenses, potential witnesses and documents. Respondent infers that such an
information and document dump effectively satisfied his discovery obligations to the extent that
Petitioner could be adequately prepared for hearing, and as such, no significant sanction should be
opposed. Yet, Respondent filed no requests for a protective order against Petitioner's discovery
on the basis that he had satisfied his obligations. To approve of Respondent's theory leaves
Petitioner with the burden of effectively answering its own propounded discovery by guesswork
as to which witnesses and documents in the Answer and provided documents would be produced
by Respondent at hearing. To approve of such an approach subverts the orderly conduct of the
discovery process as set out in the Maryland Rules. Rule 2-421(b) requires formal responses to

4

A-137
••••••••••••

propounded interrogatories, and Rule 2-422 (c) requires formal responses to requests for
production of documents.
The actions of the Respondent, as evidenced by his failure to respond to or supplement
discovery requests, without excuse, was purposeful and wilful. Respondent, through previous
counsel and then pro se, engaged in a course of conduct designed to be dilatory, including but not
limited to his failures to provide discovery, and two removals of this action to the Federal courts
that were ultimately remanded to this Court (the second of which was affirmed by the 4th Circuit
U.S. Court of Appeals). This Court fmds Respondent's discovery failures were in service to his
wilful and dilatory attempts to subvert the disciplinary process, and not simply as part of a
legitimate and rigorous defense.
the degree of prejudice to the parties respectively offering and opposing the evidence
As previously discussed, Petitioner is greatly prejudiced by Respondent's failure of
discovery. It is left to guess which witnesses and documents were to be produced at hearing. It
was unable to depose any of Respondent's witnesses, especially expert witnesses. Petitioner is
simply left with hearing by surprise. Respondent would be plainly rewarded for his wilful and
deliberate conduct in avoiding discovery if he were allowed to present witnesses and evidence at
hearing. The Court recognizes the prejudice to Respondent in limiting his ability to do so, or to
grant even a greater sanction such as a default judgment. But the Court is also mindful of the
unique nature of an attorney grievance procedure, which requires an expeditious process and
cooperation on the part of all respondents.

5

A-138

whether any resulting prejudice might be cured by & postponement
and, if so, the overall desirability of a continuance
The resulting prejudice to Petitioner cannot he cured by a Continuance, as the Court of
Appeals has previous refused Respondenes request for a continuatce and has ordered this matter
be heard, after its long delay, on an expedited Sehedule. Of particular guidance in this regard is the
decision rendered by the Court of Appeals in. Attorney Grievance Commission, of Maryland. v.
Kent,. 447 MI). 555 (2016).
Sanctions
Maryland Rule 2-433 detail's the sanctions available:to the Court for failures of discovery.
For the failures alleged herein, Maryland Rule 2-432(a) proscribes iinmediate sanctiOns without
first obtaining, an order compelling discovery. It is in this posture that the Court must determine
the appropriate and just sanctions.
It is well settled in Maryland that the trial judge is entrusted with the role of administering
the discovery rules and, as such, is vested with broad discretion in imposing sanctions when a
party fails to coMply with the Rules. See, Rodriguez Y. Clarke, 400 Md. 39, 56, 92.6 A.2d 736,.
746 (2007); N. River Ins. Co. v. Mayor of BaltiMore, 343 Md. 34, 47, 680 A.2d 480 (1996);
Starfish Condo. Assn V. Yorkridge Serv. Corn., 295 Md. 693,458 A.21 805 (1983); Klein v.
Weiss, 284 Md. 36, 395 A.2d 126 (1978); Mason v. Wolfing, 265 Md. 234, 288 A.2d 880 (1972);.
Attorney Grievance Commission v, Kreamer,. 404 Md. 282, 469 A.2d 500 (2008); Attorney
Grievance Commission v. O'Leary, 433 Md. 2, 69 A. 3d 1121 (2013).
In. Attorney Grievance Commission v. Powell, 369 Md. 462, 800 A. 2d 782 (2002), the
Court of Appeals upheld sanctions, for failures of discovery comparable to the instant matter. in

:6

A-139

that Matter, the Circitit COutt granted PetitiOner'S Motion fat Sanctions for.a. complete 'White of
discovery and entered an: Order directing that the Petitioner's Request for Admission off acts and
Genuineness of Documents be admitted, that the responsive pleading filed by Respondent be
stricken, that Respondent be prohibited from introducing at heating any evidence to o.ppose.the
claims of Petitioner as Se:forth in the Petition for Disciplinary Action, :and that judgment by:
default be entered against the Respondent and in favor of the Petitioner finding that the Rules of
Professional Conduct bavebeen -violated as: alleged in the Petition for Disciplinary Action. This.
Court :finds no facts orcircninstances in the instant matter to distinguish it from the type of
sanctions imposed in Powell. It is therefore:
ORDERED; PetitiOner's Motion for Sanctions and/Or Motion In Liinine is GRANTER
The Respondent's Anawerte the Petition for Disciplinary or-Remedial. Action is STRICKEN.
All factual avenderits set fOrtli in the Petition for Disciplinary or Remedial Action are deemed
admitted and proven by clear and convincing evidence,. and, it is- further
ORDERED, that JUDGMENT BY DEFAULT is entered against the Respondent and in
favor of the Petitioner, finding by clear and convincing evidence that the Rules of Professional
Conduct have been violated as alleged in the Petition for Disciplinary or Remedial Action; and it
Is: further
ORDERED; that Petitioner is directed to Ale Proposed. Findings of Fact.and.Conelusions
of Law. This Court will conduct a hearing for -the ptuliese of argument Only from the parties on
such Proposed Finding-. of Fact and Conclusions of Law;„ and it. is. further
ORDERED, that pursuant to this Memorandum Opinion,.gespondent's Motion to
Dismiss Unauthorized and improperly Filed Charges, or in the Alternative, Motion for
7

A-140

Appropriate Relief, Respondent's Motion. in ihnineto Preclude Petitioner from Introducing Any
Evidence or Argnment Regarding Allegedly Frivolous. Court Filings; Respondent's Motion in
limine to Preclude Petitioner fixirn Introducing Any Evidence That Respondent Violated MRPC
8A(c); Respondent's IVIotion in. limtne to Preclude Petitioner from Introducing (1) Any Testimony
from Ward Coe, Esquire, and Matthew Hjortsberg, Esquire, as Expert Opinitm Testimony at Trial
and (2) to Preclude Petitioner from CallingMr. Coe and M. Hjortsherg to Testify about any
Matters Pertaining to. the Two Qui Tarn Cases; Respondent's Motion to. Disqualify Lydia E.
Lawless as a. Trial Counsel for Petitioner; Respondent's Supplement to Motion to Disqualify and
Motion inlimine and for Sanctions; are all STRICKEN.

Signed: 7/12/2019 1253 PM

A-141

ATTORNEY GRIEVANCE COMMISSION
Petitioner

•

IN THE
CIRCUIT COURT

v.
FOR
JASON EDWARD RHEINSTEIN
Respondent
*

*.

*

* ANNE ARUNDEL COUNTY
*

*
ORDER

Case No.: C-02-CV-16-000597
*
*
*

ORDERED, in consideration of Respondent's Motion to Reconsider this Court's Order
of June 27, 2019, or Alternatively Motion to Alter or Amend Judgment, or Alternatively, Motion

07/10/19 mkp

to Vacate Default Judgment and Request for Hearing, the Motion is GRANTED, as to
reconsideration; and it is further
ORDERED, that the Court will hold a 30-minute hearing on Petitioner's Motion for
Sanctions and Order of Default, and Respondent's Opposition thereto, on July 10, 2019 at 9:00
AM, to be followed, if appropriate, by the previously scheduled arguments upon Petitioner's
Proposed Findings of Fact and Conclusions of Law.

Signed: 7/9/2019 01:31 PM

Judge Glenn L Klavans

A-142
••••

•••••••••••

ATTORNEY GRIEVANCE COMMISSION * IN THE
OF MARYLAND
*
CIRCUIT COURT
Petitioner
v.
* FOR
JASON EDWARD RHEINSTEIN

ANNE ARUNDEL COUNTY

Respondent
*

*

*

*

*
*

*

*

Case No. C-02-CV-16-000597
*

*

*

*

*

MEMORANDUM OPINION & ORDER

Upon (1) Petitioner's Motion for Sanctions and Order of Default, filed July 19, 2017, and
Respondent's Opposition to Petitioner's Motion for Sanctions and Order of Default, filed August
2, 2017; (2) Petitioner's Motion for Sanctions and/or Motion In Limine, filed June 2, 2019 and
Supplement to Petitioner's Motion for Sanctions and/or Motion In Limine, filed June 24, 2019,
and Respondent's Opposition to Petitioner's Motion for Sanctions and/or Motion In Limine, filed
June 24, 2019, and upon a review of the record in this matter, the Court finds as follows:
o
-•1

1. That the Respondent failed, after proper service, to respond to, or supplement, in a
timely manner, Petitioner's First Set of Interrogatories, and Petitioner's First Request for

co

0

Production of Documents, Electronically Stored Information and Property.

CD

2. The actions of the Respondent, as evidenced by his failure to respond to or supplement
discovery requests, without excuse, was purposeful and wilful. Respondent, through previous
counsel and then pro se, engaged in a course of conduct designed to be dilatory, including but not
limited to his failures to provide discovery, and two removals of this action to the Federal courts
that were summarily remanded to this Court (the second of which was affirmed by the 4th Circuit
U.S. Court of Appeals).

A-143
•••6

" • • • •••••••

The stay in this matter was lifted by the Court of Appeals on May 17, 2019. Yet,
Respondent continued to fail to respond to the pending discovery requests. The Court finds that
Respondent's counsel's email to Bar Counsel attempting to informally provide possible witness
names, including an expert witness, for the first time on June 6, 2019, a mere 26 days prior to the
scheduled hearing, more than three years after discovery was propounded, and clearly after the
discovery deadline in August, 2017, was the very first glimmer of compliance with the discovery
rules. It was too little and much too late.
Finally, Respondent's wilful and deliberate course of conduct to subvert the discovery
process is also clearly demonstrated from the styling of Respondent's eleventh-hour responses to
the discovery requests: "Respondent's Answers to Petitioner's Renewed First Set of
Interrogatories" (emphasis added), and "Respondent's Response to Petitioner's Renewed First
Request for Production of Documents, Electronically-Stored Information and Property"
(emphasis added), were served upon Petitioner on June 13, 2019. Petitioner's discovery requests
were not renewed. To the contrary, they had been propounded on April 22, 2016.
The Court further finds that Respondent made no good faith effort to resolve this
discovery dispute. To the contrary, Respondent's position that Petitioner's discovery requests
had been somehow nullified by virtue of his removal of the matter to Federal court is
unsupported in law. The Respondent sought no protective order therefore. As such, it clearly
indicative of dilatory and wilful conduct.
Respondent's failures of discovery severely prejudices the Petitioner by preventing
Petitioner to learn the identity of Respondent's witnesses, including expert witnesses, reviewing
Respondent's documentary evidence, both as to facts and mitigation, conducting discovery

A-144

thereon and properly preparing for the hearing scheduled in this matter, especially in light of the
time limitations imposed by law on the timely conduct of attorney disciplinary hearings, as
reflected in the Scheduling Order entered in this matter.
Maryland Rule 2-433 details the sanctions available to the Court for failures of discovery.
For the failures alleged herein, Maryland Rule 2-432(a) proscribes immediate sanctions without
first obtaining an order compelling discovery. It is in this posture that the Court must determine
the appropriate and just sanctions.
It is well settled in Maryland that the trial judge is entrusted with the role of administering
the discovery rules and, as such, is vested with broad discretion in imposing sanctions when a
party fails to comply with the Rules. See, Rodriguez v. Clarke, 400 Md. 39, 56, 926 A.2d 736,
746 (2007); N. River Ins. Co. v. Mayor of Baltimore, 343 Md. 34, 47, 680 A.2d 480 (1996);
Starfish Condo. Ass'n v. Yorkridge Serv. Corp., 295 Md. 693, 458 A.2d 805 (1983); Klein v.
Weiss, 284 Md. 36, 395 A.2d 126 (1978); Mason v. Wolfing, 265 Md. 234, 288 A.2d 880
(1972); Attorney Grievance Commission v. Kreamer, 404 Md. 282, 469 A.2d 500 (2008);
Attorney Grievance Commission v. O'Leary, 433 Md. 2, 69 A. 3d 1121 (2013).
In Attorney Grievance Commission v. Powell, 369 Md. 462, 800 A. 2d 782 (2002), the
Court of Appeals upheld sanctions for failures of discovery comparable to the instant matter. In
that matter, the Circuit Court granted Petitioner's Motion for Sanctions for a complete failure of
discovery and entered an Order directing that the Petitioner's Request for Admission of Facts and
Genuineness of Documents be admitted, that the responsive pleading filed by Respondent be
stricken, that Respondent be prohibited from introducing at hearing any evidence to oppose the
claims of Petitioner as set forth in the Petition for Disciplinary Action, and that judgment by

A-145

default be entered against the Respondent and in favor of the Petitioner finding that the Rules of
Professional Conduct have been violated as alleged in the Petition for Disciplinary Action. This
Court finds no facts or circumstances in the instant matter to distinguish it from the type of
sanctions imposed in Powell. It is therefore:
ORDERED, Petitioner's Motion for Sanctions and/or Motion In Limine is GRANTED.
All factual averments set forth in the Petition for Disciplinary or Remedial Action are deemed
admitted; the Respondent's Answer to the Petition for Disciplinary or Remedial Action is hereby
STRICKEN and JUDGMENT BY DEFAULT is entered against the Respondent and in favor
of the Petitioner, finding that the Rules of Professional Conduct have been violated as alleged in
the Petition for Disciplinary or Remedial Action; and it is further
ORDERED, that Petitioner is directed to file Proposed Findings of Fact and Conclusions
of Law. This Court will conduct a hearing for the purpose of argument only from the parties on
such Proposed Findings of Fact and Conclusions of Law, commencing July 1, 2019; and it is
further
ORDERED, that pursuant to this Memorandum Opinion, Respondent's Motion to
Dismiss Unauthorized and Improperly Filed Charges, or in the Alternative, Motion for
Appropriate Relief; Respondent's Motion in limine to Preclude Petitioner from Introducing Any
Evidence or Argument Regarding Allegedly Frivolous Court Filings; Respondent's Motion in
limine to Preclude Petitioner from Introducing Any Evidence That Respondent Violated MRPC
8.4(c); Respondent's Motion in limine to Preclude Petitioner from Introducing (1) Any
Testimony from Ward Coe, Esquire, and Matthew Hjortsberg, Esquire, as Expert Opinion
Testimony at Trial and (2) to Preclude Petitioner from Calling Mr. Coe and Mr. Hjortsberg to
4

A-146

Testify about any Matters Pertaining to the Two Qui Tam Cases; Respondent's Motion to
Disqualify Lydia E. Lawless as a Trial Counsel for Petitioner; Respondent's Supplement to
Motion to Disqualify and Motion in limine and for Sanctions; are all STRICKEN.

Signed: 6/27/2019 04:22 PM

Judge Glenn L. Klavans

5

A-147

ATTORNEY GRIEVANCE COMMISSION
Petitioner

IN THE
CIRCUIT COURT

v.
FOR
JASON EDWARD RHEINSTEIN
Respondent

ANNE ARUNDEL COUNTY
Case No.: C-02-CV-16-000597

*

*

*

*

*

*

*

*

HEARING ORDER

WHEREAS, the Court of Appeals, by Order dated May 17, 2019, has mandated that, as
this matter has been pending for more than three years, that the hearing be completed as soon as
possible and within sixty (60) days of said Order, the 60th day being July 16, 2019; and
WHEREAS, this matter was previously stayed on the very day of its originally scheduled
hearing; and
WHEREAS, pursuant to the Scheduling Order, dated June 8, 2017, all preliminary
matters are now closed, including but not limited to amendments, motions and discovery.
Hearing was originally scheduled for six (6) days, and the Court passed a Directive that the only
outstanding motion to be heard on the first day of the hearing was Respondent's Motion to
Dismiss Unauthorized and Improperly-Filed Charges, or in the Alternative, Motion for
Appropriate Relief; and
WHEREAS, the Respondent has represented himself, pro se, since June 30, 2017.
Counsel has communicated with the Court of their intention to enter appearances in this matter,
and their unavailability on the proposed hearing dates, but as of the entry of this Order, have not
yet done so; wherefore:
ORDERED, that the hearing in this matter shall be held on the following six (6) days:
July 1, 3, 8, 9, 10 and 11, 2019 at 9:00 AM. Petitioner shall be allotted two (2) days to present its
case and Respondent shall be allotted four (4) days to present his case. Such time allotments
shall include the outstanding motion, opening statements, cases in chief and rebuttal, and closing
arguments. The hearing will conclude no later than 4:30 PM on July 11, 2019; and it is further
ORDERED, that any requests for continuance shall be directed to the Court of Appeals,
with a copy filed in this Court.
Signed: 6/6/2019 02:21 PM

Judge Glenn L. Klavans

A-148

E-FILED
Court of Appeals
Suzanne C. Johnson,
Clerk of Court
2/28/2020 9:20 AM

ATTORNEY. GRIEVANCE COMMISSION
OF MARYLAND

IN THE
COURT OF APPEALS

v.

OF MARYLAND
Misc. Docket AG No. 77,

JASON EDWARD RHEINSTEIN
September Term, 2015
ORDER
Upon consideration of "Respondent's Motion for Reconsideration; and Request for
Hearing," "Respondent's Verified Motion for Leave to File Exhibit 9 to Motion for
Reconsideration Under Seal," and "Respondent's Line Verifying and Attaching Exhibits
to Respondent's Motion for Reconsideration and Request for Hearing," it is this 28th day
of February, 2020

ORDERED, by the Court of Appeals of Maryland, that "Respondent's Verified
Motion for Leave to File Exhibit 9 to Motion for Reconsideration Under Seal" is
GRANTED, and it is further,

ORDERED, that Respondent's Motion for Reconsideration be, and it is hereby,
DENIED.

/s/ Mary Ellen Barbera
Chief Judge

A-149

